<html>
<title> - NATIONAL SCIENCE FOUNDATION REAUTHORIZATION: PART I AND PART II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                      NATIONAL SCIENCE FOUNDATION
                  REAUTHORIZATION: PART I AND PART II

=======================================================================

                                HEARINGS

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 20, 2007
                                  and
                             MARCH 29, 2007

                               ----------                              

                           Serial No. 110-13
                                  and
                           Serial No. 110-19

                               ----------                              

     Printed for the use of the Committee on Science and Technology

 NATIONAL SCIENCE FOUNDATION REAUTHORIZATIONthe following is for the 
                          title page (inside)

                      NATIONAL SCIENCE FOUNDATION
                  REAUTHORIZATION: PART I AND PART II

=======================================================================

                                HEARINGS

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2007
                                  and
                             MARCH 29, 2007

                               __________

                           Serial No. 110-13
                                  and
                           Serial No. 110-19

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
34-012                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           FRANK D. LUCAS, Oklahoma
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                             March 20, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    14

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    16

Prepared Statement by Representative Brian P. Bilbray, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    17

                               Witnesses:

Dr. Arden L. Bement, Director, National Science Foundation
    Oral Statement...............................................    19
    Written Statement............................................    20
    Biography....................................................    23

Dr. Steven C. Beering, Chairman, National Science Board
    Oral Statement...............................................    24
    Written Statement............................................    27
    Biography....................................................    40

Discussion.......................................................    41

              Appendix: Answers to Post-Hearing Questions

Dr. Arden L. Bement, Director, National Science Foundation.......    60

Dr. Steven C. Beering, Chairman, National Science Board..........    68

                            C O N T E N T S

                             March 29, 2007

                                                                   Page
Witness List.....................................................    72

Hearing Charter..................................................    73

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................    79
    Written Statement............................................    80

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    80
    Written Statement............................................    81

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    82

                               Witnesses:

Dr. Phyllis M. Wise, Provost, University of Washington, Seattle
    Oral Statement...............................................    83
    Written Statement............................................    85
    Biography....................................................    93

Dr. Catherine T. Hunt, President, American Chemical Society
    Oral Statement...............................................    93
    Written Statement............................................    96
    Biography....................................................   101

Dr. Margaret F. Ford, President, Houston Community College 
  System, Northeast
    Oral Statement...............................................   102
    Written Statement............................................   104
    Biography....................................................   112

Dr. Carlos A. Meriles, Assistant Professor of Physics, The City 
  College of New York, CUNY
    Oral Statement...............................................   113
    Written Statement............................................   115
    Biography....................................................   116

Dr. Jeffrey J. Welser, Director of the Nanoelectronics Research 
  Initiative, Semiconductor Research Corporation
    Oral Statement...............................................   117
    Written Statement............................................   119
    Biography....................................................   128

Discussion.......................................................   128

              Appendix: Answers to Post-Hearing Questions

Dr. Phyllis M. Wise, Provost, University of Washington, Seattle..   142

Dr. Catherine T. Hunt, President, American Chemical Society......   144

Dr. Margaret F. Ford, President, Houston Community College 
  System, Northeast..............................................   145

Dr. Carlos A. Meriles, Assistant Professor of Physics, The City 
  College of New York, CUNY......................................   146

Dr. Jeffrey J. Welser, Director of the Nanoelectronics Research 
  Initiative, Semiconductor Research Corporation.................   148


          NATIONAL SCIENCE FOUNDATION REAUTHORIZATION: PART I

                              ----------                              


                        TUESDAY, MARCH 20, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      National Science Foundation

                        Reauthorization: Part I

                        tuesday, march 20, 2007
                         10:30 a.m.-12:30 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, March 20, 2007, the Subcommittee on Research and 
Science Education of the House Committee on Science and Technology will 
hold a hearing to receive testimony from the Director of the National 
Science Foundation (NSF) and the Chair of the National Science Board 
(NSB) regarding pending legislation to reauthorize core activities, 
amend administrative laws and set new policy directions for NSF.

2. Witnesses

Dr. Arden L. Bement, Jr., Director of the National Science Foundation.

Dr. Steven C. Beering, Chairman of the National Science Board.

3. Overarching Questions

        <bullet>  What are the budget, administrative and policy issues 
        that should be addressed through a 2007 NSF reauthorization 
        bill?

        <bullet>  What is the appropriate balance between funding for 
        interdisciplinary and disciplinary research? What are the best 
        mechanisms for soliciting and funding interdisciplinary 
        proposals? Is NSF doing a sufficient job of publicizing 
        opportunities for funding in interdisciplinary research?

        <bullet>  The average success rate across the directorates is 
        significantly lower for new investigators than for 
        investigators previously funded by NSF. What can NSF do to 
        narrow that gap? In particular, what funding mechanisms make 
        the most sense without undermining the merit-review process, 
        and what additional steps can NSF take to nurture young 
        investigators?

        <bullet>  NSF, unlike the mission agencies, is a mainly 
        proposal-driven agency. However, there are significant issues 
        of concern to our nation--competitiveness, security, energy--
        that can be addressed, at least in part, through technology 
        enabled by solutions or answers to known scientific challenges 
        and questions. What is the appropriate role for NSF in such 
        research motivated by national needs? In fostering industry/
        university partnerships? Is this a valid application of 
        Criterion 2 of NSF's merit review process?

4. Brief Overview

        <bullet>  NSF currently has a budget of $5.9 billion and is the 
        funding source for approximately 20 percent of all federally 
        supported basic research conducted by America's colleges and 
        universities. In many fields such as mathematics, computer 
        science and the social sciences, NSF is the major source of 
        federal backing.

        <bullet>  NSF also has a mission to achieve excellence in U.S. 
        science, technology, engineering and mathematics (STEM) 
        education at all levels and in all settings (both formal and 
        informal) in order to support the development of a diverse and 
        well-prepared STEM workforce and a well-informed citizenry.

        <bullet>  NSF is a proposal-driven (bottom-up) agency that 
        operates almost exclusively by competitive merit-review. 
        Reviewers are asked to evaluate proposals based on two 
        criteria: What is the intellectual merit of the proposed 
        activity; and what are the broader impacts of the proposed 
        activity?

        <bullet>  Breakthroughs in science and technology that will 
        have a near to mid-term impact on society are increasingly 
        requiring interdisciplinary teams of scientists and engineers 
        willing and able to cross their traditional disciplinary 
        boundaries. NSF has begun to react to the pressure from the 
        community to re-evaluate its role in interdisciplinary research 
        and education, but has not yet articulated a coherent path 
        forward.

        <bullet>  New investigators have a 17 percent funding success 
        rate, compared to a 28 percent success rate for prior 
        investigators and an overall rate of 23 percent. The CAREER 
        grant program was established explicitly to help find and fund 
        outstanding young investigators, but CAREER awards differ from 
        standard NSF awards in size, duration and evaluation criteria.

        <bullet>  The National Science Board recently eliminated cost-
        sharing for NSF awards, but certain award types are 
        particularly suitable for industry or university cost-sharing. 
        In addition, there are examples of industries eager to partner 
        with universities to help fund the science to keep U.S. 
        companies competitive and/or to solve particular technological 
        challenges. The current policy appears to present an obstacle 
        to NSF leveraging private dollars to conduct research in areas 
        of national need.

5. Background

    The National Science Foundation was established by Congress in 
1950. The agency's mission is unique among the Federal Government's 
scientific research agencies in that it is to support science and 
engineering across all disciplines. NSF currently funds research and 
education activities at more than 2,000 universities, colleges, K-12 
schools, businesses, and other research institutions throughout the 
United States. Virtually all of this support is provided through 
competitive, peer-reviewed grants and cooperative agreements. Although 
NSF's research and development (R&D) budget accounts for only about 
three percent of all federally funded R&D, the role of NSF in promoting 
fundamental research is vital to the Nation's scientific enterprise, as 
NSF provides approximately 20 percent of the federal support for basic 
research conducted at academic institutions. In many fields such as 
mathematics, computer science and the social sciences, NSF is the major 
source of federal backing.
    The Foundation is administrated by a Director, who is appointed by 
the President and confirmed by the Senate and is responsible for the 
overall operations of the agency. The Foundation is overseen by the 
National Science Board, a body of 24 eminent scientists who are 
appointed by the President (with confirmation by the Senate) to serve 
six-year terms. Terms may be renewed but no member of the Board can 
serve more than 12 consecutive years. The role of the Board, as set 
forth in the ``National Science Foundation Act of 1950,'' is to 
establish the policies of the Foundation, provide oversight of its 
programs and activities, and approve its strategic directions and 
budgets.
    NSF Budget by Functional Activities--The NSF budget can be divided 
into four general categories:

        <bullet>  Research project support funded through the Research 
        and Related Activities (R&RA) account, which supports cutting-
        edge research;

        <bullet>  Facilities, funded through the Major Research 
        Equipment and Facilities Construction (MREFC) account, which 
        supports large, multi-user research facilities;

        <bullet>  Education and training, funded through the Education 
        and Human Resources (EHR) account, which supports math and 
        science education programs at the K-12, undergraduate, 
        graduate, and postdoctoral levels, including programs to 
        broaden participation in math and science; and

        <bullet>  Administration, which supports Agency Operations and 
        Award Management (AOAM) and the Office of the Inspector General 
        (IG) at NSF.

    NSF is funded at $5.92 billion in fiscal year (FY) 2007, and the FY 
2008 request is for $6.43 billion. Of that, $5.13 billion would be 
available for R&RA and $750 million for EHR. Under the President's 
American Competitiveness Initiative (ACI), funding for NSF, in 
particular for the research budget, would double in ten years 
(beginning with the FY 2007 budget)--a seven percent increase per year. 
(A detailed overview of the FY 2008 NSF budget request is attached.)

6. Budget Issues

Major Research Instrumentation
    Major Research Instrumentation (MRI) is a funding line within R&RA 
to provide for the acquisition and development of mid-size instruments, 
ranging from $100,000 to $2.0 million. Presumably in response to a 
recent National Academy of Sciences (NAS) report\1\ on this topic, NSF 
proposed raising the cap to $4.0 million in the FY 2008 request. The 
Committee is considering raising the cap even further to $20 million to 
better capture the full range of mid-size instruments required to 
advance scientific knowledge. Specifically, the NAS panel recommended 
that ``NSF should expand its MRI program so that it includes Advanced 
Research Instrumentation and Facilities whose capital costs are greater 
than $2 million but that are not appropriate for NSF's Major Research 
Equipment and Facilities Construction (MREFC) account, which handles 
facilities that cost hundreds of millions of dollars.'' Typically the 
threshold for MREFC projects is 10 percent of the proposing 
directorate's budget, but most projects total much more. Given that the 
smallest research directorate has a budget of $200 million, a $4 
million cap may be insufficient to meet this recommendation.
---------------------------------------------------------------------------
    \1\ Advanced Research Instrumentation and Facilities, Committee on 
Advanced Research Instrumentation, National Academies Press, 2005.
---------------------------------------------------------------------------
Funding pre-construction activities for major facilities
    The MREFC budget funds the construction of large research 
facilities, such as telescopes and research ships. Congressional 
Appropriators required that funding for all pre-construction 
activities, including detailed design and costing work, come from the 
sponsoring research division rather than being available, at least in 
part, from the MREFC budget. All maintenance and operation (M&O) costs 
are also the responsibility of the sponsoring division. Unfortunately, 
because of the perennial trade-off between research and facilities, 
there is a long history of research divisions cutting corners on the 
pre-construction work, thereby underestimating or failing to minimize 
construction costs and/or M&O costs. It is not just a matter of 
inefficient use of resources--the scope of the science enabled by the 
facilities is sometimes scaled back in the face of escalating costs. 
The Committee is considering directing the Board to evaluate the 
appropriateness and trade-offs of the current policy for funding of 
pre-construction activities and report to Congress on their findings.
Education
    While the President's ACI proposes to double research budgets, the 
education budget at NSF is seeing much smaller increases. By NSF's own 
accounting, overall funding for K-12 programs in the FY 2008 request 
falls by nine percent from the FY 2007 CR level. The Math and Science 
Partnerships (MSP) Program, and the Noyce Teacher Scholarship program, 
both of which address needs in K-12 education, would be level funded. 
The Course, Curriculum and Laboratory Improvement program, which is the 
core program in the Division of Undergraduate Education, is slowly 
decreasing in funding. (On the other hand, the STEM talent expansion 
program--a program to recruit undergraduates to STEM fields--would 
increase by 12-17 percent, depending on how NSF ends up distributing 
its FY 2007 EHR budget.) Such cuts or modest increases in funding are 
coming at a time when one report after another decries the state of K-
12 STEM education, and U.S. industry is starting to raise concerns 
about the appropriateness of old paradigms in undergraduate education 
to major new developments in scientific understanding and practice.

7. Policies for Research Funding

Interdisciplinary research
    ``Training individuals who are conversant in ideas and languages of 
other fields is central to the continued march of scientific progress 
in the 21st century.'' \2\ NSF, like all federal research agencies, is 
already funding interdisciplinary research. There are several cross-
directorate and in some cases multi-agency programs, including: Cyber-
enabled Discovery and Research (a new program for FY 2008), 
Cyberinfrastructure, Networking and Information Technology R&D (NITRD), 
and the National Nanotechnology Initiative (NNI), to name a few. The 
majority of NSF-funded Centers are also staffed by multi-disciplinary 
teams of scientists, engineers and educators. In addition, individual 
directorates have their own interdisciplinary and multi-disciplinary 
coordinating activities. For example, the Mathematical and Physical 
Sciences Directorate has a separate Office of Multi-disciplinary 
Activities, which facilitates, coordinates and co-funds multi-
disciplinary and interdisciplinary activities between divisions, but 
does not directly manage any grants.
---------------------------------------------------------------------------
    \2\ Robert Day, CEO of the Keck Foundation.
---------------------------------------------------------------------------
    There is no standard definition for the term ``interdisciplinary 
research.'' Furthermore, there is no standard delineation between 
interdisciplinary, multi-disciplinary and cross-disciplinary. In 2004, 
the NAS Committee on Science, Engineering and Public Policy issued a 
report on Facilitating Interdisciplinary Research. After reviewing the 
wide range of definitions in use, the NAS report panel settled on the 
following: ``Interdisciplinary research is a mode of research by teams 
or individuals that integrates information, data, techniques, tools, 
perspectives, concepts and/or theories from two or more disciplines or 
bodies of specialized knowledge to advance fundamental understanding or 
to solve problems whose solutions are beyond the scope of a single 
discipline or area of research practice.'' The panel distinguished 
between multi-disciplinary and interdisciplinary as follows: Multi-
disciplinary teams join together to work on common problems, but may 
split apart unchanged when the work is done, while interdisciplinary 
teams may end up forging a new research field or discipline.
    The issue of facilitating interdisciplinary research and pushing 
the frontiers of 21st Century science without compromising the 
potential for advances in disciplinary research or educating a 
generation of scientists and engineers without depth of knowledge in 
any single field is a complex and controversial one. Nevertheless, it 
is an issue at the forefront of the scientific enterprise and one that 
NSF and the rest of the scientific enterprise is struggling with.
    Outside of the standing cross-directorate programs listed 
previously, most of the directorates process unsolicited 
interdisciplinary proposals from the bottom-up. This is a largely ad 
hoc process by which individual program officers receive proposals that 
they identify as interdisciplinary, decide to approach the program 
officer(s) in the appropriate division(s) relevant to the proposal, and 
work as a team to manage the review process, including putting together 
a review panel compromised of experts from all of the relevant fields. 
In some cases, instead of co-equal proposal managers, there may be a 
``principal'' program officer with the others serving as advisors. 
There is no standard policy for handling interdisciplinary proposals 
across NSF. Whether or not it makes sense to institute a Foundation-
wide policy rather than leaving the details to the heads of the 
directorates, NSF should be more clear in general about how they will 
balance interdisciplinary and disciplinary research moving forward, and 
they need to make clear to the scientific community how unsolicited 
interdisciplinary proposals are handled.
Young investigators
    In the National Science Board's 2005 report on the NSF merit review 
process, they found that new investigators have a 17 percent funding 
success rate, compared to a 28 percent success rate for prior 
investigators and an overall rate of 23 percent. The Board identified 
the new versus prior investigator gap to be the ``major gap'' in 
success rates, while other demographic subgroups--in particular, women 
and minorities--were right at or even above the Foundation average.
    The CAREER grant program was established explicitly to help find 
and fund outstanding young investigators, but CAREER awards differ from 
standard NSF awards in size, duration and evaluation criteria. In 
particular, there is an emphasis on the integration of research and 
education, which is not a required evaluation criterion for standard 
NSF research grants. The minimum CAREER award size is $400,000 for a 
five-year period. NSF-wide, the average annualized award amount for 
research grants in FY 2005 was $143,600, and the average duration is 
three years (range: one to five years).
    Small Grants for Exploratory Research (SGER) awards were 
established in 1990 for small-scale grants awarded at the discretion of 
the program officers and without formal external review. NSF made 387 
SGER awards in FY 2005 for a total of $27 million, and with an average 
size of $70,000. SGER awards are made, among other things, for 
preliminary work on untested ideas, and ventures into emerging research 
and potentially transformative ideas. Providing new investigators with 
seed money to make their proposals more competitive, for example with 
SGER funds, is one possible mechanism to help narrow the gap in success 
rates. Program officers may also be encouraged to take an active role 
in mentoring new investigators through the proposal and review process.
High-risk research
    There is another potential benefit to NSF taking a more active role 
in supporting new investigators. Young investigators, on average, are 
more likely to take risks in their research than more established 
researchers. They don't yet have a base from which to build 
incrementally, they don't yet have a large cadre of graduate students, 
post-docs and other lab personnel to support, and perhaps they are more 
willing and able by nature to think outside the box and take risks.
    The National Science Board has called for a Foundation-wide 
transformative research initiative. The Board defines transformative 
research as ``research driven by ideas that stand a reasonable chance 
of radically challenging our understanding of an important existing 
scientific or engineering concept or leading to the creation of a new 
paradigm or field of science or engineering. Such research is also 
characterized by its challenge to current understanding or its pathway 
to new frontiers.'' It is not clear what such an initiative would look 
like or how it would be carried out, but there is general agreement in 
the community that merit review panels are conservative by nature and 
that more effort needs to be made to fund high-risk research. Putting 
more effort into supporting young investigators is just one approach to 
addressing this need.
Research for national needs and industry partnerships
    NSF, unlike the mission agencies, is a mainly proposal-driven 
agency. Some solicitations are narrowly defined by agency officials to 
address research needs they have identified, in particular in the 
context of government-wide initiatives such as NITRD and NNI, but the 
majority of directorate solicitations are broad in nature. The program 
officers rely on the scientific community itself to identify the most 
pressing or interesting research questions--hence the term ``proposal-
driven.''
    The mission-driven agencies, on the other hand, solicit mostly 
proposals that address specific challenges and questions identified by 
agency officials to address national needs. In the case of the 
Department of Energy (DOE), for example, agency officials work with 
industry to identify research priorities based on industry's and the 
government's outlook for energy demand and energy technology 
development, taking into account such factors as environmental and 
health impacts as well as geopolitics and security. Recently, the 
Office of Science at DOE began to formalize this process through a 
series of workshops with the full range of stakeholders to identify 
basic research needs for solar, hydrogen, nuclear, etc. In short, the 
mission and goals are narrowly identified from the top and the basic 
research needs are subsequently identified by the scientist community 
within those constraints.
    NITRD, NNI and other such government-wide initiatives also focus on 
significant issues of concern to our nation--competitiveness, security, 
energy--that can be addressed, at least in part, through technology 
enabled by solutions or answers to known scientific challenges and 
questions. While NSF participates in and often leads these big 
initiatives, the Foundation rarely engages industry in identifying or 
supporting its own internal research priorities. There are some notable 
exceptions--the Engineering Research Centers, for example. And there 
are cases in which industry has stepped in uninvited and offered to 
supplement specific research grants because those forward-thinking 
industry leaders understand the importance of basic research to their 
own competitiveness.
Reporting of research results
    The NSF Inspector General conducted a survey regarding NSF 
constituent interest in reporting of research results. The various 
constituent groups were overwhelmingly interested in NSF posting 
publication citations and brief summaries of research results on their 
public website, as other federal research agencies already do. The 
Committee would like to see the Director take the necessary steps to 
make this happen.
Cost-sharing
    The Board recently decided to abolish cost-sharing for NSF research 
grants. They did so for two main reasons: to prevent NSF program 
officers from effectively forcing cost-sharing on universities by 
reducing funding amounts for successful grants but not reducing the 
scope of work; and to address the Inspector General's concern that NSF 
was not doing an adequate job of tracking whether proposed cost sharing 
actually materialized. However, this new policy raises concerns for 
some specific types of NSF programs, such as Engineering Research 
Centers (ERC's), which have always had substantial industry cost-
sharing and the MRI program, for which university cost-sharing is not 
inappropriate. The Committee is considering: 1) exempting MRI 
explicitly; and 2) tasking the Board to examine the impacts of its 
ruling more broadly, in particular the impacts on programs that involve 
industry partnerships. (See discussion of industry partnerships above.)

8. Administrative Issues

Oversight role of the National Science Board
    The National Science Foundation Act of 1950 created a Director to 
carry out the formulation of programs in conformance with the policies 
of the Foundation, and a National Science Board to establish the 
policies of the Foundation. While the role of the Board is considered 
by most to be both a policy-making and an oversight role, the word 
``oversight'' never appears in statute. This lack of precision in 
existing statute has at times resulted in unproductive tension between 
the Board and the Director. The Committee is considering legislative 
language to more explicitly delineate the respective roles of the 
Director and the Board.
Board role in setting priorities for major research facilities
    When proposals are submitted for major research facilities (i.e. 
facilities large enough to make it into the MREFC budget), the National 
Science Board, in the current process, is consulted after the 
conceptual design stage but gives its formal approval for the project 
only after the detailed design is complete. At that point the project 
may become an explicit part of the NSF's budget. As an oversight body, 
the Board should be involved in setting priorities for major facilities 
at an earlier stage in the process because of the long-term budget 
consequences, not just for construction costs but also for maintenance 
and operations costs.

APPENDIX

         OVERVIEW OF FY 2008 NATIONAL SCIENCE FOUNDATION BUDGET

    The National Science Foundation (NSF) is the primary source of 
federal funding for non-medical basic research conducted at colleges 
and universities and serves as a catalyst for science, technology, 
engineering, and mathematics (STEM) education reform at all levels. NSF 
is one of the research agencies that the President, in his 2006 State 
of the Union Address, proposed to double over ten years as part of the 
American Competitive Initiative (ACI). The FY 2007 budget request, 
which called for a $439 million (7.9 percent) increase over the FY 2006 
budget, was the first to reflect the ACI. The FY 2008 request maintains 
that general trend with a $409 million (6.8 percent) increase over the 
FY 2007 request, although the increases are not distributed evenly.
    The FY 2007 CR would fund NSF at $5,916 million, a $335 million 
(6.0 percent) increase from FY 2006, but a $105 million (1.7 percent) 
decrease from last year's request. Specifically, the CR appropriates 
$4,666 million for the Research and Related Activities (R&RA) account, 
and remains silent on the rest of the NSF accounts, signaling a 
continuation of FY 2006 funding levels for those accounts.\3\ The FY 
2008 request of $6,429 million is $848 million (15.2 percent) greater 
than FY 2006 spending and $513 million (8.7 percent) greater than FY 
2007 spending under the CR.
---------------------------------------------------------------------------
    \3\ In the FY 2008 NSF budget presentation, the Experimental 
Program to Stimulate Competitive Research (EPSCoR) is moved from the 
Education account to the R&RA account. This change is reflected in the 
comparisons and budget table for the prior years. The FY 2007 CR 
provided funding for the components of R&RA included in the FY 2007 NSF 
request, which did not include EPSCoR. The amount shown here for R&RA 
under the FY 2007 CR has been increased by the EPSCoR funding for FY 
2006 ($98.7 million) and the amount under Education and Human Resources 
(EHR) has been similarly reduced.
---------------------------------------------------------------------------

Research and Related Activities (R&RA)

    Scientific research programs and research facilities (which 
comprise the R&RA account) receive a $367 million (7.7 percent) 
increase from FY 2007. The increases for scientific research are spread 
fairly evenly among all fields NSF supports. The largest percentage 
increases are for the math and physical sciences, computer sciences, 
and engineering directorates. The two directorates that receive 
percentage increases below the total R&RA increase are the (non-
medical) biological sciences and the social, behavioral and economic 
sciences.
    NSF's contribution to the multi-agency National Nanotechnology 
Initiative increases by $17 million (4.5 percent), including $3 million 
more in support of research on the environmental, health and safety 
(EHS) aspects of nanotechnology. In particular, support is requested 
for a new, multi-disciplinary center to conduct EHS research and 
provide the science needed to inform the development of regulations.
    The FY 2008 budget also requests support for two new research 
initiatives, including $52 million for an NSF-wide program (known as 
CDI) to develop the computational tools and knowledge necessary to 
handle data-rich, highly complex systems and phenomena, such as the 
flow of information over the Internet, or major storms, and $17 million 
for a multi-agency program for understanding ocean dynamics, 
forecasting ocean events, and managing ocean resources. The CDI 
funding, in combination with the $47 million in increased funding for 
cyberinfrastructure, provide the $90 million (10 percent) increase in 
the NSF contribution to the coordinated, interagency research 
initiative in information technology (known as NITRD).
    The award cap for the funding of mid-size research instrumentation 
under the Major Research Instrumentation (MRI) program is raised from 
$2.0 to $4.0 million, in response to a 2005 recommendation by the 
National Academy of Sciences. The total funding level for the MRI 
program is increased by $26 million (29.5 percent) to $114 million.
    Since FY 2006, under a Memorandum of Agreement, NSF has been 
responsible for reimbursing the U.S. Coast Guard for the costs of the 
icebreakers that support scientific research in the polar regions. The 
FY 2007 CR explicitly requires NSF to continue honoring this agreement. 
The request for FY 2008 is $57 million, the same as it was for FY 2007. 
NSF also purchases back-up ice-breaking services on the open market at 
a cost of approximately $8 million per year.

Major Research Equipment and Facilities Construction (MREFC)

    The MREFC activity funds the construction of large research 
facilities, such as telescopes and research ships. Funding for the 
operation and management of these major user facilities is included in 
the R&RA budget.
    The FY 2008 request provides an increase of $54 million (28.2 
percent) for MREFC, which will allow for continuation of support for 
six construction projects and one new start. The new project, which is 
funded at $33 million in the first year, will provide for an upgrade to 
increase the sensitivity of an earth-based observatory for the study of 
gravitational waves.
    Three new projects proposed under last year's request are currently 
on hold due to funding uncertainties. Under the CR funding levels, NSF 
would be able to proceed on schedule with the two smaller projects (the 
National Ecological Observatory Network and Ocean Observatories 
Initiative), but would have only $6 million of the $56 million 
requested for the Alaska Region Research Vessel (ARRV). [report due 
March 15- might have approval by then]

Education and Human Resources (EHR)

    EHR funds most of NSF's activities that support K-12 STEM education 
and the majority of activities that support undergraduate STEM 
education. EHR also funds most of NSF's graduate fellowship and 
traineeship programs.
    The FY 2008 EHR budget request is $751 million, a $34 million (4.8 
percent) increase from the FY 2007 request and a $53 million (7.5 
percent) increase from the FY 2007 CR level (FY 2006 appropriation 
level). Most of this proposed funding increase goes to increases in 
graduate research fellowships (+ $11.2 million) and in activities to 
broaden participation in STEM fields (+ $28.6 million). NSF has also 
launched a concerted effort to evaluate program effectiveness across 
EHR, and in particular, for its STEM education programs and projects.
    For K-12 education programs, the budget request is a good news/bad 
news story. After proposing in the past two budgets to eliminate the 
Math and Science Partnership (MSP), this year's request would provide 
level funding at the FY 2007 request of $46 million, which is still $17 
million less than FY 2006 spending.\4\ Since there have been very few 
new starts during the past two years, the requested funding level will 
provide $30 million for new starts in FY 2008. However, overall funding 
for K-12 programs in the FY 2008 request falls by nine percent from the 
FY 2007 CR level.
---------------------------------------------------------------------------
    \4\ It remains unclear how FY 2007 actual spending for MSP will be 
affected by the CR, since the FY 2007 request, in this case, was much 
lower than FY 2006 spending. However, it is likely that NSF will be 
guided by their FY 2007 request in making this decision.
---------------------------------------------------------------------------

Agency Operations and Award Management

    This NSF account, previously called Salaries and Expenses, funds 
the internal operations of NSF. The FY 2008 request provides an 
increase of $39 million (15.7 percent) above the FY 2007 CR.
    NSF is facing the challenge of expanding its workforce to 
accommodate the demands created by the growing research budgets. H.J. 
Res. 20 would delay many planned new-hires in addition to planned 
upgrades of the electronic system used to receive and process grant 
applications. Most of the $39 million increase for agency operations 
and award management in the FY 2008 budget request are slated for these 
two needs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Baird. This hearing will come to order.
    I want to welcome our distinguished guests and visitors 
here to the first of two Research and Science Education 
Subcommittee Hearings dedicated to the development of 
legislation to reauthorize programs at the National Science 
Foundation.
    Today, we will hear from the distinguished Director of the 
National Science Foundation and the Chair of the National 
Science Board. Next week, we will hear from a diverse panel of 
outside witnesses who will weigh in on some of the broader 
issues we hope to address through this legislation, including 
support for young investigators, NSF's important role in 
science, technology, engineering, and mathematics (STEM) 
education, the industry's role in supporting basic research and 
the future of interdisciplinary research.
    As part of our hearing today, I hope we will look at the 
issue of young investigators. In fiscal year 2006, new 
investigators achieved an 18 percent funding success rate 
compared to a returning investigative success rate of 30 
percent and an overall agency rate of 25 percent. I know that 
NSF is making it a priority to narrow this gap and that it 
supports outstanding, young investigators through the very 
prestigious CAREER grants program. However, I also believe that 
more can be done to nurture and support new researchers and 
that we need to be creative in figuring out ways to keep 
bright, young researchers in the pipeline. For this reason, the 
Committee is considering creating a new pilot program of seed 
grants to new investigators to give them an opportunity to 
strengthen their proposals before resubmitting them through the 
merit review process.
    Another topic of particular interest to us today is 
industry's role in funding basic research. There are leaders in 
the high-tech industry that understand that their future 
depends, in large part, on the scientific advances made by 
researchers in university labs across the country. 
Unfortunately, however, many in industry fail to see, or 
ignore, the potential for university-industry partnerships to 
further their own success and competitiveness. NSF can play a 
significant role in changing attitudes and fostering 
partnerships by providing incentives to both university 
researchers and private sector officials to bridge this divide 
and encourage participation and research.
    This committee is also quite concerned about the slow 
growth, and in some cases, shrinking budget of STEM education 
programs at NSF. Chairman Gordon has introduced legislation to 
strengthen and broaden existing K-12 STEM education programs at 
NSF, in particular, Noyce Teacher Scholarship program, the Math 
and Science Partnership, and the STEM Talent Expansion Program. 
Today, I would like to spend time discussing STEM's--or NSF's 
role in STEM education, including technological training at 
two-year colleges through the Advanced Technological Education 
Program. And I might interject, also, that I am very grateful 
for Dr. Cora Marrett visiting my district last week and meeting 
with a number of educational leaders throughout the spectrum. 
Dr. Marrett, it was a pleasure to have you out there, and I am 
glad you managed to get home in spite of the travel 
difficulties.
    Today, I also hope that we will explore the concept of 
interdisciplinary research. The frontiers of 21st century 
science are very much dominated by what most would consider to 
be interdisciplinary research, research conducted by teams of 
scientists that integrate information, data, methods, 
perspectives, and theories from two or more bodies of 
specialized knowledge to advance fundamental understanding or 
solve problems beyond the scope of a single discipline. Without 
compromising the strength of the individual discipline or the 
ability of the lone scientists to make great advances on narrow 
topics within his or her own field, we need to also make sure 
that interdisciplinary proposals get a fair hearing. NSF has 
shown a great leadership on this issue, but I believe there are 
ways to better define this process and look forward to ongoing 
discussions with the agency and the community on ways to go 
about this.
    I should add that many of these issues that we must deal 
with in the context of NSF reauthorization are issues that the 
greater community is also grappling with, however, because NSF 
funds 20 percent of basic research at U.S. colleges and 
universities across all science and engineering disciplines and 
because NSF continues to be at the forefront of the ever-
evolving scientific enterprise, they are issues of particular 
importance to me, to this subcommittee, and to the NSF.
    In addition to some of these broad issues, we will also 
take a look today at some specific budget and administrative 
issues at the Foundation, some of which are long-standing 
issues of concern and others of which have been brought to the 
attention of the Committee more recently.
    I want to note that this committee supports the 
Administration's proposal to double funding for basic science 
research over a 10-year period, and the authorization levels 
that we will propose are aligned with the Administration's 
plans. However, I also want to suggest that we can't afford to 
keep playing this game of increasing funding for one set of 
disciplines while decreasing or flat-lining funding of others. 
We will continue to advocate for increased fundings for basic 
and applied research across the board, but we need help from 
the entire scientific community in justifying such increases to 
the rest of our colleagues in Congress and to the American 
taxpayer as well.
    We must also recognize that these are tight budget times. 
We can't simply throw money at science because we want to. We 
need to maintain diligence in ensuring that the research we 
fund is of top quality, that federally-funded researchers are 
held to the highest standards of ethical conduct of research, 
and that we are thoughtful in setting priorities for research 
funding.
    Finally, I want to be clear that the process for developing 
NSF reauthorization bill is to be open, transparent, and 
responsive to all concerned parties, both within and outside 
the government.
    I welcome your suggestions and encourage you to be in touch 
with me with your thoughts or ideas, and that is the broad, 
you, not just our witnesses today, but others that are here in 
the audience or in the scientific community. We welcome their 
feedback and their suggestions.
    Dr. Bement, Dr. Beering, thank you for being here with us 
today. I look forward to hearing your testimony, to receiving 
your input and guidance as we develop this NSF reauthorization 
legislation, and thank you both for your leadership on the 
Foundation and the Board.
    And I now yield to my colleague, Ranking Member Ehlers, for 
his opening remarks.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning. I want to welcome you to the first of two Research 
and Science Education Subcommittee hearings dedicated to the 
development of legislation to reauthorize programs at the National 
Science Foundation.
    Today, we will hear from the distinguished Director of the National 
Science Foundation and the Chair of the National Science Board.
    Next week, we will hear from a diverse panel of outside witnesses 
who will weigh in on some of the broader issues we hope to address 
through this legislation--including support for young investigators, 
NSF's important role in science, technology, engineering and 
mathematics (STEM) education, the industry's role in supporting basic 
research, and the future of interdisciplinary research.
    In fiscal year 2006, new investigators achieved an 18 percent 
funding success rate, compared to a returning investigator success rate 
of 30 percent and an overall Agency rate of 25 percent. I know that NSF 
is making it a priority to narrow this gap, and that it supports 
outstanding young investigators through the very prestigious CAREER 
grants program. However, I believe that more can be done to nurture and 
support new researchers and that we need to be creative in figuring out 
ways to keep bright young researchers in the pipeline. For this reason, 
the Committee is considering creating a pilot program of seed grants to 
new investigators to give them an opportunity to strengthen their 
proposals before resubmitting them through the merit review process.
    Another topic of particular interest to me is industry's role in 
funding basic research. There are some leaders in high-tech industries 
that understand that their future depends in large part on the 
scientific advances made by researchers in university labs across the 
country. Unfortunately, however, most in industry fail to see, or 
ignore, the potential for university-industry partnerships to further 
their own success and competitiveness. NSF can play a significant role 
in changing attitudes and fostering partnerships, by providing 
incentives to both university researchers and private sector officials 
to bridge this divide and encourage industry participation in research.
    This subcommittee is also very concerned about the slow growth, and 
in some cases shrinking, budgets of STEM education programs at NSF. 
Chairman Gordon introduced legislation to strengthen and broaden 
existing K-12 STEM education programs at NSF, in particular the Noyce 
Teacher Scholarship program, the Math and Science Partnerships and the 
STEM Talent Expansion program. Today, I would like to spend time 
discussing NSF's role in STEM education, including technical training 
at two-year colleges through the Advanced Technological Education 
program.
    Today, I also hope that we will explore the concept of 
interdisciplinary research. The frontiers of 21st Century science are 
very much dominated by what most would consider to be interdisciplinary 
research--that is, research conducted by teams of scientists that 
integrate information, data, methods, perspectives and theories from 
two or more bodies of specialized knowledge to advance fundamental 
understanding or solve problems beyond the scope of a single 
discipline. Without compromising the strength of the individual 
disciplines or the ability of the lone scientist to make great advances 
on narrow topics within his or her own field, we need to make sure that 
interdisciplinary proposals get a fair hearing. NSF has shown great 
leadership on this issue, but I believe that there are probably ways to 
better define this process. I look forward to ongoing discussions with 
the Agency and the community on ways to go about this.
    I should add that many of these issues and others that we must deal 
with in the context of the NSF reauthorization bill are issues that the 
greater scientific community is also grappling. However, because NSF 
funds 20 percent of the basic research conducted at U.S. colleges and 
universities, across all science and engineering disciplines, and 
continues to be at the forefront of the ever-evolving scientific 
enterprise, they are issues of particular importance to me, to this 
subcommittee, and to NSF.
    In addition to some of these broad issues, we will also take a look 
today at some specific budget and administrative issues at the 
Foundation--some of which are longstanding issues of concern, and 
others of which have been brought to the attention of the Committee 
more recently.
    I want to note that this Committee supports the Administration's 
proposal to double funding for basic physical science research over a 
ten-year period, and the authorization levels that we will propose for 
NSF are aligned with the Administration's plans. However, I also want 
to suggest that we can't afford to keep playing this game of increasing 
funding for one set of disciplines while decreasing or flat-lining 
funding for others. We will continue to advocate for increases in 
funding for basic and applied research across the board, but we need 
help from the entire scientific community in justifying such increases 
to the rest of our colleagues in Congress.
    We must also recognize that these are tight budget times. We can't 
just throw money at science because we want to. We need to maintain due 
diligence in ensuring that the research we fund is of top quality, that 
federally-funded researchers are held to the highest standards for 
ethical conduct of research, and that we are thoughtful in setting 
priorities for research funding.
    Finally, before I close, I want to be clear that I want the process 
of developing the NSF reauthorization bill to be open, transparent and 
responsive to all concerned parties both within and outside of 
government. I welcome your suggestions, and encourage you to be in 
touch with me with your thoughts or ideas.
    Dr. Bement and Dr. Beering, thank you for being here today. I look 
forward to hearing your testimony today and to receiving your input and 
guidance us as we develop this NSF reauthorization legislation.
    And I now yield to my colleague, Ranking Member Ehlers for his 
opening remarks.

    Mr. Ehlers. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here, representing one 
of the finest institutions of the Federal Government, and, 
perhaps, the finest.
    You will find this to be a friendly committee, I am sure, 
certainly more friendly than much of the rest of the Congress, 
not that anyone dislikes you, but they all say they like you 
but don't provide money for you. We will continue to try to do 
what we can to not only like you but provide money for you.
    I am pleased to participate in the Research and Science 
Education Subcommittee's first hearing of this Congress to 
address the reauthorization of the National Science Foundation. 
The goals of reauthorization are to improve the functioning of 
an agency known for both high-caliber research output and 
internal efficiency, which makes our job somewhat more 
challenging than trying to improve upon an agency with glaring 
shortcomings.
    Finding areas in need of improvement can be best achieved 
from hearing from expert witnesses, like those before us today 
and the NSF consumers who will testify at the end of the month 
in a second hearing. When finding areas for strengthening and 
improvement, I believe we must remain cognizant of the 
uniqueness of the National Science Foundation. What goes for 
other agencies may not necessarily apply to NSF.
    I know the Committee is interested in exploring some of the 
relationships the National Science Foundation has established 
with industry, and I am keenly interested in encouraging these 
relationships while maintaining the quality of NSF fundamental 
research.
    As current researchers know, potential applications are 
important but should not dictate research design exclusively.
    Chairman Baird and I share concerns in several areas of 
NSF, including maintaining the integrity and capacity of the 
peer-review process, managing increasingly interdisciplinary 
research portfolios, and educating our future workforce in all 
STEM-related jobs, not just those historically identified as 
science and engineering careers.
    Finally, I look forward to hearing about the NSF's 
preparations for future funding increases that this committee 
has worked tirelessly to authorize and ultimately see supported 
through the appropriations process.
    And I certainly also share the Chairman's concern about the 
young scientists and certainly encouraging them so that they 
can get their feet in the door, begin their tenure track before 
they lose their position for lack of funding of their research.
    I thank Dr. Bement and Dr. Beering for being here today, 
and I look forward to your testimony.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    I am pleased to participate in the Research and Science Education 
Subcommittee's first hearing of this Congress to address the 
reauthorization of the National Science Foundation. The goals of 
reauthorization are to improve the functioning of an agency known for 
both high-caliber research output and internal efficiency, which makes 
our job somewhat more challenging than trying to improve upon an agency 
with glaring shortcomings. Finding areas in need of improvement can be 
best-achieved by hearing from expert witnesses like those before us 
today, and the NSF consumers who will testify at the end of the month 
in a second hearing.
    In finding areas for strengthening and improvement, I believe we 
must remain cognizant of the uniqueness of the National Science 
Foundation. What goes for other agencies may not necessarily apply to 
NSF. I know the Committee is interested in exploring some of the 
relationships NSF has established with industry, and I am keenly 
interested in encouraging those relationships while maintaining the 
quality of NSF fundamental research. As current researchers know, 
potential applications are important but should not dictate research 
design exclusively.
    Chairman Baird and I share concerns in several areas of NSF, 
including maintaining the integrity and capacity of the peer review 
process; managing increasingly interdisciplinary research portfolios; 
and educating our future workforce in all STEM-related jobs, not just 
those historically identified as science and engineering careers. 
Finally, I look forward to hearing about NSF's preparations for future 
funding increases that this Committee has worked tirelessly to 
authorize and, ultimately, see supported through the appropriations 
process.
    I thank Dr. Bement and Dr. Beering for being here today and look 
forward to their testimony.

    Chairman Baird. If there are other Members who wish to 
submit additional opening statements, your statements will be 
added to the record.
    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for holding the first hearing on the 
National Science Foundation (NSF) Reauthorization.
    NSF holds a tremendously vital national role, funding research and 
education activities at more than 2,000 universities, colleges, K-12 
schools, businesses and other research institutions across the U.S. The 
mission of NSF, which is to support science and engineering across all 
disciplines, is on impressive display in my home congressional district 
including the St. Louis region.
    St. Louis houses nearly half of the NSF award recipients in the 
state of Missouri. I am proud of the great STEM work being done in our 
area, specifically at the NSF-funded Danforth Plant Science Center, St. 
Louis University, St. Louis Science Center, University of Missouri at 
St. Louis, Washington University and Washington University School of 
Medicine. I look forward to continued growth in the important field of 
STEM research.
    Thank you for being here today, Drs. Bement and Beering. I look 
forward to hearing your testimony.

    [The prepared statement of Mr. Bilbray follows:]

         Prepared Statement of Representative Brian P. Bilbray
Dear Chairman Baird and Ranking Member Ehlers:

    Thank you both very much for holding this hearing to review the 
National Science Foundation (NSF). This agency is a key component of 
America's quest to be the world leader in scientific innovation. I look 
forward to hearing from NSF Director Arden Bement and National Science 
Board (NSB) Chairman Dr. Steven Beering.
    Today, the United States is the world superpower when it comes to 
scientific innovation and talent. Our great nation leads the rest of 
the world in high expectation entrepreneurship and research and 
development spending. The United States is the location of the world's 
high technology manufacturing output. However, as Tom Friedman, 
distinguished author of The World Is Flat notes, globalization has 
``accidentally made Beijing, Bangalore and Bethesda next door 
neighbors.'' Other nations are beginning to imitate the U.S. research 
enterprise success and if we rest on our laurels, we will soon be 
playing catch-up in the race to develop the latest innovative products, 
which will generate wealth and create domestic security.
    For more than 50 years, the National Science Foundation has been 
the premier federal agency in support of basic research. Every year, 
NSF supports nearly 35,000 awards supporting a wide spectrum of those 
seeking to understand our most complex scientific mysteries. From the 
teacher working to generate interest in the next great generation of 
scientists to the university researcher seeking to advance organ 
transplantation by studying frog physiological processes in freezing 
weather, NSF is a diamond in the Federal Government crown.
    As we continue into the 21st century, it will be imperative for our 
nation to recognize the unique value that interdisciplinary research 
plays. No longer can we ignore the relationship that the unique parts 
of the scientific enterprise have in producing breakthroughs. Today, 
biomedical innovation is increasingly taking place at the intersection 
of traditional health sciences like biology and fields such as 
computational science and engineering. But we are seeing a startling 
trend of newly minted grads that lack the technical skills to carry out 
applied research in the areas that straddle engineering, math and 
computers. For your information, I am attaching a Business Week article 
highlighting this problem. If we are truly going to be competitive in 
this global economy our scientists must learn to work together and form 
collaborations. The Committee has recognized this importance by tasking 
the National Science Board with evaluating the current and potential 
role of NSF in supporting interdisciplinary research. I look forward to 
reading the NSB's report to Congress.
    I am pleased to see that the Act before us addresses the three 
pillars of innovation: funding, talent and infrastructure. The current 
bill authorizes on average an eight percent increase for NSF for the 
next three years, provides $94 million for vital math science 
partnerships and $44 million for STEM (Science, Technology, 
Engineering, and Mathematics) talent programs. Our nation deserves the 
best opportunity at a healthy existence and this legislation could be 
the start in providing that.
    I look forward to working with the National Science Foundation and 
my colleagues on this panel to pass an effective reauthorization bill 
which will enhance an already outstanding agency.

                   Article appearing in Business Week
                            NOVEMBER 6, 2006
                          SCIENCE & TECHNOLOGY

                             Biotech's Beef

                         By Nichola Saminather

    Companies say grad schools aren't stressing what students require 
in the real world.

    The U.S. is the mecca of biotech. Most top companies in the field 
are based here. Government research budgets in biology are immense and 
growing. Universities compete to attract great professors. Students 
flock to their courses. And once they're armed with graduate degrees, 
they can count on landing a job in the industry.
    Or can they? In recent months biotech outfits have begun to 
complain that job applicants coming out of U.S. universities lack the 
know-how companies seek. Left unresolved, the troubles could stifle 
growth in this booming sector, valued at $48 billion last year by 
consultant Ernst & Young. The knowledge deficiencies could also force 
biotech companies to move more of their operations overseas, say 
executives and recruiters.
    The problem is a disconnect between what universities are teaching 
and what biotech wants. ``The focus of academia is getting basic and 
theoretical knowledge in place,'' says E. Dale Sevier, a director at 
the California State University Program for Education & Research in 
Biotechnology. ``The skills needed to be successful in the industry are 
just not taught in universities.''
    There are several weaknesses. First, recent grads lack the 
technical knowledge to carry out applied research in areas that 
straddle engineering, math, and computers. Second, job candidates have 
little awareness of what the Food & Drug Administration is looking for 
when it considers whether or not to approve a drug. Recent grads simply 
aren't familiar with issues such as quality control and regulatory 
affairs. Academic programs ``don't train students to function in 
today's small-R, large-D environment,'' says Stephen Dahms, President 
and CEO of the Alfred E. Mann Foundation for Biomedical Engineering.
    The California State University biotech program tried to identify 
what companies want from new hires in a 2000 report. Close to the top 
of the list are familiarity with FDA compliance, experience in clinical 
trial design, and quality control. All require knowledge of computing, 
statistics, and database management--pretty low priorities for most 
academic biotech programs.
    As it happens, these are common credentials for foreign researchers 
in the U.S. who hold temporary work papers known as H-1B visas. U.S. 
Citizenship & Immigration Services reports that 3.6 percent of all H-1B 
visas for 2003, a total of 7,119, went to employees in scientific 
research and development. Some 80 percent of them have graduate degrees 
from U.S. universities, Dahms says, but ``there's something special 
about the prior exposure of foreign nationals. They have a more applied 
R&D perspective.'' Of course, there are smart U.S.-born candidates with 
good math and computer skills. But they're rarely fluent in both math 
and life sciences.
    Invitrogen Corp. (IVGN ), a biotech company in Carlsbad, Calif., 
currently employs about 75 H-1B visa holders in a workforce of 5,000, 
and it needs more. The company hired 1,000 people last year and will 
raise that to 1,400 this year. But with H-1B quotas filling up earlier 
every year, Invitrogen has chosen to do more drug development in Japan, 
China, and India. It may also open facilities in Korea and Singapore, 
says Rodney Moses, Invitrogen's Vice-President of Talent Acquisition. 
Compensation in China and India is lower than in the U.S., but that's 
not what motivates the move offshore, says Moses. ``If the talent is 
located in Singapore, it's just easier for us to go there.''
    U.S. colleges take the problem seriously. State university systems 
in California, Wisconsin, and elsewhere are adding more industry-
oriented classes. California State has crafted a curriculum that 
includes chemistry, engineering, and computer science. A new biotech 
program at the University of Wisconsin's Stout campus offers statistics 
and technical writing. Students must also work full-time at a biotech 
company during the summer or for a semester.
    Industry buys into this idea. Invitrogen is sponsoring occupational 
summer camps for high school students, hoping to nudge them into taking 
more science and math courses. Many other companies are setting up 
intern and apprentice programs to identify promising students and 
prepare them for a post-academic career. After all, the goal in 
industry isn't just to raise interesting questions, as in academia. 
It's to find the answers.

    Chairman Baird. At this time, I would like to introduce our 
two witnesses.
    Dr. Arden Bement is Director of the National Science 
Foundation. He became the Director in 2004 after having served 
more than two years as Director of the National Institute of 
Standards and Technology. Dr. Steven Beering is the Chair of 
the National Science Board. He has served on the Board since 
2002, and was elected Chairman in 2006. Before retiring in 
2000, he served for 17 years as President of Purdue University 
in Indiana.
    As our witnesses both know well, spoken testimony is 
limited to five minutes each, after which Members of the 
Committee will have five minutes each to ask questions. And we 
will start with Dr. Bement.
    Again, thank you, gentlemen, both for being here.

 STATEMENT OF DR. ARDEN L. BEMENT, DIRECTOR, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Bement. Chairman Baird, Ranking Member Ehlers, and 
Members of the Committee, thank you for the opportunity to 
testify before you today.
    You have raised a number of important issues in your 
invitation letter and I commend you both for taking an active 
role in promoting a discussion of these questions.
    Before I address some of your specific questions, I want to 
let you know how much I appreciate your strong statements of 
support for our fiscal year 2008 budget request. As you know, 
the request will provide an 8.7 percent increase over the 
continuing resolution. Funding at this level will keep NSF on 
the course set by the President's American Competitiveness 
Initiative to drive innovation and sharpen America's 
competitive edge.
    Let me move on to the specific issues you have raised.
    The first is in regard to NSF's efforts to nurture young 
investigators.
    We take this responsibility very seriously and address it 
in a variety of ways.
    Our signature Faculty Early Career Development Program, 
called CAREER, is our most prestigious award in support of the 
early career-development of young investigators. Successful 
applicants must effectively integrate research and education 
within the context of their organization's mission. NSF 
provides 400 new CAREER awards annually, each for a duration of 
five years, to some of the best and brightest young researchers 
in the country. Each year, NSF nominates the most meritorious 
new CAREER awardees for the Presidential Early Career Awards 
for Scientists and Engineers, called PECASE. This presidential 
award is the Nation's highest honor bestowed on scientists and 
engineers beginning their careers.
    NSF also engages in a variety of outreach efforts to 
support and nurture young investigators. Our NSF Days program 
provides workshops to assist investigators in understanding the 
process of submitting proposals to NSF. Over the past five 
years, we have sponsored 40 workshops that have attracted 
nearly 6,000 participants.
    Additional outreach efforts pair NSF program officers with 
researchers whose proposals had been declined in an effort to 
improve proposals for subsequent resubmission.
    The effectiveness of these efforts is shown by the fact 
that the share of grants to new investigators has remained 
stable at about 28 percent over the past decade, although the 
overall success rate has declined from around 30 percent to 21 
percent. In that same period, the proportion of grantees 
receiving an award within seven years of their last degree has 
also remained stable at about 74 percent.
    Let me quickly move on to the matter of an appropriate 
balance between interdisciplinary and disciplinary research.
    Support for interdisciplinary research is a priority for 
the NSF because it presents a tremendous opportunity for 
innovation. Finding the proper balance results from discussions 
with the National Science Board and through feedback from our 
many stakeholders.
    NSF's Centers and the priority areas outlined in our budget 
also serve as catalysts for generating interdisciplinary 
proposals.
    We continually make a strong effort to communicate our 
interest in supporting interdisciplinary research. The 
flexibility of NSF's merit review process allows program 
officers to use multiple approaches to meet the challenge of 
reviewing interdisciplinary proposals. In some cases, mail 
reviews are used to provide deep expertise on various aspects 
of proposals. Panel reviews are often used to integrate reviews 
from different disciplinary perspectives and to provide a 
broader interdisciplinary overview.
    Recognizing interdisciplinary proposals poses little 
difficulty, especially when they are submitted in response to a 
specific solicitation. FastLane, our electronic grant 
application process, also gives PIs an opportunity to select 
multiple programs to consider their proposal.
    In fiscal year 2004, the National Science Board initiated a 
Task Force on Transformative Research, and a planning document 
generated by this task force is currently under review. A key 
concern of this effort is stimulating interdisciplinarity, that 
is, transformative research while maintaining the balance with 
disciplinary research. Ultimately, this issue can only be 
addressed through continuous feedback between NSF and the 
scientific community. Maintaining this balance is central to 
our role as stewards of the U.S. scientific and engineering 
enterprise.
    Let me move on to the matter of how NSF focuses attention 
to research issues of national importance.
    To meet the research challenges that rise to national 
significance, NSF relies on input from many sources: reports 
from the National Academies, R&D guidance as presented by the 
OSTP/OMB priorities memo and the National Science Board, 
Presidential priorities, such as the American Competitiveness 
Initiative, Congressional interests, and our extensive 
interaction with the research community. NSF research 
priorities are evaluated on a continuous basis by our Advisory 
Committees, Committees of Visitors, scientific conferences, 
strategic plans, and so forth.
    By funding collaborative grants and cooperative agreements, 
NSF can foster partnerships with academia and industry, 
potentially expediting the transition of basic research to 
products. NSF Center programs engage directly in encouraging 
industry and university partnerships. But perhaps NSF's most 
effective partnership with industry is our support of 
undergraduate and graduate students who enter the private 
sector armed with the latest understanding of advances in 
science and engineering fields.
    Mr. Chairman, the issues you have raised in this hearing 
are of profound importance, not only to NSF, but to the Nation. 
They are not easy matters, nor do they lend themselves to 
simplistic or formulaic solutions, but I look forward to 
working with you on these issues and would be pleased to answer 
any questions you might have.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Baird, Ranking Member Ehlers, thank you for the 
opportunity to testify before the Research and Science Education 
Subcommittee today. You have raised a number of important issues in 
your invitation letter and I commend you both for taking an active role 
in promoting a discussion of these questions.
    The first issue you raise is in regard to NSF's efforts to nurture 
young investigators. Encouraging new investigators to become effective 
contributors to the science and engineering workforce is a critical 
goal for the National Science Foundation. Supporting young 
investigators is something that NSF takes seriously and it is an issue 
that we are addressing in a variety of ways.
    Attracting new researchers is a key part of our Learning investment 
priority, articulated in the NSF's new strategic plan. The Strategic 
Plan also calls for expanding efforts to broaden participation in all 
NSF activities and programs. This year NSF is developing a plan to 
target such opportunities. Assessing the impact of NSF efforts to 
nurture young investigators, especially at the interfaces between K-12 
and university education, two-year and four-year colleges, and 
technical and other higher education settings will be an important part 
of the broadening participation plan.
    An ongoing program at NSF that supports young investigators is our 
signature Faculty Early Career Development (CAREER) Program. This is an 
NSF-wide activity that offers our most prestigious awards in support of 
the early career-development of young investigators. Successful 
applicants must effectively integrate research and education within the 
context of their organization's mission. The longer awards provided 
through CAREER offer new Principal Investigators (PIs) stability as 
they build their academic careers. NSF provides 400 CAREER awards 
annually, each for a duration of five years, to some of the best and 
brightest graduate students in the country.
    Moreover, each year from among these outstanding CAREER awardees, 
NSF selects nominees for the Presidential Early Career Awards for 
Scientists and Engineers (PECASE). This Presidential Award is the 
highest honor bestowed by the U.S. Government on scientists and 
engineers who are beginning their careers. It is awarded both for 
excellence in research and for demonstrated leadership and service in 
their community.
    NSF also engages in a variety of outreach efforts intended to 
assist and nurture young investigators. Our NSF Days program serves to 
assist investigators in understanding the process of submitting 
proposals to NSF through workshops that provide an introduction to and 
overview of NSF, its mission, priorities, budget, and its proposal and 
merit review process. In the five years that we've had the current 
configuration of NSF Days we have sponsored 40 workshops that have 
attracted nearly 6,000 participants. Additional outreach efforts 
typically pair NSF program officers with researchers whose proposals 
have been declined in an effort to improve proposals for subsequent re-
submission. This is helpful for young investigators as it is the 
exception rather than the rule that a proposal is accepted by NSF the 
first time it is submitted. These activities serve to improve the 
funding rates of young investigators.
    The effectiveness of these efforts is shown by the fact that we've 
maintained the funding rates of young investigators. The current NSF 
success rate is 21 percent for research grants--a decline from the 30 
percent success rate of the late 1990s--however, the percentage of 
awards made to new investigators as a share of the NSF portfolio has 
remained stable at 27 percent in 1997 and 28 percent in 2006. Also, the 
length of time between the year of an investigator's last degree and 
the year of an investigator's first research grant from NSF in 1997 and 
2006 has remained stable. In 1997, 73 percent of new Principal 
Investigators receiving their first NSF award were within seven years 
of their last degree and in 2007 the comparable figure was 74 percent.
    Still, we continually strive for improvement, and we believe that 
the variety of programs in place to foster young investigators will 
continue to increase the pool of successful young investigators 
involved in the U.S. science and engineering enterprise.
    A second item raised in your invitation letter concerned the 
appropriate balance between interdisciplinary and disciplinary 
research. The current scientific era is characterized by 
interdisciplinary research with much of the promise of future work 
occurring at the interstices between traditional scientific 
disciplines.
    Support for interdisciplinary research is a priority for the 
National Science Foundation and presents a tremendous opportunity for 
innovation. And yet the nature of scientific research is changing so 
rapidly that much of what is today considered disciplinary research 
would previously have been considered interdisciplinary in nature.
    The issue of a balanced portfolio is a pivotal one for NSF. We must 
continue to push the frontiers through interdisciplinary, 
transformative research and foster advancements within the scientific 
and engineering disciplines that serve as a platform for such 
advancement. We must also balance between individual and small group 
research grants, infrastructure awards, center awards, and other types 
of grants and agreements. Approximately 40 percent of awards go to 
proposals with two or more PIs, a figure that has more than doubled in 
the past 20 years. The NSF portfolio is balanced through negotiations 
between NSF and the National Science Board, through feedback with our 
many stakeholders--including Congress, the National Academies, OSTP, 
other research agencies, the research communities--and through the 
merit review process itself.
    NSF's Centers and Priority Areas, as outlined in our budget, serve 
as catalysts for generating interdisciplinary proposals. These efforts 
are effective strategic means to cultivate interdisciplinary areas of 
research. By growing these new avenues of research the participating 
disciplines are transformed and re-defined.
    We have made a deliberate effort to communicate to various 
scientific communities our interest in supporting interdisciplinary 
research. Upcoming solicitations are strategically mentioned at all 
town hall meetings, conferences, workshops, and symposia and we 
regularly inform the community of interdisciplinary opportunities 
through Dear Colleague letters.
    The use of co-reviews addresses one of the greater challenges that 
interdisciplinary research proposals present, which is that these 
proposals frequently require a greater range of expertise among the 
reviewers than disciplinary proposals. The flexibility of NSF's merit 
review process allows the program officers to use multiple approaches 
to meet this challenge for both solicited and unsolicited 
interdisciplinary proposals. The program officers will often work 
collaboratively, sharing their expertise to identify the right 
reviewers and to assess the reviewers' input. In some cases, mail 
reviews can be used to provide deeper expertise on various aspects of 
the proposal. Panel reviews are often used to integrate reviews from 
different disciplinary perspectives, and provide a broader 
interdisciplinary overview.
    Recognizing which proposals are interdisciplinary poses little 
difficulty, especially when they are submitted in response to a 
specific solicitation. As for the unsolicited interdisciplinary 
research proposals, FastLane gives PIs an opportunity to select 
multiple programs as potential units to consider the proposal. Program 
officers take note when multiple programs are listed, and will evaluate 
if the interdisciplinary nature of the proposal is such that co-reviews 
by more than one program are warranted. Even if the PI does not choose 
multiple programs for review, program officers can recognize 
interdisciplinary proposals, and will bring these proposals to the 
attention of their colleagues in the appropriate programs. Co-reviews 
can be arranged between the relevant program officers on a case-by-case 
basis or on a larger scale if appropriate. For example, in the last few 
years program officers in BIO and MPS have recognized the increasing 
interdisciplinary nature of the research being proposed by new 
investigators and have coordinated the co-review of CAREER proposals 
that lie at the interface of the biological and physical sciences.
    In 2004, the National Science Board initiated a Task Force on 
Transformative Research. A planning document generated by this task 
force is currently under review. A key concern of this effort is 
stimulating interdisciplinary, transformative research while 
maintaining the balance with disciplinary research. One aspect of the 
NSF internal task group on the Impact of Proposals and Award Management 
Mechanisms (IPAMM) study is taking a closer look at transformative 
research. Ultimately, this issue can only be addressed through 
continuous feedback between NSF and the scientific community, and it is 
an issue that is central to our role as stewards of the U.S. scientific 
and engineering enterprise.
    Let me move on to the matter of how NSF focuses attention to 
research issues of national importance. NSF is committed to fostering 
the fundamental research that delivers new knowledge to meet national 
needs and to improve the quality of life for all Americans. To meet the 
challenges of concern to our nation, NSF research activities are 
determined in accordance with guidance from several sources. These 
include reports from the National Academy of Sciences, R&D guidance as 
presented by the OSTP/OMB priorities memo, Presidential priorities such 
as the American Competitiveness Initiative, congressional interests, 
and the research community. NSF research priorities are evaluated on a 
continuous basis through such activities as Advisory Committees, 
Committees of Visitors, scientific conferences, strategic plans, etc. 
The priorities that emerge reflect the current needs of the Nation and 
are updated and represented annually in the Budget Requests to 
Congress.
    Through funding collaborative grants and cooperative agreements, 
NSF can foster partnerships with academia and industry, potentially 
expediting the transition of basic research to ``products.'' Several 
NSF programs are directly related to encouraging industry and 
university partnerships such as Small Business Innovative Research/
Small Business Technology Transfer Research; Partnerships for 
Innovation and many of our Centers programs (e.g., Engineering Research 
Centers; Industry/University Cooperative Research Centers; Science and 
Technology Centers; Materials Research Science and Engineering Centers; 
and Nanoscale Science and Engineering Centers). NSF's most effective 
partnership with industry is accomplished through training 
undergraduate and graduate students who in turn enter the private 
sector with advanced skills in science and engineering fields.
    NSF's Broader Impacts criterion requires each proposal to address 
the question ``What are the broader impacts of the proposed activity?'' 
This is an excellent way of determining whether proposals meet the 
mission of NSF, and therefore meets the needs of the Nation. 
Considerations embedded in this criterion reflect the need to promote 
teaching and training among all citizens.
    Mr. Chairman, the issues you have raised in this hearing are of 
profound importance, not only to NSF, but to the Nation. They are not 
easy matters, nor do they lend themselves to simplistic or formulaic 
solutions. I commend you for making these matters the topic of your 
first hearing as Chairman and I look forward to responding to any 
questions the Members of the Committee may have.

                   Biography for Arden L. Bement, Jr.
    Arden L. Bement, Jr., became Director of the National Science 
Foundation on November 24, 2004. He had been Acting Director since 
February 22, 2004.
    He joined NSF from the National Institute of Standards and 
Technology, where he had been director since Dec. 7, 2001. As head of 
NIST, he oversaw an agency with an annual budget of about $773 million 
and an on-site research and administrative staff of about 3,000, 
complemented by a NIST-sponsored network of 2,000 locally managed 
manufacturing and business specialists serving smaller manufacturers 
across the United States. Prior to his appointment as NIST Director, 
Bement served as the David A. Ross Distinguished Professor of Nuclear 
Engineering and head of the School of Nuclear Engineering at Purdue 
University. He has held appointments at Purdue University in the 
schools of Nuclear Engineering, Materials Engineering, and Electrical 
and Computer Engineering, as well as a courtesy appointment in the 
Krannert School of Management. He was Director of the Midwest 
Superconductivity Consortium and the Consortium for the Intelligent 
Management of the Electrical Power Grid.
    Bement came to the position as NIST director having previously 
served as head of that agency's Visiting Committee on Advanced 
Technology, the agency's primary private-sector policy adviser; as head 
of the advisory committee for NIST's Advanced Technology Program; and 
on the Board of Overseers for the Malcolm Baldrige National Quality 
Award.
    Along with his NIST advisory roles, Bement served as a member of 
the U.S. National Science Board from 1989 to 1995. The board guides NSF 
activities and also serves as a policy advisory body to the President 
and Congress. As NSF Director, Bement now serves as an ex officio 
member of the NSB.
    He currently serves as a member of the U.S. National Commission for 
UNESCO and serves as the Vice-Chair of the Commission's Natural 
Sciences and Engineering Committee.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965).
    He has been a Director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, an honorary 
doctorate degree in science from Case Western Reserve University, an 
honorary doctorate degree in engineering from the Colorado School of 
Mines, and a Chinese Academy of Sciences Graduate School Honorary 
Professorship. He is a member of the U.S. National Academy of 
Engineering and a fellow of the American Academy of Arts and Sciences.

    Chairman Baird. Thank you, Dr. Bement. And I am painfully 
aware that for something as complicated as NSF and the related 
Board, a five-minute introductory statement is not nearly 
enough, but please rest assured we will give you plenty of time 
through the Q&A to elaborate on some of the very, very salient 
points you made.
    Dr. Bement. Thank you.
    Chairman Baird. Dr. Beering.

STATEMENT OF DR. STEVEN C. BEERING, CHAIRMAN, NATIONAL SCIENCE 
                             BOARD

    Dr. Beering. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee. I appreciate the opportunity to 
appear before you. I am the President Emeritus of Purdue 
University, and I am privileged to be here with Arden Bement, 
with whom I have worked for the past 15 years, both at Purdue 
and at the National Science Foundation.
    This is my first time to testify before you as Chairman of 
the National Science Board, a position to which I was elected 
in May 2006, and I am, indeed, honored to be with you.
    Congress established the National Science Board in 1950 and 
gave it dual responsibilities: to guide the activities of and 
establish the policies for the National Science Foundation, and 
to serve as an independent advisory body to the President and 
the Congress on national policy issues related to science and 
engineering research and education.
    On behalf of the entire Board and the widespread and 
diverse research and education communities that we all serve, I 
thank the Members of this subcommittee for your long-term 
support of a broad portfolio of investments in science, 
technology, engineering, and mathematics research and 
education. Your continuing bipartisan commitment to excellence 
in U.S. science and engineering research and education has 
ensured that the United States remains the leader in global 
innovation and discovery.
    My complete written testimony has already been submitted to 
you for the record.
    Let me now briefly address the questions Chairman Baird 
raised in his letter of March 7.
    First, what can NSF do to nurture young investigators and 
to improve their funding rates? This was a major and ongoing 
concern for the Board. In our December 2003 report to Congress 
that responded to Section 22 of the last NSF Authorization Act, 
we identified the need of an additional $1 billion over the 
five-year period of 2002 to 2007 to fund more grants generally 
and $200 million to fund an expansion of the institutions of 
higher education participating in NSF activities, including 
funding for start-up awards to new Ph.D.s at those 
institutions.
    New Ph.D.s just starting their academic careers, no matter 
how excellent their academic record, are less likely to be 
employed by top-tier institutions and more likely to start 
their careers in primarily teaching situations. Expanding 
research in these institutions, therefore, opens doors for new 
Ph.D.s to build careers in research.
    We also support the expansion of the NSF CAREER Faculty 
Early Career and similar programs coupled with general 
expansion of funding for basic research, also called for by the 
American Competitiveness Initiative and the National Academies' 
report ``Rising Above the Gathering Storm.''
    The NSF authorization of 2002 included a welcome authority 
to double the budget over a five-year period to nearly $10 
billion in 2007. The actual 2007 budget of approximately $6 
billion represents a significant gap with the 2002 
authorization. The American Competitiveness Initiative again 
calls for a doubling of the NSF budget over a 10-year period. 
We would respectfully suggest that the time to implement these 
admirable authorizations and initiatives has never been more 
urgent than now.
    Your second series of questions regarding NSF funding for 
interdisciplinary research focused on the appropriate balance 
between funding for interdisciplinary and disciplinary 
research, best mechanisms for soliciting and funding 
interdisciplinary research proposals, and the sufficiency of 
publicizing interdisciplinary research funding opportunities at 
NSF. This is another area to which NSF and the Board have given 
considerable attention of resources. Nonetheless, there remains 
substantial issues to assure that interdisciplinary research is 
not disadvantaged in the highly-competitive NSF merit review 
system or in the academic sector by structural impediments.
    NSF has taken a number of steps over a long period of time 
to ensure that the level of investment and mechanisms of 
support address structural roadblocks to funding 
interdisciplinary research. For example, NSF supports nearly 
100 centers in part to provide greater opportunities for, and 
encourage, interdisciplinary research. The most recent Board 
guidance to NSF on balance between centers and individual 
investigator awards establishes a six to eight percent of the 
R&RA budget as an appropriate level to support centers.
    With respect to publicizing opportunities for 
interdisciplinary research, I should point out that most 
research proposals submitted to NSF are unsolicited, and that 
is a good thing for the health of U.S. research. To a great 
extent, this enables the research community to self-identify 
and establish a balance between disciplinary and 
interdisciplinary work on the basis of opportunities for 
discovery and the quality of the research proposals submitted. 
However, it is also important to ensure that researchers are 
knowledgeable about all NSF funding opportunities and the 
process for obtaining that funding, and further, that the 
review process is fair and results in the best use of scarce 
funding to fund cutting-edge research.
    You also asked about the NSF role in research driven by 
national needs and fostering university-industry partnerships 
and the application of Criterion 2, which encourages 
partnerships of the NSF merit review process with regard to 
national needs.
    NSF's mission is defined in the NSF Act in terms of 
national needs, and such needs, both broadly and narrowly 
defined, have always shaped the portfolio of our investments. 
The Board established Criterion 2 of the merit review system in 
part to enhance partnerships, potential benefits to society, 
and contributions to innovation. Further, NSF has long 
participated in interagency R&D priorities, most recently 
including the National Nanotechnology Initiative, Climate 
Change Science program, Networking and Information Technology 
R&D, and Homeland Security.
    Moreover, NSF Center programs often explicitly require 
partnering with industry. In addition, NSF funds small business 
innovation research and cross-agency and cross-sectoral 
research programs in such areas as earthquake science and 
engineering and research in the Polar Regions.
    The Board has also recently published a report recommending 
a new national Hurricane Research Initiative that cuts across 
fields of science, suggests a co-lead role for NSF and NOAA, 
and includes a number of additional agencies as major players.
    Your final question concerns NSF's priorities in K-16 
science, technology, engineering, and mathematics, so-called 
STEM education, and how the current budget reflects those 
priorities, especially NSF's role in undergraduate education.
    The Board has been especially concerned with this major 
area of NSF's responsibility: education in science, technology, 
engineering, and math. Education is the core mission of NSF. 
Even while U.S. student performance in mathematics and science 
is declining relatively as assessed internationally, changing 
the workforce requirements means that new workers will need 
ever more sophisticated skills in STEM disciplines.
    Following a request from Congress, the Board established a 
new advisory commission on 21st century education in science, 
technology, engineering, and mathematics in March of 2006, 
comprising a wide range of eminent experts, representing the 
broad scope of interests in U.S. STEM education. We have 
charged that commission to examine and advise us on the role of 
NSF in both pre-college and undergraduate education as part of 
its activities. Moreover, the Board is expecting shortly to 
receive the report of our Education and Human Resources 
Committee on Engineering Education Reform primarily at the 
undergraduate level.
    We expect that, following our Board meeting next week, when 
we will receive advice from our STEM education commission, and 
over the next few months with the work of the Board's Education 
and Human Resources Committee evaluating assessments of NSF 
education programs, we will develop new guidance to the 
Foundation on its priorities for education programs at the 
undergraduate and pre-college levels.
    Following our Board meeting next week, we would welcome the 
opportunity to meet with individual Members of your Committee, 
and others in the Congress and the Administration, to discuss 
the Board's national action plan for addressing our nation's 
STEM education needs.
    The federal investment in the Nation's science and 
technology is a necessity for our future prosperity and 
security. To quote a recent editorial by Microsoft founder, 
Bill Gates, in the Washington Post, ``If the United States is 
to remain a global economic leader, we must foster an 
environment that enables the new generation to dream up 
innovations.'' As other nations ramp up their investment of the 
infrastructure for research and innovation, we cannot be 
complacent.
    I have just returned this past week from the European 
Union's Congress, and I am absolutely impressed and astounded 
at the progress of those 27 nations. We must sustain the 
advantages that we have gained through continued wise, adequate 
federal support for our science and engineering research and 
education enterprise. The National Science Foundation is a key 
asset to our nation, having proven itself effective in 
stimulating discovery and innovation for now over half a 
century, working in partnership with the research and higher 
education communities.
    The Board is committed to working with you to assure that 
limited federal funding resources are optimally invested 
through the National Science Foundation to sustain U.S. 
leadership in science and technology.
    Thank you very much.
    [The prepared statement of Dr. Beering follows:]

                Prepared Statement of Steven C. Beering

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, I appreciate the opportunity to testify before you. I am 
Steven Beering, President Emeritus of Purdue University, West 
Lafayette, Indiana and Chairman of the National Science Board (Board). 
This is my first time testifying before you as Chairman of the Board, a 
position to which I was elected in May 2006. I am honored to represent 
the National Science Board before you today.
    Since the Board last testified before this subcommittee, there have 
been many changes--both in Congress and on the Board. Nine of our 24 
Board Members rotated off the Board in 2006 and nine new Board Members 
have been appointed by the President and confirmed by the Senate. Board 
members are selected so as to broadly represent the leadership of U.S. 
science and engineering research and education.
    In addition to my being elected as the new Board Chairman, the 
Board also elected a new Vice-Chairman, Dr. Kathryn Sullivan, Director, 
Batelle Center for Mathematics and Science Education Policy, John Glenn 
School of Public Affairs, Ohio State University, Columbus. I have 
appointed Dr. Kenneth Ford, Director and Chief Executive Officer, 
Institute for Human and Machine Cognition, Florida, to lead our 
Committee on Programs and Plans; Dr. Dan Arvizu, Director and Chief 
Executive of the National Renewable Energy Laboratory (NREL), Colorado, 
as Chairman of our Committee on Audit and Oversight; Dr. Ray Bowen, 
President Emeritus of Texas A&M University to lead our Committee on 
Strategy and Budget; and Dr. Elizabeth Hoffman, Executive Vice 
President and Provost Iowa State University, Ames, as Chairman for the 
Committee on Education and Human Resources.
    Congress established the National Science Board in 1950 and gave it 
dual responsibilities:

        <bullet>  Oversee the activities of, and establish the policies 
        for, the National Science Foundation (the Foundation, NSF); and

        <bullet>  Serve as an independent advisory body to the 
        President and the Congress on national policy issues related to 
        science and engineering (S&E) research and education.

    On behalf of the entire Board and the widespread and diverse 
research and education communities that we all serve, I thank the 
Members of this subcommittee for your long-term commitment to a broad 
portfolio of investments in science, technology, engineering, and 
mathematics (STEM) research and education. While it is critical that 
our nation significantly increase our support for this portfolio, it is 
also important that these investments be diverse and balanced. The 
Board greatly appreciates long-term Congressional support of the Board, 
the Foundation, and their programs and activities. Your continuing 
bipartisan commitment to excellence in U.S. science and engineering 
research and education has ensured that the U.S. remains a world leader 
in the global innovation and discovery enterprise. As you all are well 
aware, continued investment is required for the U.S. to maintain a 
global leadership position in science and technology.
    I will turn now to answer the specifics questions you presented to 
me, Mr. Chairman, in your letter of March 7, 2007. Following these 
responses, I will provide a brief overview of Board activities over the 
last year, forecast activities for the coming year, and then provide 
you with some specific issues you may wish to consider for inclusion in 
the re-authorization language.

QUESTIONS FROM CHAIRMAN BAIRD

    Your questions focus on a number of challenging issues that are 
subject to continual consideration and discussion by the Board, as they 
are central to fulfilling NSF's mission in research and education under 
the NSF Act of 1950 (as amended). That mission is to promote the 
progress of science; to advance the national health, prosperity, and 
welfare; and to secure the national defense.

QUESTION 1:  What can NSF do to nurture young investigators and to 
improve their funding rates?

    The Board has consistently expressed our concern that research 
funding nurture new researchers and sustain excellent researchers 
throughout their careers. For instance, a National Science Board 
policy, endorsed in 1977 and amended in 1984, requests that the NSF 
Director submit an annual report on the NSF merit review process. This 
report allows us to monitor the funding rates for new principal 
investigators (PIs) annually. The FY 2006 Report on the NSF Merit 
Review Process [(NSB-07-22) http://www.nsf.ogv/nsb/documents/2007/
merit<INF>-</INF>review.pdf, available March 30, 2007] indicates that 
18,061 proposals were received from new PIs during FY 2006, of which 18 
percent were funded. New PIs are defined as those who have not 
previously been awarded an NSF grant, and are generally regarded as 
professionally ``young'' investigators (less than five years from 
attaining degree). Grant proposal success rate overall is 25 percent, 
with a 30 percent rate for PIs who received prior awards (prior PIs). 
The funding rate of new PIs has been two-thirds or less of prior PIs, 
since 1999. Additional funding for Research and Related Activities 
(R&RA) under the 2008 request is welcome, to the extent that it can 
increase the funding rate for grants, so that these gifted new 
researchers will not become discouraged and leave their careers in 
research.
    As directed by Congress in Section 22 of the Foundation's 2002 
Authorization Act, the Board prepared a report, Fulfilling the Promise 
[(NSB-03-151) www.nsf.gov/nsb/documents/2003/nsb03151], to outline how 
additional funding would be spent in the event the NSF budget were 
doubled over a five-year period. This report also identifies the need 
for $1 billion over the five-year period to fund more grants, and $0.2 
billion to expand the institutions of higher education participating in 
NSF activities, including funding for start-up awards to new Ph.D.s. 
The Board supports expansion of the NSF CAREER (faculty early career, 
www.nsf.gov/funding/pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5262) 
program, as long as such expansion is funded through additional 
appropriations, so as not to undercut the Board priority for NSF to 
also increase the size and duration of awards and increasing funding 
for novel ideas and approaches.
    The Board applauds the recommendations for research in the American 
Competitiveness Act, reflecting the National Academies report, Rising 
Above the Gathering Storm (www.nap.edu/
catalog.php?record<INF>-</INF>id=11463), to increase federal investment 
in long-term basic research by 10 percent each year over the next seven 
years; and to double the NSF budget in 10 years. We also strongly 
supported the existing congressionally authorized doubling of the NSF 
budget to approximately $10 billion over the five-year period FY 2003 
to FY 2007, under the 2002 NSF Authorization. Nevertheless, current 
funding for NSF falls well short of authorized levels. We would 
respectfully suggest that the time to implement these admirable 
authorizations and initiatives through actual appropriations has never 
been more urgent than now.
    We further applaud the additional support appropriated in recent 
years to physical sciences, engineering, mathematics and computer 
sciences, which were identified for attention in the Board's 2003 
report, The Science and Engineering Workforce/Realizing America's 
Potential [(NSB-03-69) www.nsf.gov/nsb/documents/2003/nsb0369.pdf]. 
However we caution that increased funding for one area should not be at 
the expense of other parts of the NSF portfolio that also offer 
expanding opportunities for discovery, such as the biological sciences 
at NSF, which have been funded now for a decade below the level of 
increase of the portfolio as a whole.

QUESTION 2:  What is the appropriate balance between funding for 
interdisciplinary and disciplinary research? What are the best 
mechanisms for soliciting and funding interdisciplinary research 
proposals? Is NSF doing a sufficient job of publicizing opportunities 
for funding of interdisciplinary proposals?

    The Board has a long-standing commitment to support for 
interdisciplinary research. In a 1988 report, Report of the National 
Science Board Committee on Centers and Individual Investigator Awards 
(NSB-88-35) the Board noted that the use of centers was increasing 
because centers epitomize the growing complexity, cost, and 
organization of modern research. The rationale for support for centers 
was based in large part on their interdisciplinary nature to exploit 
opportunities in science where the complexity of the research problem 
can benefit from the sustained interaction among disciplines and/or 
sub-disciplines, and to stimulate new directions and styles of inquiry 
in research including collaborative, cross disciplinary, and 
interdisciplinary approaches.
    In the early 1990s, the Board sponsored a review, with the National 
Academies' Government-University-Industry Research Roundtable, of 
emerging stresses in the university community [Stresses on Research and 
Education at Colleges and Universities: Institutional and Sponsoring 
Agency Responses (July 1994)]. Interdisciplinary research was 
identified as a key issue. Among the concerns were a greater difficulty 
in assembling and sustaining interdisciplinary teams and the perceived 
reduced probability for success due to the likelihood that reviewers of 
an interdisciplinary proposal would not be expert in all areas covered, 
and therefore be unlikely to rate fairly an interdisciplinary proposal.
    Understanding the important role of individual investigator grants 
to the U.S. basic research enterprise, and that these types of grants 
are vital sources of interdisciplinary research, the Board issued 
guidance (NSB-05-166, Appendix C to NSB-05-166) in December 2005 to NSF 
on the relative balance of funding for centers, stating that ``NSF's 
investment in centers should be reported as both a percentage of the 
R&RA account and as a percentage of the total NSF budget, with the 
range of support for NSF centers being six to eight percent of R&RA. 
However it is important to consider that the relative balance of 
funding for principal investigators, large facilities, and centers will 
vary considerably across disciplines.''
    The Foundation funded nearly a hundred centers in FY 2006. These 
centers allow groups of scientists and engineers to address broad 
scientific and engineering challenges that are of interest to the 
general public, and to encourage innovation. They are typically 
interdisciplinary in character and provide opportunities for partnering 
across institutions, agencies and sectors, and internationally. In 
addition to centers, the Foundation supports a number of cross 
disciplinary priority areas that include collaborations across 
disciplines and agencies to address national research and development 
(R&D) priorities--currently in nanotechnology, climate change science, 
networking and information technology, and homeland security.
    NSF also supports interdisciplinary proposals through less formal 
means through collaborations across programs and directorates within 
the agency. When program officers present their portfolio of proposed 
awards for review, they must explain what makes the projects exciting, 
high risk and/or multi-disciplinary. Identifying the most innovative 
proposals is an explicit part of program officers' responsibilities. 
Several mechanisms are built into the oversight process to ensure that 
multi-disciplinary proposals are on a fair footing with other proposals 
in the merit review process, including each program's Committee of 
Visitors (COV) and NSF's Advisory Committee for GPRA Performance 
Assessment (AC/GPA).
    It is important for the merit review process generally, and for 
interdisciplinary or multi-disciplinary proposals in particular, that 
the process employed for merit review be clearly explained and 
understood, both by reviewers and program officers and by applicants. 
Identifying the most innovative and multi-disciplinary proposals is an 
explicit program officer responsibility, but these concepts are 
difficult to define for the proposal review context. In response to 
concerns about the uncertainty of what constitutes ``multi-
disciplinary,'' NSF is now collecting explanations of projects that 
program officers identify as multi-disciplinary. Clarity in these 
identifications should result in an improved ability to communicate 
with the research communities, which should result in more effective 
outreach.
    A large share of NSF proposals is unsolicited. This factor is 
important in allowing the community to provide grass roots input to 
identify the most promising areas for discovery, whether disciplinary 
or interdisciplinary in nature. The correct ``balance'' at any one time 
would be difficult to fix in advance. For example, the provision of a 
new instrument for science or a new discovery that shifts a traditional 
paradigm would be likely to stimulate new ideas and proposals within 
the affected scientific research areas. Perhaps subsequent proposals 
stimulated by this new impetus would be either interdisciplinary or 
disciplinary proposals, depending on the nature of the change, which 
might affect the balance between meritorious interdisciplinary and 
disciplinary proposals received by particular programs for 
consideration. In short, the right balance at any time is determined by 
the opportunities for discovery and the quality of the proposals 
submitted.
    The Board has requested that NSF conduct a review of the impacts of 
NSF proposal and award management mechanisms. With the information 
provided from this review, the Board will be better positioned to 
provide guidance and establish appropriate policy for NSF program 
portfolio balance across disciplines, to include interdisciplinary 
research.

QUESTION 4:  NSF, unlike the mission oriented science agencies, is a 
mainly proposal-driven agency. However, there are significant issues of 
concern to our nation--competitiveness, security, energy--that can be 
addressed, at least in part, through technology enabled by solutions or 
answers to known scientific challenges and questions.

              What is the appropriate role for NSF in such research 
driven by national needs? In fostering industry/university 
partnerships? Is this a valid application of Criterion 2 of NSF's merit 
review process?

    The Foundation was established to serve national needs including 
promoting the progress of science, advancing the national health, 
prosperity, and welfare, securing the national defense, and other 
purposes. National needs, both broadly and more narrowly defined, have 
always shaped the portfolio of NSF investments, and these investments 
should continue to address our nation's needs as they evolve. Criterion 
2 includes enhancements to partnerships, and potential benefits to 
society, and therefore includes contributions to innovation. Although 
NSF does not directly support technology development or deployment, the 
research it funds is driven by important national needs, and indeed NSF 
participates in interagency R&D priorities including the National 
Nanotechnology Initiative, Climate Change Science Program, Networking 
and Information Technology R&D, and Homeland Security for the last 
several years.
    One example of NSF participation in cross agency activities to 
benefit society is membership in the National Science and Technology 
Council's Subcommittee on Disaster Reduction (SDR) and of the 
legislatively-created National Earthquake Hazards Reduction Program 
(NEHRP). NSF's principal contribution to NEHRP is the George E. Brown, 
Jr. Network for Earthquake Engineering Simulation (NEES), an impressive 
collection of 15 large-scale experimental sites that feature advanced 
tools linked to a centralized data pool and earthquake simulation 
software, all of which is bridged together by the high-speed Internet2.
    One of the NEES sites is the O.H. Hinsdale Wave Research Laboratory 
at Oregon State University, which the Board recently visited. Research 
from Hinsdale and the other NEES facilities will help to advance our 
understanding and improve seismic performance of civil infrastructure 
in the U.S. and around the world and will lead to the design of 
buildings and development of building construction techniques to reduce 
the potential for damage to structures from tsunamis and other 
earthquake-related disasters.
    Recently, the National Science Board issued its report Hurricane 
Warning: The Critical Need for a National Hurricane Research Initiative 
[(NSB-06-115) www.nsf.gov/nsb/committees/hurricane/initiative.pdf], 
recommending the role of NSF and operational agencies like NOAA, NIST, 
NASA, USDA, and the Navy in the creation of a substantial new federal 
science and engineering enterprise for benefiting society. This 
enterprise would undertake a focused, sustained, and multi-agency 
initiative to improve our understanding of, and ability to predict, 
mitigate, and respond to, the impacts of hurricanes on the population, 
the built-infrastructure, and the natural environment.
    Another example of meeting national needs is the Foundation's 
involvement with energy research as a partner in the President's 
hydrogen fuel initiative through membership in the Interagency Hydrogen 
and Fuel Cell Technical Task Force. Related to this is the NSF's Energy 
for Sustainability Program, which will fund basic research and 
engineering of hydrogen and other alternative fuel systems, and the 
U.S. Climate Change Technology Program to develop the basic 
understanding that will facilitate the development of new and advanced 
technologies to address climate change.
    NSF advances national competitiveness through its many educational 
programs from the grade school to post graduate levels, and by 
providing essential research infrastructure through its four multi-user 
Federally-Funded Research and Development Centers, the construction of 
Major Research Equipment and Facilities, and through its eight Centers 
programs. The National Science Board's ``Science and Engineering 
Indicators'' and the NSF's surveys and reports provide statistics 
reflecting the condition of important components of U.S. and global 
science and technology, and provide information to track national 
competitiveness in science and engineering and to inform future 
programs to further promote competitiveness.
    NSF also helps to promote innovation through individual 
researchers. For example, Phase I recipients of the Foundation's Small 
Business Innovation Research Awards (SBIR) are invited to participate 
in NSF-sponsored business development programs. These programs help our 
awardees understand the issues associated with technology development 
and deployment that may be outside the experience of research 
scientists. NSF has found that these programs significantly increase 
the quality of commercialization plans and as a result the success rate 
of advancing to Phase II SBIR funding. Eleven federal agencies fund 
research through an SBIR program, but NSF is the only one to offer the 
entrepreneurial training to Phase I funding recipients.
    While technology development and deployment are not the direct 
objectives of the National Science Foundation, the data show our 
grantees have been successful in combining NSF support with funding 
from industry and other federal agencies and their own ingenuity to 
develop useful inventions. For example, 272 United States Patents were 
granted in 2006 that have acknowledged funding from the National 
Science Foundation. Analysis of these patents also reveals how NSF 
funding helps to further the research of the `mission' agencies. 
Research for over 44 percent of NSF-related patents in 2006 were co-
sponsored by one or more of the `mission' agencies, including USDA, 
NIH, NASA, and the Departments of Defense, Education, and Energy. In 
addition, researchers filed 379 U.S. Patent applications in 2005 for 
inventions sponsored, at least in part, by NSF. For each the past three 
calendar years, NSF awardees have disclosed over 1000 inventions. In 
fact, the ``iEdison.gov'' database reports NSF is consistently one of 
the top two federal agencies in terms of the number of inventions 
disclosed by researchers it supports.
    Moreover, since CY 2004, NSF has directly funded fundamental 
research to enhance homeland security. In FY 2006, NSF funding in this 
area was $342 million and it has requested $375 million in FY 2008, to 
fund research in such areas as information security, understanding 
vulnerabilities and strengthening U.S. critical infrastructure, and 
automated understanding of language.

QUESTION 5:  What are NSF's priorities in K-16 science, technology, 
engineering and mathematics (STEM) education? How does the current 
budget reflect those priorities? In particular, what is NSF's role in 
supporting undergraduate STEM education?

    The Board has been especially concerned with a major area of NSF 
responsibility--education in science, technology, engineering and 
mathematics (STEM). Education is a core mission of NSF, which not only 
includes advanced education in connection with funded research, but 
also responsibility for promoting quality math and science education as 
intertwining objectives at all levels of education across the United 
States. NSF's highly competitive peer-review process is second to none 
for openly and objectively identifying, reviewing, selecting, funding 
and providing stewardship for the very best STEM proposals and programs 
in research and education.
    The Board has a long-term concern with the condition of STEM 
education at all levels of the system. Nearly a quarter century ago, 
the National Science Board's Commission on Pre-college Education in 
Mathematics, Science and Technology assessed the state of U.S. pre-
college education in the subject fields and found it wanting. At the 
same time, in 1983 the U.S. Department of Education's National 
Commission on Excellence in Education published the report, A Nation At 
Risk (www.ed.gov/pubs/NatAtRisk/risk.html). This document stated: ``By 
the year 2000, U.S. students will be the first in the world in 
mathematics and science achievement,'' expressing alarm on the ``rising 
tide of mediocrity [in education] that threatens our very future as a 
Nation and a people.'' Despite these two reports--A Nation At Risk 
sounding the alarm and the Board's Commission report recommending 
solutions--and many others since then, we continue to slip further 
behind. Not only are they not first, but by the time they reach their 
senior year, even the most advanced U.S. students perform at or near 
the bottom on international assessments. There is now an even more 
pressing need to build a new foundation for U.S. STEM education.
    The Board has explored in a number of policy reports how the 
Foundation and other components of the STEM education system in this 
country can be more effective. Even while U.S. student relative 
performance in mathematics and science is declining on international 
assessments, changing workforce requirements mean that new workers will 
need ever more sophisticated skills in STEM disciplines. This emerging 
workforce, consisting of degreed and highly skilled technical workers, 
will need to begin developing their mathematical and science skills 
early in their educational career. In addition, the rapid advances in 
technology in all fields mean that even those students who do not 
pursue professional occupations in technological fields will also 
require solid foundations in science and math in order to be productive 
and capable members of our nation's society.
    As some of you know, the Board established a second Commission on 
STEM education--the Commission on 21st Century Education in Science, 
Technology, Engineering and Mathematics in March 2006, comprising a 
wide range of eminent experts representing the broad scope of interests 
in U.S. STEM education (www.nsf.gov/nsb/edu<INF>-</INF>com). We have 
held a number of hearings across the country--both in the process of 
considering the charge to such a Commission, and subsequently during 
several meetings of the new Commission. Science and Technology 
Committee Chairman Gordon and Vice Chairman Lipinski, and several other 
Members of the Subcommittee on Research and Science Education--Ranking 
Member Ehlers and Congresswoman Johnson, and other Members of Congress, 
including Speaker Pelosi, Congressman Mark Udall, Congressman Wolf and 
Congressman Culberson, as well as former Science Committee Chairman 
Boehlert, have attended one of these hearings or otherwise contributed 
their insights to this process. We look forward to receiving the draft 
action plan to reform U.S. STEM education from the Commission for 
discussion at the March 2007 National Science Board meeting. The plan 
will include STEM education from pre-K through college and beyond, and 
specific recommendations on the NSF role in STEM education reform at 
all levels.
    The Board has expressed our support for the NSF role in improving 
the linkage between the K-12 and higher education systems both in the 
charge to our Commission on 21st Century Education in STEM, and in our 
2004 Statement in Support of the NSF Mathematics and Science 
Partnerships (MSPs) (www.nsf.gov/nsb/documents/2004/
nsb<INF>-</INF>msp<INF>-</INF>statement2.pdf) funded through the NSF 
Education and Human Resources budget. We are pleased that the MSP 
experiments are beginning to show early positive results. In part, the 
NSF MSP Program provides for the collaboration between pre-college and 
college to promote excellence in teaching and learning, therefore 
facilitating the transitions for students from kindergarten through the 
baccalaureate in STEM disciplines. The added benefit for our nation is 
those students who do not choose STEM careers become the informed 
scientifically literate voting citizens we need for the 21st Century. 
Recent assessment data on MSP projects indicate this program has been 
effective in increasing student performance at all levels assessed--
elementary, middle and high school (http://www.nsf.gov/news), and 
promoting collaboration between pre-college and higher education. 
Therefore, we are pleased that the NSF budget request for FY 2008 will 
permit funding of new starts in the NSF/MSP program. However, it is 
again incumbent on the Board to note that the FY 2008 request for NSF 
EHR remains approximately 10 percent below the FY 2004 level (not 
corrected for inflation) of funding for this portfolio.
    The vertical integration of STEM education from pre-kindergarten 
through graduate school has also been one of the primary foci of the 
Board's Commission, and we expect to receive valuable guidance from 
their report on how the Foundation can contribute to such vertical 
integration in its programs at the undergraduate, pre-college and 
advanced levels of STEM education. The Board also has been undertaking, 
through its Committee on Education and Human Resources, an examination 
of the NSF EHR Directorate's programs with respect to evaluation 
procedures and results over the last year. The Board feels strongly 
that NSF EHR programs not only must be effective in relatively short-
term evaluations of their success in achieving desired outcomes of 
individual programs, but that, in combination, these programs must be 
effective in addressing U.S. long-term needs to retain its essential 
global advantage in S&E human resources. We have submitted an initial 
report on our review to Congress at the request of Congressman Rush 
Holt, and we will be continuing to apprise you about that review as we 
take into account the recommendations of the Board's STEM Education 
Commission, the report of the Academic Competitiveness Council, and the 
plans for the NSF EHR Directorate under its new leadership.

OVERVIEW OF NSB ACTIVITIES DURING THE LAST YEAR

    Now I would like to update you on National Science Board activities 
over the last year and some of our priorities for the coming year in 
both a) NSF policy-setting and oversight, and b) advising the President 
and Congress, our dual responsibilities.
NSF Oversight and Policy Direction
    During the last year, the Board accomplished a great deal in terms 
of its mission to provide oversight and policy direction to the 
Foundation, including: reviewed and endorsed the OIG Semi-annual 
Reports to Congress and approved NSF management responses; approved the 
NSF FY 2008 Budget Submission for transmittal to OMB; approved the 
Foundation's annual Merit Review Report; and provided review and 
decisions on major awards or proposal funding requests, including 
awards totaling $616 million. These awards will support advanced 
research, science education, and public understanding of critical 
issues facing our nation. The Board also approved a new strategic plan 
for NSF Investing in America's Future: Strategic Plan FY 2006-2011 
[(NSF-06-48) www.nsf.gov/publications/
pub<INF>-</INF>summ.jsp?ods<INF>-</INF>key=nsf0648], based on the 
National Science Board 2020 Vision for the National Science Foundation 
report [(NSB-05-142) www.nsf.gov/pubs/2006/nsb05142/nsb05142.pdf] to 
Congress. In addition, the Board accepted the Foundation's 2007 
Facility Plan (NSF-07-22) and the Plan was released in conjunction with 
the President's budget in February 2007. The Facility Plan was mandated 
by a joint management report of the Foundation and the Board, Setting 
Priorities for Large Research Projects Supported by the National 
Science Foundation [(NSB-05-77) www.nsf.gov/pubs/2005/nsb0577/
index.jsp].
    The Board has just released our draft report, Enhancing Support of 
Transformative Research at the National Science Foundation (http://
www.nsf.gov/nsb/documents/2007/tr<INF>-</INF>draft.pdf) for public 
comment and review. The Board states in this draft report that we 
believe it is unreasonable to expect that small adjustments to NSF's 
existing programs and processes will overcome the perception among much 
of the external scientific community that iconoclastic ideas are not 
welcome at NSF. System-wide changes for this purpose are also 
inappropriate. As noted in the Report of the National Science Board on 
the National Science Foundation's Merit Review System (NSB-05-119) 
www.nsf.gov/nsb/documents/2005/0930/merit<INF>-</INF>review.pdf], NSF's 
current merit-review system is functioning effectively to support the 
excellent innovative research that is significantly advancing the 
frontiers of knowledge and the goals of our nation. Nonetheless, our 
nation cannot afford to miss opportunities, discoveries, and new 
frontiers that can result from bold, unfettered exploration and freedom 
of thought that challenges our current understanding of natural 
processes. The NSF cannot allow the perception by any of the Nation's 
scientists that it does not welcome or support innovative ideas and 
potentially transformative research. Public support of and careful 
investment in paradigm-challenging ideas are critical not only to 
continued economic growth, but also to the future welfare of our 
nation. In this draft report, therefore, the Board recommends that NSF 
develop a distinct, Foundation-wide Transformative Research Initiative 
distinguishable by its potential impact on prevailing paradigms and by 
the potential to create new fields of science, to develop new 
technologies, and to open new frontiers. Foundation management will 
report back to the Board at its August 2007 meeting on its preliminary 
plan for a simple and transparent process for instituting the 
Transformative Research Initiative that encourages maximum 
participation by the community.
    In a constrained budget environment, achieving the reasonable 
balance of award size, and duration, and proposal success rate at the 
Foundation is an important concern of the Board. We have held several 
discussions with Foundation management about this issue and are 
anticipating a comprehensive report later this year that will inform us 
in establishing appropriate policy guidelines.
    A very high priority for the Board has been our continuing work 
with the NSF Management and the Office of Inspector General to resolve 
the correction of the existing reportable conditions that have been 
longstanding in NSF annual audits. We have reviewed the draft 
Corrective Action Plan for Reportable Conditions in the FY 2006 
Financial Statement Audit and are confident that we can quickly and 
effectively resolve outstanding issues. NSF management will report to 
the Board at our March meeting on the status of their efforts to 
resolve the reportable conditions, as well as efforts to enhance NSF's 
business model practices and develop a strategic personnel workforce 
plan for the 21st. Century.
Advice to the President and Congress
    The Board has undertaken a wide range of activities this year, in 
our broader role as an independent advisory body to the President and 
the Congress on national policy issues related to science and 
engineering (S&E) research and education.

        <bullet>  The Board completed a series of public hearings, in 
        response to a Congressional request that the Board consider 
        reconstituting its 1982 Commission on Pre-college Education in 
        Science, Mathematics, Engineering and Technology, and in March 
        2006 approved the establishment of the new Commission on 21st 
        Century Education in STEM, due to present its draft report to 
        the Board in March 2007;

        <bullet>  The Board published and disseminated an important 
        report, HURRICANE WARNING: The Critical Need for a National 
        Hurricane Research Initiative (NSB-06-115). The report presents 
        an agenda for action that will provide urgently needed 
        hurricane science and engineering research and education that 
        engages relevant agencies across the Federal Government; 
        involves industry, academia, and other levels of government; 
        establishes highly focused priorities; strengthens disciplinary 
        research; creates multi-disciplinary frameworks; and stimulates 
        the efficient transfer of research outcomes to operational 
        practice.

        <bullet>  The Board responded to a request from Senator John 
        McCain to examine existing policies of federal science agencies 
        concerning the suppression and distortion of research findings 
        of scientists employed by federal agencies and the impact these 
        actions could have on quality and credibility of future 
        government-sponsored scientific research results. Our central 
        recommendation was that an overarching set of principles for 
        the communication of scientific information by government 
        scientists, policy-makers, and managers should be developed and 
        issued by the Administration to serve as the umbrella under 
        which each agency would develop its specific policies and 
        procedures.

        <bullet>  The Board responded to a request from Congressman 
        Rush Holt for a summary of its review of the evaluations and 
        impacts of the programs of the National Science Foundation's 
        Education and Human Resources Directorate's programs in January 
        2007. We will be providing a more thorough report later in 
        2007.

        <bullet>  Exercising the Board's obligation to inform and 
        advise on critical issues, the Board sent a letter to 
        congressional leadership on February 13, 2007, expressing its 
        full endorsement and appreciation for the FY 2007 Congressional 
        Joint Budget Resolution funding level increase of the FY 2006 
        level for the NSF Research and Related Activities account, and 
        encouraging congressional approval of a similar budget increase 
        for the NSF Education and Human Resources account.

        <bullet>  The Board published and disseminated its statutory 
        biennial report, Science and Engineering Indicators 2006 (NSB-
        06-01) http://www.nsf.gov/statistics/seind06 and also prepared 
        and disseminated a Board policy statement Companion Piece to 
        Indicators 2006, America's Pressing Challenge--Building a 
        Stronger Foundation [(NSB-06-02) http://www.nsf.gov/statistics/
        nsb0602], February 2006;

        <bullet>  Board Members provided comments to Congressman Bart 
        Gordon on his bill, ``10,000 Teachers, 10 Million Minds Science 
        and Math Scholarship Act'' in February 2006.

    Further, the Board provided testimony to congressional hearings in 
2006, and responded to other specific questions and inquiries from 
Members of Congress and their staffs.

Improved Outreach and Communication by the Board
    The Board continues to increase and improve our direct outreach and 
communication with Congress, other federal agencies, various interest 
groups and the external science and engineering research and education 
community.
    For example, the Board sponsored:

        <bullet>  Five public meetings of the Commission on 21st 
        Century Education in Science, Mathematics and Technology (See 
        Commission Webpage at http://www.nsf.gov/nsb/
        edu<INF>-</INF>com)

        <bullet>  A second and third pre-commission hearing in January 
        and March 2006 in Boulder, Colorado and Los Angeles, 
        California, respectively, seeking input from a cross section of 
        stakeholders in U.S. STEM education on the value of 
        establishing a new STEM Commission to address this topic for 
        the Board a second time (See: http://www.nsf.gov/nsb/
        edu<INF>-</INF>com/hearings.htm)

        <bullet>  A third public workshop on Transformative Research 
        (May 16, 2006 http://nsf.gov/nsb/committees/
        tskfrcetrans<INF>-</INF>cmt.htm);

        <bullet>  A second public workshop on engineering education 
        reform, including leading deans of engineering, Moving Forward 
        to Improve Engineering Education (http://nsf.gov/nsb/
        eng<INF>-</INF>edu/start.htm), at the Georgia Institute of 
        Technology in November 2006;

        <bullet>  A public ``rollout'' event for the Hurricane Science 
        and Engineering report, Hurricane Warning: The Critical Need 
        for a National Hurricane Research Agenda (www.nsf.gov/nsb/
        committees/hurricane/advisory.pdf) in the U.S. Capitol Building 
        in September 2006, with the participation by Senators Mel 
        Martinez and Bill Nelson of Florida, and Senator David Vitter 
        of Louisiana.

        <bullet>  Two public presentations on Capitol Hill on Science 
        and Engineering Indicators 2006 (NSB 06-02) and its companion 
        piece, America's Pressing Challenge--Building a Stronger 
        Foundation (NSB 06-02), February 23, 2006 to the media and 
        general public and April 6, 2006 to the House R&D and STEM 
        Caucuses;

        <bullet>  A presentation to Colorado State legislators at the 
        invitation of the American Electronics Association on both 
        Science and Engineering Indicators 2006 and the recently 
        completed hearings to consider establishing a new National 
        Science Board Commission on STEM Education for the 21st 
        Century, March 23, 2006;

        <bullet>  Two presentations to the National Science Teachers 
        Association (NSTA) in April in Anaheim, California, on Science 
        and Engineering Indicators 2006 and its companion piece, 
        America's Pressing Challenge--Building a Stronger Foundation 
        (NSB 06-02); and

        <bullet>  National Science Board informational booths at the 
        American Association for the Advancement of Science (AAAS) 
        meeting in February in St. Louis, Missouri, the National 
        Science Teachers Association (NSTA) meeting in Anaheim, 
        California in April, and Sigma Xi--the Research Society meeting 
        in Detroit, Michigan in November.

    In an effort to facilitate more openness of Board meetings in 
accord with the Sunshine Act, we expanded our practices for:

        <bullet>  providing public notice of all our meetings on a 
        dedicated NSB Meeting Notice Web site, as a supplement to the 
        kinds of notices regularly published in the Federal Register;

        <bullet>  continuing to treat teleconferences of the Board, 
        Board Committees, subcommittees and task forces as `meetings,' 
        subject to the requirements of the Government in the Sunshine 
        Act;

        <bullet>  providing much more information to the public in a 
        more timely manner regarding meeting discussions and decisions; 
        and

        <bullet>  expanding efforts to encourage public comment during 
        the development of Board publications.

FY 2008 NSB BUDGET

    The Board has much to do over the next year. Perhaps one of the 
most important actions is to oversee the implementation of the new NSF 
Strategic Plan, which addresses the broad priorities established in the 
Board's 2020 Vision for the Foundation. We will be looking to provide 
policy direction to the Foundation with respect to recommendations of 
the newly released Hurricane Research and Transformative Research 
reports. Both involve broad, multi-disciplinary questions on the broad 
frontiers of science and engineering and across the portfolios of NSF's 
science, engineering and education directorates.
    Our Task Force on International Science Partnerships will complete 
its international meetings in 2007, and we expect to be providing 
specific guidance to NSF and broader advice on the role of the Federal 
Government in supporting international S&E partnerships. Our ad hoc 
Task Group on Engineering Education is poised to present us with 
recommendations that will impact university engineering programs and 
the future engineering workforce, reflecting the input from two 
important workshops, incorporating the ideas of engineers, faculty, 
administrators, and employers in developing guidance for engineering 
education for the 21st Century that reflects the increasing diversity 
of the U.S. workforce and growing challenges for engineering from 
globalization of both science and technology and the engineering 
workforce. We will be continuing our review of program evaluations and 
impact in the NSF Education and Human Resources Directorate.
    Over the next year, the Board expects to complete our development 
of a national action plan for 21st Century Education in Science, 
Technology, Engineering and Mathematics by making a formal report to 
the Congress. While many of these recommendations will be at a national 
system level, a number will focus specifically on the role NSF can and 
should play in supporting the development of an adequate and diverse 
science and engineering workforce. The Board will also continue to 
review and approve NSF's actions for creating major NSF programs and 
funding, and expects new efforts to be implemented regarding 
enhancement of NSF support for potentially transformative research as a 
result of new Board guidance.
    Several endeavors that the Board expects to formally complete by 
the end of FY 2007 will require significant follow-up outreach efforts 
by the Board in FY 2008 to ensure the desired impacts are realized. For 
example, lessons learned by the Board's experience with its 1982 STEM 
Education Commission report and the 2001 report on the role of the 
Federal Government in supporting international science, have provided 
clear and strong lessons on the importance of the Board undertaking 
significant follow-up efforts to ensure action based on our reports. 
While the Board's Commission on 21st Century Education in Science, 
Technology, Engineering and Mathematics will complete its work later 
this year, it is clear that much follow-up outreach by the Board will 
be required throughout FY 2008 to ensure the work of the Commission has 
the highest possible impact. Likewise, the Board's Task Force on 
International S&E partnerships will complete its work at the end of FY 
2007, but will require significant follow-up by the Board in FY 2008.
    The Board will be producing a new summary volume to our biennial 
S&E Indicators report in FY 2008 that will require significant new 
effort on the part of the Board. In addition, the Board will continue 
to review and approve NSF's actions for creating major new programs and 
funding large projects in FY 2008, as well as dealing with evolving NSF 
policy issues. Experience has demonstrated that the Board will receive 
a number of requests from Congress asking that the Board examine and 
report quickly on a wide range of national policy topics related to S&E 
research and education. The Board welcomes such Congressional and 
Administration requests, and will itself continue to identify high 
priority topics focused specifically on NSF, or more broadly on 
national S&E policy issues that it feels it should examine in FY 2008.
    By statute the Board is authorized five professional positions and 
other clerical staff as necessary. The full impact of increasing the 
number of professional positions to the statutory level will occur in 
FY 2008 with increased attention to addressing new skill requirements. 
However, the results of a strategic restructuring of the Board Office 
management and operations over the last three years has led to more 
efficient use of appropriated resources while retaining the ability to 
support an active Board agenda.

ISSUES TO CONSIDER AS PART OF NSF RE-AUTHORIZATION LEGISLATION

    [Our Board Office Director will be available to work closely with 
your Subcommittee staff to assist with development of specific 
legislative text to enact any of the Board's following suggestions for 
modification to the NSF Re-authorization Act.]

A 2020 Vision for NSF
    In September 2006, the National Science Board approved a new 
Strategic Plan for the National Science Foundation for FY 2006-2011, 
Investing In America's Future [(NSF 06-48) www.nsf.gov/publications/
pub<INF>-</INF>summ.jsp?ods<INF>-</INF>key=nsf0648], articulating 
strategic outcome goals of discovery, learning, research 
infrastructure, and stewardship, and investment priorities in order to 
accomplish these goals. These reflect the National Science Board's 2020 
Vision for NSF [(NSB-05-142) www.nsf.gov/publications/
pub<INF>-</INF>summ.jsp?ods<INF>-</INF>key=nsb05142], published in 
December 2005, establishing specific broad priorities for the National 
Science Foundation to:

        <bullet>  Drive the cutting edge of fundamental and 
        transformative research;

        <bullet>  Tap the talents of all our citizens, particularly 
        those belonging to groups that are under-represented in the 
        science and research enterprise, and continue to attract 
        foreign students and scientists to the U.S.;

        <bullet>  Develop and test new approaches to teaching science 
        to elementary and secondary school students and catalyze 
        partnerships among schools, museums, aquariums, and 
        universities to put these techniques into effective practice;

        <bullet>  Provide the bright minds in our research institutions 
        with the tools and instruments needed to probe the frontiers of 
        knowledge and develop ideas that can transform our 
        understanding of the world; and

        <bullet>  Maintain the financial and talent resources to be an 
        effective agent for excellence in the critical national 
        enterprises of learning, discovery, and innovation.

    The Board would encourage Congress to factor the priorities of the 
Board's 2020 Vision for NSF into consideration as you prepare the NSF 
Re-authorization Act.

Address and examine potential impacts of a doubling of the NSF budget
    In December 2003, and in direct response to congressional guidance 
in Section 22 of the National Science Foundation Authorization Act of 
2002 (Pub. L. 107-368, 42 U.S.C.  1862n note), the National Science 
Board prepared a report, Fulfilling the Promise [(NSB-03-151) 
www.nsf.gov/nsb/documents/2003/nsb03151/coverlink.pdf], to address and 
examine the Foundation's budgetary and programmatic growth provided for 
by the Act, and to outline how additional funding would be spent in the 
event the NSF budget were doubled. Given recent Administration and 
Congressional statements and actions related to future doubling of the 
NSF budget, Congress may wish to consider including legislative 
language as part of the NSF Re-Authorization Act to request the Board 
to prepare a report to Congress that would provide:

        (1)  recommendations on how the increased funding should be 
        utilized;

        (2)  an examination of the projected impact that the budgetary 
        increases will have on the Nation's scientific and 
        technological workforce;

        (3)  a description of new or expanded programs that will enable 
        institutions of higher education to expand their participation 
        in Foundation-funded activities;

        (4)  an estimate of the national scientific and technological 
        research infrastructure needed to adequately support the 
        Foundation's increased funding and additional programs;

        (5)  a description of the impact the budgetary increases 
        provided under this Act will have on the size and duration of 
        grants awarded by the Foundation, and

        (6)  a description of the impact the budgetary increase 
        provided under this Act will have on the potential to create 
        new fields of science, to develop new technologies and to open 
        new frontiers.

Clear statement on the critical role of NSF in pre-K-12 STEM Education
    Education is a core mission of the National Science Foundation 
(NSF). NSF not only promotes research, but also shares in the 
responsibility for promoting quality science, technology, engineering 
and math (STEM) education as intertwining objectives at all levels of 
education across the United States. NSF's highly competitive peer-
review process is second to none for openly and objectively 
identifying, reviewing, selecting, funding and providing stewardship 
for the very best STEM proposals and programs in research and 
education.
    As part of our role in providing oversight and guidance to the EHR 
programs, the Board is assessing how well NSF supports the overall S&E 
education and training outcomes needed by the U.S. in a changing global 
environment for science and technology. This on-going review is an 
important action toward achieving the Board's 2020 Vision for the 
National Science Foundation, submitted to Congress in December 2005, 
which states a near-term goal to ``. . .critically evaluate current 
education investments and develop new strategies to increase their 
impact on the quality of STEM education.'' Reflecting our conviction of 
the importance of the EHR Directorate programs for the Nation, the 
Board has issued a number of STEM education policy reports recently, 
including its 2004 statement ``In Support of the Math and Science 
Partnership Program at the National Science Foundation'' (NSB-04-42) 
that articulates the Board's strong commitment to that NSF EHR 
Directorate program and its companion piece to Science and Engineering 
Indicators 2006, America's Pressing Challenge--Building a Stronger 
Foundation (NSB 06-02).
    The Board feels strongly that NSF EHR programs not only must be 
effective in relatively short-term evaluations of their success in 
achieving desired outcomes of individual programs, but that, in 
combination, these programs must be effective in addressing U.S. long-
term needs to retain its essential global advantage in S&E human 
resources. The NSF must help the U.S. sustain its world leadership in 
science and technology. Four examples of the many exemplary NSF 
education programs are: the Math and Science Partnership (MSP), the 
Louis Stokes Alliances for Minority Participation (LSAMP), Information 
Technology Experiences for Students and Teachers (ITEST) Program and 
the Robert Noyce Scholarship Program.
    The Board will be continuing our review of NSF EHR program 
evaluations and results, and the use of findings to enhance EHR 
programs against the background of growing national needs for skills 
and knowledge, and the growing international competition for talent and 
technological leadership. We are deeply concerned that, although the 
U.S. must continue to attract and welcome the best international STEM 
talent, we can no longer depend on the global market as we have in the 
past for the skills and innovative talent needed in our labor force. We 
are convinced of the central role NSF EHR programs can and must play in 
preparing our citizens with the knowledge and skills needed for our 
nation to remain a global leader in science and technology. We are 
committed to ensuring that NSF EHR programs and portfolio serve our 
society effectively in that role.
    NSF education programs provide for the collaboration between pre-
college and college to promote excellence in teaching and learning, 
therefore facilitating the transitions for students from kindergarten 
through the baccalaureate in STEM disciplines. The added benefit for 
our nation is those students who do not choose STEM careers become the 
informed scientifically literate voting citizens we need for the 21st 
Century.
    NSF has the mandate, depth of experience, and well-established 
relationships to build the partnerships for excellence in STEM 
education. The Board, therefore, strongly urges that NSF education 
programs be sustained and expanded over the long-term as an essential 
component of a coordinated federal effort to promote national 
excellence in STEM education. Congress may wish to address this issue 
as part of the legislative language in an NSF re-authorization act.

Role of the Board in approving NSF actions
    Current Board policy for NSF (NSF Proposal and Award manual, NSF 
manual #10, December 31, 2005) requires Board approval for the 
following NSF actions:

        (1)  Large Awards. Proposed awards where the average annual 
        award amount is one percent or more of the awarding Directorate 
        or Office's prior year current plan.

        (2)  New Programs. Board approval is required for new Programs 
        that: (1) represent a substantial investment of Program 
        resources (threshold defined as the total annualized awards to 
        be made by the proposed Program exceed three percent of the 
        awarding Directorate's or Office's prior year current plan); or 
        (2) involve sensitive political or policy issues; or (3) are to 
        be funded as an ongoing Foundation-wide activity.

        (3)  Major Construction Projects. Board approval is required 
        when the resulting cost is expected to exceed the percentage 
        threshold for Board award approval.

        (4)  Awards Involving Policy Issues or Unusual Sensitivity. 
        Board interests may include the establishment of new centers, 
        institutes, or facilities; potential for rapid growth in 
        funding or special budgetary initiatives; research community or 
        political sensitivity; previous expression of Board concern; or 
        items otherwise identified by the Director or Assistant 
        Directors.

        (5)  Requests for Proposals (RFPs). RFPs expected to result in 
        contracts exceeding the Board approval thresholds. Release of 
        these RFPs to potential contractors must be approved by the 
        Board.

        (6)  Waivers. Requests for exemption from Board review and 
        approval of a continuing project or logistics support 
        arrangement may be requested in routine cases where there are 
        no significant issues or policy implications.

    We feel this Board policy has worked fairly well and is at an 
appropriate macro-level of oversight and policy-setting without having 
the Board become overly engaged with NSF management and operations. 
However, Congress previously expressed its desire for the Board to be 
directly involved with approval of congressional budget requests, 
priority-setting, and award granting of projects in the NSF Major 
Research Equipment and Facilities Construction (MREFC) account. In 
response to Section 14 of the 2002 Authorization Act (42 U.S.C.  
1862n), the Board worked with the Foundation to produce a joint report 
that clearly describes the process by which priorities are set for 
selecting and funding large research facilities, Setting Priorities for 
Large Research Facilities Supported by the National Science Foundation, 
(NSB-05-77). The Board would welcome any additional guidance the 
Congress may wish to provide regarding this process.

Role of the Board as Oversight Body for NSF and Advisory Body to 
        Congress and the President
    From time to time questions have been raised regarding the Board 
role as an oversight body for the Foundation. While countless 
congressional budget and authorization report language, and written 
communications from both Republican and Democratic members of both 
authorizing and appropriating committees of Congress over many years 
have made clear the intent for the Board to serve as the oversight body 
of the Foundation, NSF authorization legislation does not explicitly 
state the Board's oversight role. Congress may wish to specifically 
address this issue to help avoid future debates on this topic that can, 
at best, be distracting for the Board, NSF Management, and the 
Congress. In a similar vein, Congress may also consider making more 
explicit in new authorization legislation the independent advisory role 
of the Board directly to both the Congress and the President on 
national policy issues related to science and engineering research and 
education.

Sunshine Act Audit of the Board
    Audits conducted by the Office of Inspector General over the past 
three years have found that the National Science Board has been in 
compliance with the requirements of the Government in the Sunshine Act 
(Sunshine Act). The audit requirement stems from situations prior to 
2003 in which the Board did not provide public access to sessions of 
its committees, task forces, or other working groups. In response, 
Congress added language to the NSF Authorization Act of 2002 explicitly 
subjecting session of the Board's subdivisions to the Sunshine Act. 
Congress further directed NSF's Inspector General to conduct annual 
audits of Board compliance with the Sunshine Act and to report audit 
results to specified congressional committees. Four annual audits have 
been completed and none has resulted in any significant finding of non-
compliance. Extending the audit cycle to three years (and appropriately 
extending the associated document retention requirements) recognizes 
this fact, yet provides an efficient and regular check on the Board's 
continued adherence to the Sunshine Act's requirements. Congress may 
consider modifying the NSF re-authorization to increase the time period 
for audits of the National Science Board's compliance with the 
Government in the Sunshine Act (5 U.S.C.  552b and 42 U.S.C.  1862n-
5) from every year to every three years.

Board Budget and Operations
    As a result of the National Science Foundation Authorization Act of 
2002, the National Science Board was, for the first time, given a 
separate budget line account in the overall Foundation appropriation. 
That measure served to increase the Board Office's independence and 
flexibility in meeting the operating and policy research needs of the 
Board and Board Office, such as those related to conducting workshops, 
issuing contracts, travel, training, etc. Increasing the availability 
of Board appropriated funds beyond a single fiscal year, by providing 
for a two-year period of availability for the Board's appropriations 
under ``Authorization of Appropriations'' (Section 5 in the 2002 
Authorization Act), will provide the Board with an added degree of 
flexibility and, in turn, with full authority for the independent use 
of its resources through the Board Office. Congress may wish to 
consider this change in the NSF re-authorization as a further step in 
ensuring that the Board has flexible and independent resources to 
fulfill both its oversight and policy-setting role for the NSF and its 
role as an independent body of advisors to the Congress and the 
President on national policy issues related to science and engineering 
research and education.
    At the urging of Congress, in FY 2003 the Board began examining 
options for augmenting its professional staffing levels. As an initial 
step in this process, in August 2003 the Board appointed a new 
Executive Officer of the Board, who also serves as the Board Office 
Director. At the direction of the Congress and with full concurrence of 
the Board, our Executive Officer reports directly to the Chairman of 
the Board and has been delegated responsibility for the hiring and 
supervision of all Board Office staff and oversight of all Board Office 
operations. The Board is very pleased with this arrangement. Essential 
to the conduct of Board business is a small and independent core of 
full-time senior policy, clerical, and operations staff. In addition to 
the Board Office's essential and independent core resources and 
capabilities, temporary contractual advisory and assistance services 
continue to be critical to support production of Board reports and 
supplement the Board Office staff's general research and administration 
services to the Board. These external services provide the Board and 
its Office with the flexibility to respond independently, accurately, 
and quickly to requests from Congress and the President, and to address 
issues raised by the Board itself. The Board would significantly 
benefit from modifications to the NSF re-authorization Act that would 
allow our Board Office to implement funding arrangements to 
periodically supplement our policy staff with technical and 
professional personnel on leave of absence from academic, industrial, 
or research institutions for a limited term. Congress may consider 
modifying Section 1863 (g), 1873 (a) (3) and other appropriate sections 
of Title 42 of the U.S. Code in this re-authorization to allow the 
Board to directly enter into these arrangements.

Include NSF under the Program Fraud and Civil Remedies Act (PFCRA)
    Congress passed and the President signed PFCRA in 1986 to provide 
the executive departments, the military, federal establishments covered 
by the Inspector General (IG) Act at the time of its enactment, and the 
United States Postal Service with a mechanism to recover losses of less 
than $150,000 resulting from false claims and statements of less than 
$150,000, which may not otherwise be prosecuted. The Office of 
Inspector General (OIG) at NSF, however, (along with other ``designated 
federal entities'') was created after a 1988 amendment to the IG Act. 
As a result, NSF was not included in the 1986 PFCRA legislation. PFCRA 
has not been subsequently amended to include agencies, such as NSF, 
that were provided with OIGs in the 1988 amendments.
    Except for NSF, every major agency that funds scientific and 
engineering research and education, including the National Institutes 
of Health, National Aeronautics and Space Administration, Department of 
Energy, and Environmental Protection Agency, are authorized to recover 
funds and assess penalties under PFCRA. NSF, too, needs to have all 
available means to take effective action whenever grant funds intended 
for scientific and engineering research and education are used 
fraudulently. The NSF Director, the Inspector General, and the National 
Science Board, all support amending PFCRA to include NSF within its 
jurisdiction.
    Because many NSF-funded projects are relatively small in dollar 
amounts, PFCRA's mechanisms are well suited for resolving disputes 
between the Foundation and its grantees or contractors concerning 
fraudulent claims. Currently, the Foundation's principal legal recourse 
is to recommend that the Department of Justice attempt to recover 
misused funds through civil prosecution under the False Claims Act (31 
U.S.C.  3730). In general, such actions are most practical when the 
sums involved are very large. Under PFCRA, NSF would be able to impose 
monetary penalties instead of, or in addition to, debarring or 
suspending erring individuals and organizations. Congress may wish to 
consider providing the Foundation with valuable flexibility in 
protecting the integrity of its programs by creating a section in the 
Reauthorization Act amending PFCRA to include NSF. This will authorize 
the agency to recover funds and assess penalties under PFCRA's 
provisions.

CLOSING REMARKS

    This is a challenging time for federal S&E research and education 
budgets and the organizations and individuals that rely on federal 
support. For over 50 years the Federal Government has sustained a 
continual, visionary investment in the U.S. research and education 
enterprise in the expectation that such investment would benefit all 
Americans. That federal effort has expanded the horizon of scientific 
discovery and engineering achievements far and wide, leading to the 
realization of enormous benefits to the Nation's prosperity and 
security.
    We know the expanding frontiers of knowledge offer enormous 
opportunities for research and innovation. We also know that the 
education of all our citizens in the fundamentals of math, science and 
engineering must continue to be enhanced, and more American citizens 
must pursue science and engineering studies and careers if the U.S. is 
to remain eminent in critical science and technology disciplines. As 
other nations ramp up their investment in the infrastructure for S&E 
research and innovation, we cannot be complacent.
    Even in a time of budget constraints, we cannot ignore the Nation's 
growing dependence on innovation for economic prosperity and the ever-
improving quality of life Americans have come to expect. We also must 
be attentive to the crucial role of federal investment in science and 
engineering research and education, especially fundamental research 
that is not cost effective for private industry to pursue, and the 
contributions of federal support to research in universities and 
colleges to preparing our most advanced students for their future 
careers. The Board recognizes that competing priorities may impose 
fiscal constraints that limit the Foundation's, and so the Nation's, 
aspirations. In weighing these competing priorities, we ask you to keep 
in mind that in our changing global environment, investments in our 
national science and technology capabilities--talent, knowledge, and 
physical infrastructure--are not luxuries but essential to our nation's 
long-term prosperity and security. We therefore urge that the Congress 
take the long view in its annual budget deliberations for funding and 
re-authorizing U.S. science and engineering research and education 
through the National Science Foundation.

                    Biography for Steven C. Beering

Chairman, National Science Board

Medicine and Higher Education

B.S., University of Pittsburgh, 1954

M.D., University of Pittsburgh, 1958

    Steven C. Beering received B.S. and M.D. degrees and an honorary 
Doctor of Science degree from the University of Pittsburgh. Before 
becoming President of Purdue in 1983, he served for a decade as Dean of 
Medicine and Director of the Indiana University Medical Center. He 
holds appointments as Professor of Medicine at Indiana University and 
Professor of Pharmacology at Purdue University. He retired from the 
Purdue presidency in 2000.
    He served on active duty with the USAF Medical Corps from May 1957 
to June 1969, achieving the rank of Lieutenant Colonel.
    Beering has held numerous national offices, including the 
chairmanship of the Association of American Medical Colleges and the 
Association of American Universities. He is a former regent of the 
National Library of Medicine.
    He is also a Fellow of the American College of Physicians and the 
Royal Society of Medicine, a member of Phi Beta Kappa, the Institute of 
Medicine of the National Academy of Sciences, and the Indiana Academy.
    He serves on a number of national and corporate boards, including 
NiSource Inc., Central Indiana Corporate Partnership, Inc., Community 
Foundation of Northern Indiana, CID Corporation, and Marquis Who's Who. 
He is a Trustee of the University of Pittsburgh, and the Universities 
Research Association, and is Director Emeritus of the Purdue Research 
Foundation.
    Beering was appointed to the National Science Board in 2002, 
reappointed in 2004, and elected Chairman in 2006.

                               Discussion

    Chairman Baird. Thank you, Dr. Beering.
    I will take you up on the offer to get together to discuss 
the STEM education study you have come up with. And Dr. Ehlers 
and I and other Members of the Committee, who are interested, I 
am sure will find the time to do that, as it is of critical 
importance.
    I also see, present in our audience, a number of the ADs 
for the various science directorates we met with last week. 
Good to see all of you folks. Thanks for being here and for 
your work, and also, staff from the Science Board as well. We 
appreciate the work of the staff.
    At this point, we will open up our first round of 
questions. The Chair would recommend--recognize himself for 
five minutes.
    And related to the issue of staff that I just raised, one 
of my first questions would be, as we talk about the idea of 
possibly doubling the budget, which I hope we will do over the 
next several years, that will carry with it some administrative 
needs, including workforce, infrastructure, and travel. If we 
just expand the number of research grants but we don't expand 
the infrastructure necessary to manage those grants, it seems 
to be that we will be in some trouble.
    I open up to either of you to address that issue and any 
thoughts you have about how it needs to be addressed.
    Dr. Bement. Yes, thank you.
    And thank you for calling attention to an item that is 
absolutely critical to the quality of our work.
    Many of the opportunities that the Foundation faces right 
now that has to do with mentoring young investigators, that has 
to do with post-award and pre-award oversight activities as 
well as maintaining quality of our merit review process is 
dependent entirely on our program officers and program 
directors.
    At this present time, they are chronically overworked. I 
worry that they may not be picking up the transformative 
research opportunities for a lack of time to really dig into 
some of the good proposals that they are getting.
    That has to be rectified, but in addition to that, we need 
to maintain our investments in productivity-enhancing tools, 
both electronic and otherwise, that takes some of the workload 
off our staff.
    And travel is important, because you can't do post-award 
oversight unless you can get out and visit the investigators, 
either at meetings when they congregate or at their home 
research laboratories.
    All of these taken together, plus issues of cybersecurity, 
modernizing our information technology within the Foundation, 
fall under our Agency Operations and Award Management budget 
line. And I would urge, in reauthorization, that that be 
included as a major priority, and I would also very much 
welcome your advocacy to be sure that we get full funding this 
year in our 2008 request.
    Chairman Baird. I appreciate that. I think, you know, 
oftentimes when the appropriation season comes around and we 
look for offsets, we tend to say, ``Well, we will go after the 
administrative line,'' but the administrative personnel are 
necessary to make the system work, and not only just the 
personnel, but as you say, the travel, the equipment, the 
resources. And it is just not responsible or realistic to say 
we are going to plus-up one side and not give the resources to 
sustain that. So we will make that a priority.
    Dr. Bement. Thank you.
    Chairman Baird. Secondly, I am intrigued by the process, 
and it is a discussion that would probably extend well beyond 
today, but the process by which the Board and the Foundation 
determine where the resources will go and what percentage of 
the dollars, and what total amount of dollars will go to one 
directorate versus another or one enterprise within a 
directorate versus another.
    Let me throw out a thought that occurred to me the other 
day.
    What I understand, but I think when you look at, say, the 
big supercolliders and giant telescopes, a tremendous amount of 
monies go into those, and they are expensive installations. But 
as I look at some of the greatest national challenges we are 
going to face in the next several decades, I would say if you--
one would be the war on terror and the national security issue. 
A second would be, clearly, energy. A third would be rising 
health care costs, et cetera.
    As I look at those, a portion of those will be addressed by 
the traditional physical, biological, and other sciences. But 
behavior, human behavior, is going to have a great deal to do. 
In fact, if we wanted to truly address our energy crisis in the 
most immediate way possible, it would not be through cellulosic 
ethanol, or, for God's sake, nuclear fusion, which is a little 
ways off, to say the least. It would be by everybody driving 
less and carpooling and using mass transit. And if we did that, 
we could cut energy consumption by 10 percent.
    I raise that to ask, do we need some grand challenges in 
the social sciences or grand social challenges to which we 
would apply the social sciences, in addition to the other 
sciences, and how might that be considered by the Foundation or 
the Board in the coming years?
    Dr. Bement. Thank you, Mr. Chairman, for that question. 
There is no question, but the human component in all our 
research is increasing because of the increasing complexity of 
the research. Now you mentioned interdisciplinarity. In many of 
our interdisciplinary programs, the social sciences are social 
scientists are full partners. Grand challenges are important, 
because the cost of doing research in the social sciences is 
going up because of the increasing complexity and size of 
databases and the kind of research that they need to do in 
trying to analyze those type of data with advanced cyber 
infrastructure.
    So I fully agree that we do have to give appropriate 
emphasis to the social sciences. We have to integrate them with 
all our other major programs, and the grand challenge idea is a 
good one.
    Chairman Baird. Thank you.
    My time has expired.
    I yield to Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, Dr. Beering, you made some comments about 
what you would like to see in the reauthorization language. Dr. 
Bement, I am wondering if there is anything specific you would 
like to request as we reauthorize, other than saying you want 
all the money and no control, but----
    Dr. Bement. Well, obviously, flexibility is important, and 
for lack of a prescriptive language, that would be very 
helpful.
    I think the most important need I have already discussed, 
as far as our Agency Operations Award Management account. I 
think that deserves special notice in the reauthorization bill.
    A very minor element: we do have the Waterman Award, which 
honors the first Director of the Foundation, and each year, we 
try to select one from many disciplines and many outstanding 
candidates. I continually get a request from the excellent 
committee we have that goes through the screening process, and 
has a very difficult time, but this may be the time to increase 
it to three. So I would put that before the Committee as a 
component of the bill.
    Mr. Ehlers. Well, let me ask both of you. You have seen 
draft language of what is being proposed. Are there any parts 
that you particularly like, and more importantly, any parts you 
don't like?
    Dr. Bement. The answer is yes.
    Mr. Ehlers. Thank you.
    Could you be a little more specific?
    Dr. Bement. Well, I have got a large number of notes that I 
would like to present for the record, but clearly, under the 
Major Research Instrumentation section, which is Section 3, 
part D, we have just increased the ceiling to $4 million, and 
we have also increased the funding in the 2008 request to $114 
million. We don't know yet what the skew will be of that 
distribution and who we may be disadvantaging in the lower cost 
instrumentation across our constituency and especially in some 
of the minority-serving institutions and other institutions. My 
recommendation there is to increase the ceiling step-wise as we 
increase the budget, rather than to raise the ceiling so high 
that one or two awards would greatly disadvantage a larger 
number of applicants for important equipment.
    I think Section 5 is a good section. As far as 
interdisciplinary research, we have already addressed that, and 
there is always more that we can do, but invariably, it deals 
with the nature of the science question that needs to be 
addressed and how the community responds to that.
    So as a bottom-up organization, we really can't define all 
of the opportunities for interdisciplinarity, but we certainly 
encourage it. We have been at this now for 25 years, and 
finally, the universities are getting religion and have begun 
to produce the silos a little bit. So in our unsolicited 
proposals, we are seeing an increasing fraction, and now it is 
up to anywhere from 40 to, perhaps, 50 percent. There are 
multiple PIs, and many of those are interdisciplinary, but they 
are unsolicited.
    And I could go on. There is much more in here.
    Mr. Ehlers. Well, we would certainly appreciate having that 
for the record.
    Dr. Beering, any comments you wish to make?
    Dr. Beering. Yes. We addressed that issue and others in my 
written testimony, starting on page 14, and we also addressed 
it in a previous hearing on March the 20th.
    And let me comment specifically on your Section 6 on new 
investigators.
    We are struggling with how we can get transformative 
research front and center in our endeavors, and I think this 
new section here is going to be helpful in that regard.
    And then Section 11 on STEM education is very vital. I 
expect that our STEM education report is going to recommend 
some specific action plans, one of which is to increase the 
length of the school year. As you compare ourselves with Asia 
and Europe, it is astounding how much more time their students 
spent in class and formal instruction than ours do and some of 
the requirements they have for science and language, which we 
do not have.
    So I would highlight those two items as extremely helpful.
    Mr. Ehlers. Dr. Bement.
    Dr. Bement. Let me bring up one other section that I think 
is critically important, and that is Section 12 on cost 
sharing.
    Let me first emphasize that we accept cost sharing. In 
fact, we encourage it, we just don't require it. And the reason 
we don't require it is that there are many institutions and 
many investigators that can't get a cost-sharer, especially, 
again, among minority-serving institutions, for example. To put 
it in as a requirement disadvantages them from even being able 
to submit a proposal, and I think that is wrong. I think we 
should continue to encourage cost sharing, but we should not 
mandate it.
    Mr. Ehlers. Thank you, both.
    I see my time has expired.
    Chairman Baird. Thank you.
    Dr. Bartlett.
    Mr. Bartlett. Thank you very much. I appreciate, very much, 
you being here.
    I have two issues I would like to pursue.
    One is the huge problem that we face in this country in two 
dialogues, major dialogues that we are having in agreement of 
the facts. It is very difficult to have an intelligent 
conversation if you can't agree on the facts. Of course, we are 
all privileged to have our own interpretations, but we 
shouldn't have our own facts.
    The two areas that I am thinking of, one of them is climate 
change and global warming. And to whom should we turn? Your 
organizations are certainly among those. To whom should we turn 
as an honest broker so that we can have some agreed-upon facts 
for this discussion?
    Dr. Bement. Well, Dr. Bartlett, it is good that you brought 
up that question, because I just came from Dartmouth University 
where we had all the arctic nations come together and discuss 
that for about three days.
    The evidence is clear. There is climate change. There is 
global warming. There are anthropobenic effects. We need to 
understand the extent of those types of effects. The trends are 
not looking good. In fact, they may not be linear. In fact, I 
suspect they are not linear. They can become autocatalytic over 
time, so you just can't take what has happened in the past and 
project it very comfortably into the future.
    I think it is a global problem that will require global 
approaches to research and global approaches to mitigation.
    Mr. Bartlett. To whom do we turn for some agreement on what 
the facts are so that we can have an intelligent conversation? 
Another area that is very important is the energy area and peak 
oil. And if, in fact, we have reached, as many people believe 
we have, the maximum capability of the Earth for producing oil 
from conventional sources, then we, in the United States 
particularly, in the world in general, faces a very uncertain 
future.
    Dr. Bement. Well, I would recommend you turn to the 
National Science Foundation. First of all, we don't fetter any 
of our staff or any of our grantees in taking an open stance on 
any issue. In fact, we have requirements in our grant manual 
that requires open sharing and open publication and open 
discussion of issues. So that goes on all the time. And 
certainly, we would welcome any questions you have on any of 
those issues. And certainly, working with the National Science 
Board, that is an ideal place to raise some of those issues.
    Mr. Bartlett. As an example of one of the areas, and you 
mentioned the cellulosic ethanol, there is now a lot of hype 
about cellulosic ethanol. A speech was given by Hyman Rickover, 
50 years ago the 15th day of this May, to a group of physicians 
in St. Paul, Minnesota. And in that, he noted that the time 
would come when we needed--when we would have to change from 
fossil fuels to renewables and that there would then be a 
tension between food and energy, and we have seen that tension 
in corn ethanol. We produce relatively trifling amounts of 
ethanol from corn, but we doubled the price of corn, and 
tortillas have gone up so that poor Mexicans can hardly afford 
to buy them. And our dairy industry is dying now because of the 
increased price of corn.
    So now, we are turning to cellulosic ethanol, but Hyman 
Rickover also noted that there was going to be a tension 
between energy and soil fertility. What is the potential for 
cellulosic ethanol? To whom should we turn for a rational 
analysis to this, because now there is a lot of what I think is 
irrational exuberance over this?
    Dr. Bement. First of all, I worked with Admiral Rickover in 
the Pentagon, and I--some years back, and I had an opportunity 
to see how his mind works, so it doesn't surprise me a bit that 
he was 20 years or 30 years ahead of his time.
    Cellulosic ethanol is an opportunity for the future. There 
is a lot of research going on at the present time to determine 
how to break cellulose, as well as lignin, for that matter, and 
to do it economically through better enzymes and through better 
bacteria strains to convert cellulose to starch to alcohol.
    I think the hidden challenge is water. This nation is going 
to be challenged for water supply, and you can't produce 
ethanol without water. And so the idea that you can go into the 
grasslands and suddenly set up huge factories to produce 
cellulosic ethanol or even corn-derived, fermented alcohol, I 
think, is a little bit too optimistic unless you can figure out 
how to pipe water to the production facilities. My feeling is 
that Michigan is probably in a very good position, as compared 
with, say, South Dakota.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Chairman Baird. Dr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Thank you, Mr. Ehlers.
    I want to commend the Board. I spent my career--I am a new 
Member of Congress, and I spent my career in the research and 
development area, and I have always been impressed with the 
National Science Foundation, the sorts of projects that are 
funded, how efficiently they work, and so on. So I think it is 
a very good operation. I am proud to be on the Committee 
overseeing that operation.
    Now I have a couple of questions.
    My first question is a structural issue.
    What, specifically, is being done to award--in the merit 
review process, to award new researchers as opposed to 
researchers with a track record of publications? And in that 
process, how can we make sure that we are being fair to the 
more seasoned researchers?
    Dr. Bement. Well, as I mentioned in my opening remarks, we 
take a look at what I would call market share, which is a 
surrogate for competition, competitiveness. And when we see 
that new researchers are garnering about 28 percent of the 
awards, that is good, in itself, but it has been stable over a 
time when the success rate has gone down, which means that we 
are now in a more competitive time than we were maybe six or 
seven years ago. But at the same time, we have been able to 
sustain that market share for younger investigators.
    The one thing that I have tried to do is to put more 
emphasis on unsolicited grants, because it is usually 
unsolicited grants where young investigators get their start. 
They build their research teams, and they have a bright idea, 
perhaps an extension of their dissertation, but perhaps not. 
And I can report that when I came into the Foundation, the 
percentage of research grants that were unsolicited was at 71 
percent, which means that 29 percent were solicited. Today, the 
unsolicited grants are up to 80 percent, and the solicited 
grants are at 20 percent, which indicates we are skewing the 
opportunity for these types of, you know, grant proposals from 
young investigators.
    The other thing is that every young investigator has to go 
through a learning curve. When they first come to a university, 
they have got to set up a research group. They have got to 
equip a laboratory, and then they have to figure out what the 
first graduate student is going to work on. And then usually 
the first two or three proposals don't make it. So they need 
feedback, and they need encouragement, and they need mentoring 
in getting up that learning curve. And our program officers are 
absolutely masters at providing that type of guidance and that 
type of feedback. But again, I go back to my earlier point. 
They are very much overworked, and the more opportunity we give 
them, the better they can do their job.
    Mr. McNerney. Okay. I have an unrelated question.
    I did--I am struggling through the report ``Rising Above 
the Gathering Storm.'' In the--it is a disturbing report, and I 
agree with the conclusions.
    Now our subcommittee was informed that only two of the 
eight division directors and deputy division directors in the 
NSF education directorate are filled by temporary employees, 
and the other six positions are vacant. Now I am glad to see 
Dr. Marrett in the audience, but has that situation changed or 
is there something that we need to take steps on in that 
regard?
    Dr. Bement. Well, the reason the situation has changed is 
because Dr. Marrett is on board, and she is looking to fill in 
those positions and to develop her own team. But let me ask if 
she wants to add anything. Those positions will be filled very 
shortly.
    Mr. McNerney. Okay. All right. Thank you.
    I yield back.
    Chairman Baird. We have been joined by the Ranking Member 
of the Full Committee, Mr. Hall from Texas.
    Mr. Hall. I yield my time at this time. I thank you.
    Chairman Baird. Thank you, Mr. Hall.
    Dr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Earlier, Ranking Member Ehlers had mentioned his great 
esteem that he holds for NSF, and I certainly will concur with 
that. And it is good to see, Dr. Bement and Dr. Beering, both 
of you here today. And I will always hold NSF especially in 
high esteem, as I always say to you, because I have applied for 
one NSF grant in my life, and I received it, so I am always 
very happy with NSF. And that was as a--that was a dissertation 
improvement grant, and so I am especially attuned to the 
importance of nurturing young investigators.
    But what I want to ask about here, going down to a lower 
level in terms of school level, I am pleased to see that the 
President's American Competitiveness Initiative proposes 
doubling the research budgets, but the education budget is 
getting a much smaller increase, and we continue to see the 
latest NAEP results, problems that high school students are 
having, 40 percent scoring below basic math level. But we are 
not seeing the increases or we are seeing decreases in the 
funding for education at NSF.
    Now how is NSF going to accomplish the goal of reversing 
these trends and educating more, bringing up the education 
level of science, math, STEM education in general with these 
under-fundings in these crucial areas?
    Dr. Bement. Well, let me say, Congressman, that education 
is fairly one of our highest priorities, if not the highest, 
and we work closely with the Board on this issue. You ask about 
national needs and whether the Science Foundation is addressing 
national needs. I can't think of a more important national need 
at the present time than education. And here I am talking about 
K to post-doctorate; continuity all up the learning ladder.
    Our focus is pretty much in three areas. Clearly, one is to 
produce more STEM-educated teachers and also to upgrade the 
content proficiency of existing teachers, so teacher 
preparation and in-service training are critically important.
    The second major priority is to fill up the pipeline to 
encourage students through better instruction, through more 
excitement in the classroom, through more activity-based 
learning, through better integration of informal education with 
formal education so that science museums, members of the media, 
and even communities can be engaged.
    Mr. Lipinski. I appreciate all that, but are you concerned 
that in the proposed budget there is not enough funding for 
education and that, perhaps, NSF is, in some ways, being 
squeezed out of the K-12 education sector?
    Dr. Bement. Well, I think that is turning around. We do 
have the opportunity in 2008 in our Math and Science 
Partnership to award $30 million worth of new grants, and I 
think that came about as the result of the evaluation of that 
program to show that it was very effective in increasing both 
math and science proficiency. So we hope that sent a different 
slope at the present time, a positive slope instead of a 
negative slope.
    You know, any other programs that we have targeted because 
of their effectiveness. Some deal with undergraduate education, 
but the GK-12 program, which is a program that makes possible 
graduate students going into the classroom in K-12 classes to 
serve as a resource base in teaching math and science, working 
with the teachers, working with the students, and that has 
turned out to be one of our most effective programs by 
providing that role model in the classroom.
    Some of these programs were not plussed-up in 2008, because 
they are still undergoing evaluation, and at the time the 
budget was being put together, we had the mandate from Congress 
that we establish the American Competitiveness Council. And the 
sense of Congress was that programs shouldn't be substantially 
increased unless they had been shown to be effective through 
third-party or rigid evaluation.
    Some of the programs that were flat-funded are undergoing 
evaluation in 2008. Some will be completed in 2007, so my full 
expectation is that we will continue to push on these programs 
and try and plus them up in the future budget cycles.
    But your point is well taken. We just have to continue 
pushing on the NSF role in education.
    Mr. Lipinski. If the Chairman will indulge me for another 
30 seconds, I just want to say I am looking forward to the 
National Science Board's STEM education proposal that will be 
coming out.
    And I am also interested, and maybe I will follow up later, 
about what is going on in terms of NSF with nanotechnology and 
the National Nanotechnology Initiative, what NSF is doing and 
also about the Interagency Hydrogen and Fuel Cells technical 
Task Force, what is going on with that. But I will yield back 
right now.
    Chairman Baird. Thank you, Dr. Lipinski.
    Mr. Hall is prepared to ask some questions at this point.
    Mr. Hall. Yes. Thank you. And I am sorry to be late. Most 
of us--all of us, I guess, have other committees that require a 
lot of our time, and I didn't know what questions had been 
asked, Mr. Chairman, but you are very capable of handling this, 
and I appreciate you and appreciate the things in your 
background.
    And Dr. Ehlers, of course, is one we go to, and he is 
really the champion of the National Science Board and folks 
that are taking the leadership there.
    I wanted to ask Dr. Beering and Dr. Bement, I guess either 
one of you, most of the K-12 education fund in the President's 
American Competitiveness Initiative is for programs at the 
Department of Education, and our Committee has a few bills 
before it that speak to K-12 education at the NSF, particularly 
H.R. 524, which was a partnership for access to the 
laboratories science bill, and H.R. 362, the 10,000 Teachers, 
10 Million Minds Math and Science Scholarship Act. Now I guess 
I would ask you to comment on those bills, if you would, in 
post-hearing questions.
    But for now--I will ask that later. But what other role 
should NSF have with regard to the competitiveness agenda and 
the K-12 STEM education? Dr. Beering, do you want to go first?
    Dr. Beering. I will defer to----
    Mr. Hall. Or do you want to go second?
    Dr. Beering. I will defer to my colleague, yes.
    Mr. Hall. All right.
    Dr. Bement. Thank you, Mr. Hall, for that question. It is a 
very important question.
    The funding provided to the National Science Foundation for 
education amounts to one-tenth of one percent of the total 
funding that goes into education, the K-12 education. So it is 
a very precious resource. And that resource needs to continue 
to be focused on research and development, because there is 
very little funding that is available for research and 
development in education to develop better methods, better 
instruction materials, better teacher training, and so forth.
    And that means that at the end of our process, as we get 
into advanced development, we will be able to show that these 
programs are effective, have an impact, can be scaled, can be 
transferred, and are sustainable. Those are the principle 
objectives of many of our programs. It requires effective 
partnerships with the states, with the school boards, and with 
other entities in order to hand that off and carry it into 
implementation. That is what we spend a lot of time in our 
programs doing, is establishing partnerships, the Math and 
Science Partnership program is a clear example, in order to 
carry those new methods and best practices into implementation. 
And that will continue to be our approach.
    The one thing that would really drain our resources is if 
we--in any bill, we are asked to really take on the 
implementation role, because that is more than we could 
possibly handle with any foreseeable resource that we could be 
assigned.
    So I would urge the Committee to pay attention to some 
focus on education, research and development, and appropriate 
resources for the research and development in these bills.
    Mr. Hall. Do you care to add to that?
    Dr. Beering. When we come forward with our STEM Commission 
recommendations, I wouldn't be surprised if you will hear that 
one of the most important changes that is necessary for America 
is revision of our attitude and commitment at the family and 
community level. As I have traveled around the country and the 
world in this regard, I am struck by the fact that we send our 
kids off to school and forget them there, and the families and 
the communities are perfectly happy with that arrangement. We 
are going to have to re-evaluate that. That won't cost any 
money, but it will certainly wrench the way we look at things.
    Mr. Hall. Those are two good answers. I like those: it 
doesn't cost any money and it does more.
    I have one other question I want to ask Dr. Bement.
    I don't think the Committee plans to hold a separate 
hearing for the NSF fiscal year 2008 budget, so if you would 
oblige me, just for a moment, to ask a few questions related to 
that.
    The fiscal year 2007 joint budget resolution is favorable 
to NSF's research and related activities. This may have been 
asked. If it has--however, most of your other programs remain 
at the fiscal year 2006 levels. What impact will this have on 
the agency? And have you asked that, Dr. Ehlers?
    Dr. Bement. Well, it is a very good question.
    Obviously, we are very grateful and very excited about the 
increase in the Research and Related account budget. That will 
allow us to go forward with a number of new initiatives.
    The two areas that are still problematic for us is the EHR 
budget, which you have indicated. If we look at the increase 
from 2006 to 2008, there is a fairly healthy increase in much 
of the EHR budget, but it would have been very gratifying if we 
could have gotten some attention in the continuing resolution 
for EHR.
    The other part that is strained, at the moment, is that we 
have all of this wonderful money in our research account, but 
we didn't get any money in our Agency Operations and Award 
Management account. So we are already starting from a situation 
where we have an extreme overload on our program officers. 
We've only exacerbated that. That is both the good and the bad 
part of it.
    Mr. Hall. I thank you. And I think Dr. Ehlers has already 
inquired about the industry partnerships, the parts of the 
language you like and don't like and the drafting 
recommendations.
    I yield back my time, and I thank you.
    Chairman Baird. Thank you, Mr. Hall.
    We will have another round, if the witnesses are available 
for a few more minutes.
    Great, then as per the custom, we will continue to go back 
and forth between both sides.
    Just a very quick thing, I don't want to take too much time 
with it, but Dr. Bement commented earlier about NSF's policy to 
allow but not require cost sharing.
    Dr. Beering, is the Board consistent with that perspective, 
that the allowance of cost sharing is supported by the Board?
    Dr. Beering. Yes, indeed.
    Chairman Baird. Okay. That is good to hear, because I think 
it is important, I fully believe. Industry, which is coming to 
us through ``Rising Above the Gathering Storm'' and a host of 
other studies is pointing out that we need a well-educated 
workforce and scientists. And I think it is important that they 
play a participatory role in that process. And I want to make 
it possible--make sure we make it possible for them to do so. 
And indeed, while I wouldn't require it, I would encourage. I 
think Dr. Bement's point is well taken that not everyone can 
obtain such a cooperation or co-funding, but to the extent that 
someone can help bring that to the table, I think there is a 
nice synergy possible, and it should be allowed.
    A question I have--that occurs to me, as I have talked to 
some of the discipline-based scientists in some of the 
universities, is--can we use the NSF grant process for research 
to facilitate the educational enterprise and the educational 
enterprise of two levels, one educating more scientists per se, 
but also educating more science educators. And it seems to me 
there is potential for either competitiveness or 
complementariness between grants. And let me give the example: 
If we award a large research grant to an individual, does that 
possibly insulate them? Depending on how we structure the 
grant, does it possibly insulate them from the activity of 
actually training new scientists or training science educators? 
Or are there ways we can structure grants to incentivize those 
who educate to directly involve themselves in the education of 
scientists? I talked to one scientist who said, ``You want us 
to start making sure we educate enough scientists? Tie our 
grants to it.'' He knew where his bread was buttered.
    And I would be--I welcome your thoughts about that.
    Dr. Bement. Well, I am absolutely floored that that 
question came up, because in our Criterion 2 for our grants, 
``other impacts,'' that, clearly, is an area of focus. And we 
not only encourage it, but we expect it. Not only that, but we 
also require accountability. So it is not just reporting on the 
good science that was done under scientific merit. It is also 
important that they report on how they fulfilled their promise 
in Criterion 2, as far as education is concerned.
    The other thing that I would mention is that a good bit of 
our education and research on education is really carried out 
by our research directors. It is not done just in EHR. In fact, 
there is a very close partnership, mutually leveraging 
education, that can be supported by the research directors in 
bringing new content knowledge into not only undergraduate 
education, but also K-12 education.
    So we need to do a better job in our website to make sure 
the community really does understand that.
    Chairman Baird. Well, if two identical grants were to 
arrive at the desk of the reviewers, with the sole difference 
between them that one places explicit and greater emphasis on 
utilizing a portion of the grant to educate new scientists and 
to coordinate with the Science Education Act, that would be 
looked on more favorably, conceivably, if every--all other----
    Dr. Bement. Well, there is the question of whether we would 
give preference in Criterion 2 for education or for industry-
coupling and so forth.
    The one thing that we have to be very cautious about is 
that we don't use ``other impacts'' as a trump against 
scientific merit, because the scientific merit has to be there, 
and it has to be solid, otherwise, we begin to tarnish our gold 
standard of merit review.
    But those things are all taken into account by our panels 
and the chances are pretty high that they will be considered.
    Chairman Baird. We have yet to address issues of--in any 
detail today, of encouraging and supporting researchers of 
diverse backgrounds, and particularly ethnic diversity or 
economic opportunities and also gender issues.
    I would appreciate either of you commenting briefly on that 
in what remaining time I have left.
    Dr. Bement. Well, broadening participation has been a high 
priority in the Foundation since I have come. It is in our 
priority list. It is in our strategic plan. It is up front in 
all of our research directorates and research offices. They 
take that very seriously. In fact, if you look at the total 
investment across the Foundation, with broadening 
participation, about a quarter to a third of that is funded 
through the research directorates and research offices in a 
variety of ways. And of course, that only provides internal 
leverage to be able to do more than we are currently doing.
    So I am pretty proud about the wide variety of programs 
that we have that are dedicated to broadening participation and 
the way that we can integrate those to get more impact and more 
leverage.
    Chairman Baird. Dr. Beering, do you care to comment on 
that?
    Dr. Beering. I would certainly agree with that. I am 
reminded of an experience I had while I was Dean of the medical 
school at Indiana. The accrediting commission came by and said, 
``Why don't you appoint a woman plastic surgeon?'' And I looked 
around, at the time, and there weren't any. And we have 
certainly fixed that issue, and it was by way of first finding 
out there was a problem and then paying attention to it in the 
way that Dr. Bement has described.
    Chairman Baird. Thank you, Dr. Beering.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, just a comment.
    Several years ago, several of us in the Republican majority 
were successful in getting a bill through the Congress to 
double the NSF funding in five years, and that eventually led 
to the present doubling plan, doubling in 10 years.
    Many of the problems we discussed here would be solved by 
having some additional funding. So in my mind, five years is 
better than 10 years. So let me challenge the new majority to 
try to go back to the bill we passed. And I encourage you to do 
whatever you can to meet that standard.
    The other comment, we talked a bit about the young 
scientists versus the older scientists. Let us take just a 
broader view of that. Years ago, I know that Europe was very 
concerned about the brain drain of scientists moving to the 
United States. I am starting to discern a brain drain the other 
way because of a lack of adequate funding here and increasing 
funding in other countries. We have actually lost ground 
compared to other countries, several other countries, for 
rapidly increasing their research funding.
    I personally know a scientist who moved to Europe recently. 
He was tired of struggling with annual grant requests and 
thought it would be wonderful to have a lifetime appointment 
with a guarantee of research funding.
    That is our competition. And so I just wanted to mention 
there is that aspect of it.
    Another one, we make a great deal about peer review in the 
United States, and I think it is excellent, but it is also very 
important to have peers. And I talked to a young scientist 
recently who is not at all happy, because--and it was not just 
young scientists versus older scientists, but this person had a 
very good new approach, was being recognized in the field for 
that, applied for an NSF grant, and was appalled at some of the 
comments by some of the so-called peers who reviewed it in 
which the comments indicated a basic misunderstanding of the 
science involved, obviously, who were not familiar with it. He 
was even more discouraged when he contacted the person in 
charge of that directorate and talked to him and found out he 
also did not understand.
    So I think a major chore is not just worrying about young 
scientists getting it, but recognizing that many times the 
young scientists have new ideas that, if someone has not been 
active in the research field for a few years, may have passed 
them by.
    So it is a multi-faceted problem. It is not just young 
versus old.
    Dr. Bement. Yes.
    Mr. Ehlers. And I think you could make a good argument for 
dramatically increasing the funding for young scientists, but 
also we have to have a good peer review.
    Dr. Bement. Even though there wasn't a question there, I do 
have some opinions on those remarks.
    First of all, in our peer-review process, inasmuch as we 
are emphasizing frontier research, we do try to include younger 
scientists who are pretty well recognized, because they know 
where the frontier is and they know what is important at the 
frontier and where the important research is being done. And 
that has been a very positive contribution in our panels and 
even our individual reviews.
    But we do have due process within the Foundation where 
investigators who have been declined, can challenge the 
decline. And that goes through several steps of review all of 
the way up to the Deputy Director. So there are ways in which 
someone who feels that they haven't had an adequate peer review 
can get the attention of the Foundation.
    Mr. Ehlers. I hope you also recognize that the reluctance 
of a new researcher about doing that and alienating the 
leadership of the NSF.
    Dr. Bement. I do, indeed.
    Chairman Baird. How often is that actually done, Doctor, 
that someone appeals a--especially successfully appeals a----
    Dr. Bement. Well, it is not very frequent. As the Deputy 
Director indicated, she has only had one appeal that came up to 
her level as a final appeal step, and it wasn't worthy of 
consideration, so it was denied.
    Chairman Baird. Dr. McNerney.
    Mr. McNerney. Thank you.
    As we have sort of been talking this morning, education is 
one of the issues that challenges our country in terms of 
science and technology. And I think it is--a lot of it is a 
cultural issue. Many of the young people don't look at science 
as a profession nor engineering as a profession that appeals to 
them. Is there anything that can be done within the National 
Science Foundation to sort of change that perception or attack 
the cultural issue that we are facing in terms of attracting 
young people into this profession?
    Dr. Bement. Absolutely, there is, Congressman.
    The focus right now is introducing science earlier in 
elementary school, perhaps third to fifth grade, and even 
engineering, for that matter, because that is hands-on, and 
that can excite children toward science and engineering and 
give them some early understanding about what these fields are 
all about.
    The other thing that we can effectively do is try and work 
at the interfaces between primary and secondary education, 
secondary education and community colleges, and with 
institutions of higher learning, universities and colleges. And 
this is the continuity I was talking about, because, 
oftentimes, a child will have a wonderful experience in 
elementary school and transition to a secondary school that may 
be a troubled school that may not have very adequate teaching 
talent in STEM education, and then it suddenly dissipates, it 
is a turn-off. And the same thing between high school and 
college. So there needs to be more effective attention given to 
reducing the barriers and coupling preparation with expectation 
and entrance requirements at universities so we don't lose 
people from those pathways as they move through the system. And 
that is where a lot of our effort is focused.
    Mr. McNerney. Well, in my district, there are some 
economically-disadvantaged areas, and I see a lot of young 
people that aren't engaged in the process. And what I would 
suggest is that we find a way to make the science more 
glamorous looking or engineering more appealing, because that 
is what it is going to take. We are going to have to go across 
those barriers to get people involved, to make children 
understand not only the practicality but also the beauty of 
science. And so that is my recommendation.
    Dr. Bement. No, you are absolutely right. This is where the 
business community can come in, because we know that even in 
some troubled areas where the business community is not only 
committed but actually engaged, and where they can provide 
release time for their scientists and engineers to work with 
the public schools, that makes a difference.
    Also, again, coupling informal with formal education can be 
a way of exciting young minds to what science is all about, and 
that is a very effective program. In fact, as I go to public 
schools, I ask the young children, do they know about the 
National Science Foundation. Only a few hands go up. But when I 
mention some of the television programs that we sponsor, almost 
all of the hands go up, which makes me feel very good.
    Mr. McNerney. Thank you. I yield back.
    Chairman Baird. Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    The Chairman noted the relatively large contributions to 
energy that conservation could make, like buying a more 
efficient car or carpooling as compared to hard-run 
contributions of additional energy from alterative sources, 
which reminded me of a very interesting graph that on the 
ordinate has satisfaction with life, how good you feel about 
your life. And on the abscissa is per capita energy use. And if 
you can imagine that little graph in your mind's eye, we are 
way up at the upper right. This one person in 22 using a fourth 
of all the energy in the world, and there are 150-some 
countries, and they polled each of these countries how good 
they felt about their life, and they put a little spot on the 
graph. And not too surprisingly, way down on the left side of 
the graph, you have to have some meaningful amount of energy 
before you could feel good about your life. But that curve 
rises very steeply there. And after rising very steeply there, 
it then approaches something of an asymptote that gets a little 
bit beyond where we are. But there are 27 countries in the 
world who use less energy than we, some of them less than half 
as much energy as we use, who feel better about their station 
in life than we feel.
    And I mention this because as big as the challenges are in 
the hard science areas, I think the biggest challenges for the 
future are going to be in the soft science areas. We are just 
going to have to get used to, as a world, and particularly in 
this country, living with less energy. And that is going to be 
a real challenge in the soft science areas. Now I come from the 
hard sciences in my personal training, but I recognize that in 
the future, we are going to have really big challenges in the 
soft sciences. Is this a role that the National Science 
Foundation plays or do we need to look for another entity for 
leadership here?
    Dr. Bement. No, Dr. Bartlett. It is a role that we are 
playing, and we pay a lot of attention to it.
    I might indicate that we do have energy initiatives in 
hydrogen and fuel cell technology and advanced combustion, 
other means of conservation, including renewable fuels. And of 
course, these are proposals that are sent to us by top-ranked 
scientists who are really looking at the frontier of these 
fields and looking way, way ahead into the future.
    But your point of bringing in the human factors associated 
with energy production and energy use and also satisfaction are 
very important components. I think one of the reasons why we 
are probably energy hogs, but not as well satisfied as we would 
like to be, is because of differences in productivity but also 
the fact that we work ourselves to death compared with other 
nations where their lifestyles are considerably different.
    That is a very rich area for social science and for 
understanding human factors.
    Mr. Bartlett. I am glad you mentioned hydrogen and fuel 
cells in the same breath, because, as you know, and I suspect 
not everybody knows, hydrogen is not an energy source. It is 
simply a convenient way to carry energy from one place to 
another. And of course, when you burn it, you get only water, 
which is not very polluting, but if we are really going to 
exploit the potential of hydrogen, it has to be with a fuel 
cell, doesn't it, because----
    Dr. Bement. Yes.
    Mr. Bartlett. This is a great candidate for a fuel cell, 
and in a fuel cell, you get at least twice the efficiencies you 
get in a reciprocating engine. Just burning hydrogen in a 
reciprocating engine doesn't make much sense.
    Dr. Bement. Well, you put your finger on it, and you are 
absolutely right. You have to look at net energy used, which 
means that you have to take into account the energy used in the 
production of hydrogen. And if you are going to use energy, a 
fair amount of energy, especially thermal energy or electrical 
energy in electrolysis, for producing hydrogen, you had better 
darn well get it back with a higher-efficiency engine.
    Mr. Bartlett. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Baird. Dr. Bartlett, as always, insightful 
questions, and I appreciate that, as often comes from Members 
of this committee.
    One final question, and then we will adjourn.
    I am very interested in the role of technical education and 
particularly sciences in the role of technical education.
    As I have talked to a number of our major employers back 
home, yes, they need top-flight scientists to do the high-
technology engineering and research, but they also need folks 
who can just work in a high-technology environment, do such 
things as basic math, averages, scatter plots, the kind of 
things that, unfortunately, oftentimes, our high school 
graduates can't do.
    Could you, either of you, talk briefly about the technical 
education aspects of NSF and what you see as the future of 
that?
    Dr. Bement. I am going to address it in a way that Dr. 
Beering can also address it, because, coming from Purdue, I am 
familiar with the outstanding technology program that they 
have.
    Oftentimes, when we compare ourselves with China and India, 
we talk about the large number of engineers they produce and 
compare it with the number of engineers we produce. But 
oftentimes, we don't include technicians and technician 
training in the equation. And yet, if you look at what those 
people do, our technicians are fulfilling jobs in the workplace 
very much like the engineers in other countries are fulfilling. 
So we ought to pay attention to that.
    Through our Advanced Technological Education program, our 
ATE program, we have developed partnerships with industry. In 
about 90 percent of our ATE programs, community colleges work 
in cooperation with the private sector. And the reason why 
those partnerships are critically important is that the private 
sector has the jobs. They know what skill requirements they are 
going to need, not only today, but in the future. So those 
industry leaders are the ideal people, and their engineering 
staffs, to help structure the curricula for these community 
colleges. In all of their evaluations, we are finding that that 
is one of the most effective programs we have in the NSF, not 
only in training top technical talent, but taking away the 
excuse, in the private sector, that ``we have to go abroad 
because we can't find the technical talent we need here in the 
United States.'' I would like to see us get rid of that through 
more investment in our ATE program.
    Chairman Baird. Dr. Beering, any comments?
    Dr. Beering. Yes, we are going to speak to that with our 
engineering and also STEM task forces very shortly. And I would 
second what Dr. Bement has said. The concern about the Chinese 
engineers, for example, is that we haven't identified who these 
people really are, and they are mostly technologists rather 
than engineers in the sense that we employ that term. So the 
differences are not as dramatic as they appear on the surface.
    Another problem we have, anticipating what you will hear 
from our STEM group, is that we do not welcome working 
professionals into the educational system. There are licensure 
problems and cultural blocks, and we need to do that. There are 
lots of retirees, for example, that would be delighted to come 
into the educational curriculum work, and I hope that we can 
get that done.
    Chairman Baird. I note, for example--I appreciate that, Dr. 
Beering. Neither Dr. Ehlers nor I would be certified to be able 
to teach in our respective disciplines at the high school 
level----
    Dr. Beering. Right.
    Chairman Baird.--and interestingly enough, on the 
vocational front, I know that some top-flight welders, folks 
who have worked their whole life in welding and know it inside 
and out, couldn't teach--couldn't get a teaching certificate. I 
think we ought to look at that.
    I thank our witnesses. Are there other comments or 
questions from the panel?
    If not, then, before we bring the hearing to close, I want 
to thank our witnesses for their outstanding work and for 
testifying before our subcommittee. This has, indeed, been a 
highly educational experience for us. And our witnesses have 
given us a lot to consider as we proceed with developing and 
marking up legislation to authorize programs at the National 
Science Foundation.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Committee may ask of the witnesses.
    Without objection, so ordered.
    The hearing is now adjourned. Thank you, again.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Arden L. Bement, Director, National Science Foundation

Questions submitted by Chairman Brian Baird

Industry Internships and Partnerships

Q1.  In the IGERT program, students may do industrial internships. What 
percentage do intern in the private sector? What other programs besides 
GOALI promote or allow industry internships?

A1. Approximately 22 percent of students who have participated in the 
Integrative Graduate Education and Research Traineeship (IGERT) program 
have reported that they have done research with industrial scientists 
in the United States. NSF has a large number of programs that promote 
and encourage industry/academic partnerships which provide student 
exposure to industry, without formal internship components. Examples of 
such programs are the Partnerships for Innovation (PFI), the Industry/
University Cooperative Research Centers (I/UCRC), and the Information 
Technology Experiences for Students and Teachers (ITEST). NSF supports 
a number of programs that sponsor formal graduate and undergraduate 
internships with a focus on industry. For example, the Engineering 
Research Centers (ERC) supported by the Directorate for Engineering 
(ENG) requires that each ERC form a partnership with industry. 
Industrial personnel work closely with the faculty and students 
providing guidance on industrial interests in research, sponsoring 
fellowships and internships for students to carry out research on site 
in industry. The Mathematical and Physical Sciences Directorate (MPS) 
also has several notable programs that connect students with the 
private sector. For instance, the Research in Industrial Projects 
(RIPS) Program allows high-achieving undergraduate students to work in 
teams on real-world research projects proposed by a sponsor from 
industry or a national lab. The Statistical and Applied Mathematical 
Sciences Institute (SAMSI), the Institute for Mathematics and Its 
Applications (IMA), and the Mathematical Biosciences Institute have 
programs that foster industry/academia partnerships which offer student 
internship opportunities, quite relevant to the American 
Competitiveness Initiative (ACI). The Education and Human Resources 
Directorate (EHR) also supports programs that promote industry/academic 
exchange. An example includes the Advanced Technological Education 
(ATE) program which focuses on the education of technicians for high-
technology fields through activities such as student internships in 
industry.

Q2.  Does NSF have any officials designated as ``liaisons'' to industry 
to facilitate NSF/industry partnerships outside of formalized program 
structures. Does such contact occur through divisions sponsoring formal 
industry-partnership programs such as the Centers? Or is all of the 
contact made by the grantees themselves?

A2. Forging partnerships with industry is important to NSF. It helps 
expedite the transition between basic and applied research; strengthens 
the economy; and encourages innovation and productivity. While 
discussions and interactions with industry occur at events such as 
conferences, symposia, and workshops, the majority of NSF-sponsored 
partnerships develop through formal programs that encourage 
collaboration among academia, industry, and government. Several NSF 
programs are focused on partnering with industry. These programs 
include the Small Business Innovation Research and Small Business 
Technology Transfer (SBIR/STTR), the Partnerships for Innovation (PFI), 
the Grant Opportunities for Academic Liaison with Industry (GOALI), and 
the Industry/University Cooperative Research Centers (I/UCRC) programs. 
The Engineering Research Centers (ERC) program requires each ERC to 
form a partnership with industry through a membership agreement. In 
addition, the ERC Program requires that each ERC have a staff person 
designated as an Industrial Liaison Officer to facilitate the 
interaction between industry and the faculty and students and work with 
industry to speed technology transfer. To enable innovative research 
and education projects of national importance that require a center-
mode of support, the Science and Technology Centers: Integrative 
Partnership (STC) Program encourages partnerships among academic 
institutions, national laboratories, industrial organizations, and/or 
other public/private entities. STC partnerships build intellectual and 
physical infrastructures that weave together the creation, integration, 
and transfer of new knowledge. To support this effort, the STC Program 
requires that each Center establish an External Advisory Board which 
must include industry representatives and designate a staff person who 
is responsible for knowledge transfer activities. Moreover, the STC 
Program includes representatives from industry as members of review and 
site visit teams. In addition, several other NSF programs, such as the 
Math and Science Partnership, have an industry-related component 
designed to promote public/private partnerships.
    In addition to NSF's formal programs, NSF is making a strategic 
effort to improve communications and develop relationships with a broad 
spectrum of companies from multi-national firms to start-ups. The goal 
is to exchange facts and information in order to meet the challenges of 
the future and to form cross-sector partnerships. We have organized NSF 
corporate days, special speaking engagements, individual meetings and 
luncheons.

Cost sharing policy

Q3.  Please clarify the Foundation's interpretation of the Board's 
ruling on cost sharing.

Q3a.  How has the Foundation's new policy (as defined by its 
interpretation of the Board ruling) been communicated to program 
officers?

A3a. Thank you for the opportunity to provide a clarification of the 
implementation of NSF's cost sharing policy. Since issuance of the NSF 
Cost Sharing Policy in 1999, this issue has continued to be widely 
discussed by the community, as well as within NSF and the National 
Science Board (NSB). Cost sharing was most recently addressed formally 
at the NSB's 382nd meeting in October, 2004, when the Board approved a 
revision to the Foundation's policy on cost sharing to eliminate NSF 
program-specific cost sharing requirements. The following highlights 
the essential elements of this Policy, as implemented by NSF:

        <bullet>  No NSF program solicitation may mandate a 
        programmatic cost sharing requirement.

        <bullet>  There is no expectation by the Foundation that any 
        proposal submitted for funding will include a cost sharing 
        component. If a proposer voluntarily includes cost sharing on 
        Line M of the proposal budget, it is solely at the discretion 
        of the proposing institution and will not be a factor in the 
        Foundation's decision to make an award. However, once cost 
        sharing is proposed on Line M, and accepted by the Foundation, 
        the commitment of funds becomes legally binding and is subject 
        to audit.\1\
---------------------------------------------------------------------------
    \1\ If proposed, the estimated value of any in-kind contributions 
should be included on Line M. An explanation of the source, nature, 
amount and availability of any proposed cost sharing also must be 
provided in the budget justification. Section .23 of OMB Circular A-110 
describes criteria and procedures for the allowability of cash and in-
kind contributions in satisfying cost sharing and matching 
requirements.

        <bullet>  NSF program officers must follow the NSF Proposal & 
        Award Policies & Procedures Guide guidance which states that 
        they may discuss with principal investigators the ``bottom 
        line'' award amount, but may not [re] negotiate or impose cost 
---------------------------------------------------------------------------
        sharing or other institutional commitments.

        <bullet>  Any reduction of 10 percent or more from the total 
        award amount proposed should be accompanied by a corresponding 
        reduction in the scope of the project.

        <bullet>  Cost sharing commitments contained in awards made 
        prior to implementation of the revised cost sharing policy 
        remain unchanged.

        <bullet>  Failure to provide the level of cost sharing 
        reflected in the approved budget may result in termination of 
        the NSF award, disallowance of costs and/or refund of award 
        funds to NSF by the awardee.

    The new cost sharing policy was originally communicated in October 
2004 by issuance of initial implementation guidance (www.nsf.gov/pubs/
policydocs/cspolicy1004.pdf). This was disseminated widely both 
externally as well as internally to NSF program staff. Since that time, 
this policy change has been presented internally to NSF staff at 
various training sessions, including the set of program management 
seminars provided 4-5 times per year, and has been a component of our 
external outreach presentations. In addition, NSF appropriations no 
longer contain a statutory (one percent) cost sharing requirement; 
therefore, statutory cost sharing is eliminated effective with awards 
made on or after June 1, 2007. Further guidance on the elimination of 
program-specific cost sharing and removal of the statutory (one 
percent) cost sharing requirement is provided in the recently issued 
NSF Proposal & Award Policies & Procedures Guide, which may be accessed 
at: www.nsf.gov/publications/
pub<INF>-</INF>summ.jsp?ods<INF>-</INF>key=nsf07140

Q3b.  Do you have any reason to believe that the new cost-sharing 
policy has not been uniformly implemented across the Foundation?

A3b. In March 2007, the Office of Inspector General (OIG) recommended 
that NSF program officers carefully review cost sharing information 
provided by awardees. NSF Senior management has implemented staff 
training that emphasizes the importance of reviewing cost sharing 
documentation.

Q3c.  Are you still considering modifications to the new policy or has 
it been finalized?

A3c. At the March 2007 meeting of the National Science Board, the 
Committee on Strategy & Budget instituted an ad hoc working group to 
consider the impacts of the new policy (including any unanticipated 
consequences of the decision to eliminate programmatic cost sharing.) 
In addition, the Engineering Directorate is conducting a pilot with the 
Engineering Research Centers program solicitation. This solicitation 
does not impose a cost sharing requirement, but rather, requires that a 
partnership be demonstrated in the proposal. The results of this pilot 
and the findings of the working group will be presented at a future NSB 
meeting.
    While there are no current plans to alter the NSF cost sharing 
policy, further deliberations may occur as a result of the activities 
noted above.

Questions submitted by Representative Ralph M. Hall

Engaging industry

Q1.  Beyond the government wide initiatives in which NSF participates 
and the Engineering Research Centers, please give us examples of ways 
NSF engages industry to help identify and support its own internal 
research priorities.

A1. NSF routinely includes representatives of industry on its advisory 
committees. Industry representatives also serve as ad hoc reviewers. 
Currently two members of the National Science Board are from industry. 
NSF also has a number of initiatives with strong industry components. 
Involvement is more proscribed in some programs than others, but in 
general, the Foundation values and encourages industry collaboration 
wherever appropriate. Whether formal or informal, such engagement 
clearly informs NSF priorities. Here are a range of examples:

(1) Partnerships for Innovation (PFI)--

www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5261&from=fund

    The goals of the PFI program are to: 1) stimulate the 
transformation of knowledge created by the research and education 
enterprise into innovations that create new wealth; build strong local, 
regional, and national economies; and improve the national well-being; 
2) broaden the participation of all academic institutions and all 
citizens in NSF activities to meet the workforce needs of the national 
innovation enterprise; and 3) catalyze or enhance infrastructure 
necessary to foster and sustain innovation in the long-term. In order 
to pursue these goals, this program supports partnerships among 
academe, the private sector, and State/local/Federal Government that 
explore new approaches to support and sustain innovation.

(2) Industry/University Cooperative Research Centers (I/UCRCs)--

www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5501&from=fund

    The I/UCRCs program develops long-term partnerships among industry, 
academe, and government. The centers are catalyzed by a small 
investment from NSF and are primarily supported by industry center 
members. Each center is established to conduct research that is of 
interest to both the industry and the center.

(3) Grant Opportunities for Academic Liaison with Industry (GOALI)--

www.nsf.gov/pubs/1998/nsf98142/nsf98142.htm

    The GOALI initiative aims to synergize university-industry 
partnerships by making funds available to support an eclectic mix of 
industry-university links. Special interest is focused on opportunities 
for: (1) faculty, postdoctoral fellows, and students to conduct 
research and gain experience with production processes in an industrial 
setting, (2) industrial scientists and engineers to bring industry's 
perspective and integrative skills to academe, and (3) 
interdisciplinary university/industry teams to conduct long-term 
projects. This initiative targets high-risk/high-gain research.

(4) Shared Cyberinfrastructure--

    NOTE: The Council on Competitiveness conducted a study ``Partnering 
for Prosperity'' June 2006, on behalf of NSF, to evaluate the 
experiences of industrial/commercial user organizations of high 
performance computing (HPC) resources at supercomputing centers 
receiving NSF funding. Forty companies participated in the study 
involving the supercomputing centers listed below. The study concluded 
that the partnership between the NSF Centers and the U.S. businesses 
``. . .clearly has been successful.'' A hardcopy of the report is 
available from the Office of Cyberinfrastructure.

        <bullet>  The National Center for Supercomputing Applications 
        (NCSA) has maintained collaborative relationships with a broad 
        set of industry partners for over 20 years through its Private 
        Sector Program (PSP). At present, PSP partners include Abaqus, 
        ACNielson, Boeing, Caterpillar, Deere, Dell, Eclipse Energy 
        Inc., ExxonMobil, IBM, Innerlink, JPMorgan, Microsoft, 
        Motorola, Research Triangle Institute and State Farm. As part 
        of the program, partnerships support the operation of a large 
        scale, heavily used HPC system for industrial users that has 
        been upgraded in 2007. In addition, there are numerous 
        sponsored applied research activities funded by the private 
        sector partners. Firms fund activities to ensure they remain 
        fully aware of developments in technologies which are one-to-
        five years out, as well as fund projects directed to the 
        application of technologies with immediate or near-immediate 
        benefits to the sponsoring firm.

        <bullet>  The San Diego Supercomputer Center (SDSC) engages 
        with approximately 24 industrial partners in a variety of ways, 
        but the most prominent ones are in regard to hardware, 
        software, sponsored research, and research collaborations.

        <bullet>  The Pittsburgh Supercomputing Center (PSC) maintains 
        collaborative research Technology Partnerships with many 
        leading companies involved in High Performance Computing, 
        including Cray, Intel, CFS, Seagate, and Panassas. Previously, 
        PSC worked with several leaders in HPC including Compaq(HP), 
        Thinking Machines, IBM and StorageTek. PSC also has a Corporate 
        Affiliates program, designed to provide its industrial partners 
        with expertise and services to enhance and support their 
        technical computing capabilities.

(5) Computing Community Consortium (CCC)--

www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=13658&org=CISE&from=home

    The Directorate for Computer and Information Science and 
Engineering (CISE) will support this consortium as a community proxy 
for facilitating the conceptualization and design of promising 
infrastructure-intensive projects identified by the computing research 
community to address compelling scientific ``grand challenges'' in 
computing. The consortium is expected to be broad-based with members 
from higher education as well as other private and public sector 
organizations, including industry.

(6) Mathematical Sciences Research Institutes--

www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5685&org=DMS

    Mathematical Sciences Institutes stimulate research in all of the 
mathematical sciences through thematic and residential programs, 
workshops, and access to distinctive resources. Each of the seven 
institutes offers visiting opportunities for researchers in various 
stages of their careers. Among them, one can find specific programs for 
industrial postdocs, summer programs involving graduate students with 
problems from industry, and discovery-based experiences with industry 
for undergraduates.

(7) Cyber Defense Testbed for Experimental Research (DETER)--

www.isi.edu/deter/index.html

    DETER provides academic, government, and industrial scientists a 
safe environment to contain, model, and analyze malicious attacks--
especially those that might result in catastrophic damage to public 
networks supporting critical infrastructure. Overall, approximately 30 
percent of testbed users come from private industry ranging from small 
technology start up companies to large government contractors and 
private research labs. Industry partners include Juniper Networks Inc., 
Hewlett Packard, Sun Microsystems, Dell, Intel and NTT.

(8) Portia--Sensitive Information in a Wired World--

www.nsf.gov/dir/index.jsp?org=CISE; http://crypto.stanford.edu/portia/

    The Portia project has developed new methods for the detection and 
prevention of Phishing attacks, an identity attack to which millions of 
U.S. users succumb every year. Mozilla provides software and 
professional staff, including technical support in the form of resident 
scientists at Stanford.

(9) Trustworthy Cyber Infrastructure for the Power Grid--

www.iti.uiuc.edu/TCIP.html

    The project's goal is to improve the security of the power grid. 
The Electric Power Research Institute (EPRI), the research organization 
that supports the electric power industry, is a major contributor to 
the project.

(10) Materials Centers--

www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5295&from=fund

    Materials Research Science and Engineering Centers (MRSECs) support 
shared experimental facilities, provide support to stimulate emerging 
areas of materials research, and have strong links to industry and 
other sectors. Involvement in MRSEC activities by industrial scientists 
and engineers benefits those organizations in ways such as providing 
access to the latest scientific discoveries and the joint design of 
research programs to address issues of mutual interest.

(11) Nanoscale Science and Engineering Centers (NSEC)--

www.nsf.gov/crssprgm/nano

    Research at the nanoscale aims to advance the development of the 
ultra-small technology that will transform electronics, materials, 
medicine, environmental science, and many other fields. The centers 
provide coherence and a long-term outlook to U.S. nanotechnology 
research and education. The centers have strong partnerships with 
industry, national laboratories, and international centers of 
excellence.

(12) Science and Technology Centers (STC)--

www.nsf.gov/od/oia/programs/stc/

    NSF's STC Integrative Partnerships Program supports discovery and 
innovation in the integrated conduct of research, education, and 
knowledge transfer. STCs foster partnerships that build a new 
collaborative culture among researchers and educators at all levels in 
academia, industry, government laboratories, and other organizations. 
STCs have an impressive record of research accomplishments, including 
timely transfer of knowledge and technology from the laboratory to 
industry and other sectors.

(13) Science of Learning Centers (SLC)--

www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5567&from=fund

    SLCs are built around a unifying research focus and incorporate a 
diverse, multi-disciplinary environment involving appropriate 
partnerships with academia, industry, international partners, all 
levels of education, and other public and private entities.

Questions for the submitted by Representative Daniel Lipinski

K-12 education

Q1.  While I'm pleased to see the President's American Competitiveness 
Initiative proposes doubling research budgets, the education budget at 
NSF is seeing much smaller increases. This greatly worries me, 
especially when just last month the National Assessment of Educational 
Progress released results which found that nearly 40 percent of high 
school students scored below the basic level in math. Overall funding 
for K-12 programs in the FY08 request falls by nine percent from the 
FY07 CR level. The Math and Science Partnerships Program, and the Noyce 
Teacher Scholarship program, both of which address critical needs in K-
12 education, would be level funded. In addition, the Course, 
Curriculum and Laboratory Improvement program, which is the core 
program in the Division of Undergraduate Education, is slowly 
decreasing in funding.

     You state that ``encouraging new investigators to become effective 
contributors to the science and engineering workforce is a critical 
goal for the NSF.'' Can you elaborate on how NSF hopes to accomplish 
this goal and reverse the downward trends we're witnessing when the 
budget request continues to under fund this crucial area?

A1. The FY 2008 funding request for NSF's K-12 programs (the Robert 
Noyce Scholarship Program, the Discovery Research K-12 program, and the 
Math and Science Partnership programs) increases from the FY 2007 level 
by about $10.0 million or 6.5 percent. The FY 2008 request for the 
Course, Curriculum and Laboratory Improvement program is level to the 
FY 2007 amount at $37.50 million.
    NSF is encouraging new investigators to become effective 
contributors in several ways:

        <bullet>  Promoting the use of discovery-based learning, which 
        is becoming an integral feature of these K-12 programs, 
        transforming education research and practice.

        <bullet>  Increasing access to interactive data sets, 
        simulations, and up-to-date research results, as well as the 
        opportunity to interact with researchers, in K-12 classrooms 
        and in complementary informal science education venues. 
        Science, technology, engineering, and mathematics (STEM) 
        education at all levels continues to benefit from information, 
        communications, and other new technologies, with their 
        potential for more engaging and inclusive learning and 
        discovery.

        <bullet>  Developing alternative and diverse approaches to 
        excellence in education and mentoring to build strong 
        foundations and foster innovation to improve K-12 teaching, 
        learning, and evaluation in STEM.

National Nanotechnology Initiative

Q2.  NSF's contribution to the multi-agency National Nanotechnology 
Initiative (NNI) is increased in this request by $ 7 million (4.5 
percent), including $3 million more in support of research on the 
environmental, health and safety (El-IS) aspects of nanotechnology. 
This field holds great promise; it is certainly one of the most rapidly 
developing, dynamic areas of current scientific research and commercial 
development. I believe it is critical that we expand our research into 
the potential risks while the field is still in its relative infancy.

     Can you elaborate on what NSF is doing as it relates to 
nanotechnology research?

A2. NSF supports fundamental research, infrastructure, and education in 
all areas of nanoscale science and engineering (NSE), excluding 
research involving clinical testing. The NSE activities are guided by 
long-term objectives which may be used by industry, the community, and 
other agencies. NSF supports over 3,000 active awards and 24 large 
centers and trains over 10,000 students and teachers each year. The 
modes of support include single investigator, multi-disciplinary team, 
center, and network awards.
    NSF's contribution to the multi-agency National Nanotechnology 
Initiative (NNI) encompasses the systematic understanding, 
organization, manipulation, and control of matter at the atomic, 
molecular, and supramolecular levels in the size range of one to 100 
nanometers. NSF contributes to the goals and seven program-component 
areas (PCAs) outlined in the NNI Strategic Plan:

(1) Fundamental nanoscale phenomena and processes.

    The FY 2008 Request includes $142.67 million for fundamental 
research and education connecting quantum and other nanoscale phenomena 
predictively across length and time scales with the macro properties of 
materials. Emphasis will be on: novel phenomena, quantum control, and 
basic engineering processes, biosystems at the nanoscale, converging 
science and engineering at the nanoscale, and multi-scale, multi-
phenomena theory, modeling, and simulation at the nanoscale.

(2) Nanomaterials.

    The FY 2008 Request includes $60.19 million for discovery of novel 
nanoscale and nanostructured materials, and improving the comprehensive 
understanding of the properties of nanomaterials (ranging across length 
scales and including interface interactions). Research on the 
discovery, understanding, and control of materials at the nanoscale 
will be critical to the development and success of innovative 
technologies, including communications, catalysts, energy, health care, 
and manufacturing.

(3) Nanoscale devices and systems.

    The FY 2008 Request includes $51.10 million for R&D that applies 
the principles of nanoscale science and engineering to create novel, or 
to improve existing, devices and systems. A special focus will be on 
nanomanufacturing of active nanostructures and nanosystems. 
Nanoelectonics beyond silicon nanotechnology and complementary metal-
oxide superconductors (CMOS) research will explore ultimate limits to 
scaling of features and alternative physical principles for devices 
employed in sensing, storage, communication, and computation. Another 
focus will be on nano-informatics for better communication and 
nanosystem design. It includes defining the ontology of terms, 
interconnecting databases, using specific informatics tools, and 
connecting to bioinformatics.

(4) Instrumentation research for nanotechnology.

    The FY 2008 Request includes $14.50 million for R&D to create new 
tools needed to advance nanotechnology research and commercialization, 
including next-generation instrumentation for characterization, 
measurement, synthesis, and design of materials, structures, devices, 
and systems. A special challenge is developing tools for measuring and 
restructuring matter with atomic precision, for time resolution of 
chemical reactions, and for domains of biological and engineering 
relevance.

(5) Nanomanufacturing.

    The FY 2008 Request includes $26.90 million to support new concepts 
for high rate synthesis and processing of nanostructures, 
nanostructured catalysts, fabrication methods for devices, and 
assembling them into nanosystems and then into larger scale structures 
of relevance in industry and in the medical field. R&D is aimed at 
enabling scaled-up, reliable, cost effective manufacturing of nanoscale 
materials, structures, devices, and systems.

(6) Major research facilities and instrumentation acquisition.

    The FY 2008 Request includes $31.62 million for establishment of 
user facilities, acquisition of major instrumentation, and other 
activities that develop, support, or enhance the scientific 
infrastructure for the conduct of nanoscale science, engineering, and 
technology research and development. It also supports ongoing 
operations of the National Nanotechnology Infrastructure Network 
(NNIN), Network for Computational Nanotechnology (NCN) and National 
Network for Nanomanufacturing. The investment will support facilities 
for 16 ongoing Nanoscale Science and Engineering Centers (NSEC).

(7) Societal Dimensions.

    The FY 2008 Request includes $62.92 million, an increase of $3.90 
million over FY 2007, for various research and other activities that 
address the broad implications of nanotechnology for society, including 
benefits and risks, such as:

        <bullet>  Research directed at environmental, health, and 
        safety impacts of nanotechnology development and basic research 
        supporting risk assessment of such impacts ($28.75 million).

           Research will address three sources of nanoparticles and 
        nanostructured materials in the environment (in air, water, 
        soil, biosystems, and working environment), as well as the non-
        clinical biological implications. The safety of manufacturing 
        nanoparticles is investigated in four center/networks: NSEC at 
        Rice University (evolution of manufacturing nanoparticles in 
        the wet environment), NSEC at Northeastern University 
        (occupational safety during nanomanufacturing), NSEC at 
        University of Pennsylvania (interaction between nanomaterials 
        and cells), and National Nanotechnology Infrastructure Network 
        (with two nanoparticle characterization centers at the 
        University of Minnesota and Arizona State University). New 
        measurement methods for nanoparticle characterization and 
        toxicity of nanomaterials will be investigated. Support is 
        requested for a new multi-disciplinary EHS center as explained 
        in the reply to the next question.

        <bullet>  Education-related activities, such as development of 
        materials for schools, curriculum development for nanoscience 
        and engineering, development of new teaching tools, 
        undergraduate programs, technical training, and public outreach 
        ($28.38 million).

           Two networks for nanotechnology education with national 
        outreach will be supported: The Nanotechnology Center for 
        Learning and Teaching (NCLT) and the Network for Nanoscale 
        Informal Science Education (NISE).

        <bullet>  Research directed at identifying and quantifying the 
        broad implications of nanotechnology for society, including 
        social, economic, workforce, educational, ethical, and legal 
        implications ($5.79 million).

           Factors that stimulate scientific discovery at the nanoscale 
        will be investigated, effective approaches to ensure the safe 
        and responsible development of nanotechnology will be explored 
        and developed, and the potential for converging technologies to 
        improve human performance will be addressed. The Nanotechnology 
        in Society Network will be fully operational in FY 2008.

    NSF has an annual process of establishing its priorities on 
nanoscale science and engineering that includes NNI Working Group 
proposals with input from periodical workshops and meetings with the 
communities, coordination with other agencies through the National 
Nanotechnology Initiative (the Nanoscale Science, Engineering and 
Technology Subcommittee (NSET) of the National Science and Technology 
Council (NSTC)), considering the international context, industry, NGOs, 
and other perspectives.

Q3.  Can you expand on the proposed new, multi-disciplinary center that 
would conduct EHS research?

A3. The National Science Foundation is in the process of preparing a 
program announcement for a new Nanoscale Science and Engineering Center 
(NSEC) on ``Nanotechnology Environmental Health and Safety'' to be 
released later this year. This will be a NSF wide activity coordinated 
by the Directorate for Biological Sciences. It is planned to create 
education, outreach, and communication between the main stakeholders.
    Manufactured nanomaterials and their byproducts may display new 
physical, chemical, or biological properties unique to materials of 
this small size (i.e., one to 100 nanometers). The purpose of this 
multi-disciplinary center will be to conduct fundamental research and 
education on the interactions of nanoparticles and nanomaterials in and 
with the environment (air, water, and soil) and living systems at all 
scales in order to understand and address the potential impact of 
nanotechnology on the environment and living systems. A multi-
disciplinary approach involving the biological, physical, 
computational, and mathematical sciences will be employed to understand 
how nanomaterials and their byproducts interact with and impact the 
environment and living systems at all scales. Research will include but 
is not limited to methods and instrumentation for nanoparticle 
detection, characterization, and monitoring; interactions of 
nanomaterials with cellular constituents, metabolic networks, and 
living tissues; bioaccumulation and its effects on living systems; and 
the non-medical biological impacts of nanostructures dispersed in the 
environment. In addition to understanding the potential impact of 
nanomaterials on environmental health and safety, this research also is 
expected to yield reciprocal knowledge on how characteristics unique to 
the nanoscale realm play a role in natural systems and their design.
                   Answers to Post-Hearing Questions
Responses by Steven C. Beering, Chairman, National Science Board

Questions submitted by Chairman Brian Baird

Q1.  Please clarify the Board's intent with respect to the Foundation's 
policy on cost-sharing. Is the Board considering revisiting its ruling 
and/or evaluating the implementation and impact of the ruling on 
programs across the Foundation?

A1. The National Science Board has been involved with ``cost sharing'' 
since the Bureau of the Budget's (predecessor of the OMB) 1954 request 
for assistance in setting uniform policies for indirect costs for 
research grants from federal agencies.
    The Board addressed cost sharing on a number of occasions since 
1954 in regard to implementation of the 1963 statutory cost sharing 
requirements, university concerns over the logistics of calculating 
cost share contributions, and the effect cost share would have on 
wealthy and not so wealthy schools, public and private institutions, 
and between basic and applied research.
    In October 2004, NSF requested a revision to the current Board 
policy on cost sharing to eliminate NSF program specific cost sharing 
requirements and require only the statutory cost sharing of one 
percent. The Board approved that request on the recommendation of its 
Audit and Oversight Committee. The Board recently decided to establish 
an ad hoc task group within its Committee on Strategy and Budget to 
study cost sharing policies of the Foundation. The task group's 
activities will take into account the Foundation's legal requirements, 
impact of previous cost sharing policies, and the practice and 
implementation of those policies. Specifics about the Board's likely 
actions will become clearer as the task group conducts its study and 
the Board considers the task group's findings and recommendations.

Questions submitted by Representative Ralph M. Hall

Q1.  Is the Board engaged in encouraging industry partnerships? To what 
degree?

A1. The Board believes industry should be a full partner with 
government, academe, the non-profit sector and the public in 
maintaining the health of U.S. science and engineering research and 
education. Industry is by far the largest employer of scientists and 
engineers and the largest source of funding for U.S. R&D. Partnership 
with industry in policy decisions affecting the science and engineering 
enterprise is critically important and highly sought after by the Board 
and Foundation. Further, we fully endorse and support industry 
partnerships with academic institutions in education and research 
funded by the National Science Foundation. The Board membership 
throughout its history has included industry representation in order to 
reflect the leadership of U.S. science and engineering. The Board also 
provides explicit policy for NSF to initiate programs that include 
industry partnerships in research and education. For example, the 
Board's 1996 policy statement, ``Report from the Task Force on Graduate 
and Post Doctoral Education'' (NSB/NGE-96-2) provided the policy 
framework for implementation in FY 97 of alternative modes of graduate 
support ``permitting internships in industry. . .as part of the 
graduate research experience.'' Programs such as Integrative Education 
and Research Training (IGERT) have been implemented by the Foundation 
to encourage this form of academic/industry partnering. The Board 
further supports partnerships and collaboration in research and 
education in NSF funded centers, and in programs such as the Math and 
Science Partnerships. These large awards are directly approved by the 
Board after careful review, including the industry partnership 
components, and followed up by assessments of success. Renewal of such 
major grants and cooperative agreements often depends significantly on 
success in attracting industry partners, and on the level of 
involvement of such partners.
    The Board also solicits the input of industry in the formulation of 
policy for science and engineering, both as guidance to the Foundation 
and as advice to the President and Congress. Recent examples include 
Board hearings to consider the establishment of a new Commission on 
21st Education in Science, Technology, Engineering and Mathematics; the 
Board's ongoing study of Engineering Education needs for the future, 
and the 2003 Board policy report, The Science and Engineering 
Workforce: Realizing America's Potential (NSB-03-69) <http://
www.nsf.gov/nsb/documents/reports.htm>. The Board's biennial report on 
Science and Engineering Indicators includes an increasingly broad 
component of industry relevant quantitative data, and the NSF industry 
survey is in the process of being redesigned in order to improve data 
for decision making involving industrial science and technology. We 
further support grants under the SBIR and STTR programs in the 
Foundation (Small Business innovation Research and Small Business 
Technology Transfer, respectively). We expect industry partnerships to 
continue to be an essential component of projects and policy for 
science and engineering in the Foundation and an important policy focus 
for the National Science Board.

Questions submitted by Representative Daniel Lipinski

Q1.  In your testimony, you mention NSF's involvement with energy 
research as a partner in the President's hydrogen fuel initiative 
through membership in the Interagency Hydrogen and Fuel Cell Technical 
Task Force. As you may know, I, along with Representative Inglis, am a 
big advocate for hydrogen technology, having reintroduced the popular 
H-Prize bill this Congress. Can you elaborate on this Task Force, and 
give us a sense of what it has accomplished and the results that have 
come out of it?

A1. The Interagency Hydrogen and Fuel Cell Technical Task Force was 
established shortly after President Bush announced the Hydrogen Fuel 
Initiative and has met monthly since April 2003. It serves as the key 
mechanism for collaboration among the federal agencies involved in 
hydrogen-related research, development, and demonstration. As specified 
in Section 806 of the Energy Policy Act of 2005 (P.L. 109-58), the Task 
Force provides a forum for coordinating interagency policy, programs, 
and activities related to safe, economical, and environmentally sound 
hydrogen and fuel cell technologies. Co-chaired by the Department of 
Energy (DOE) and White House Office of Science and Technology Policy 
(OSTP), the task force includes the Department of Transportation; 
Department of Defense; Department of Agriculture; Department of 
Commerce; Environmental Protection Agency; National Aeronautics and 
Space Administration; National Science Foundation; United States Postal 
Service; and, from the Executive Office of the President, Office of 
Management and Budget, and Council on Environmental Quality. More 
information is available at (http://www.hydrogen.gov/
interagency<INF>-</INF>task<INF>-</INF>force.html).
    The task force ad hoc committee on a regulatory framework for a 
hydrogen economy has identified existing and regulatory statutory 
authorities, status of regulations, gaps in authority, and the lead 
agency. All of this information has been integrated into an interactive 
map complete with references to each applicable regulation or statute 
(see www.hydrogen.gov/regulations.html).
    The task force agriculture ad hoc committee is developing an action 
plan with specific coordination activities for biomass-to-hydrogen and 
fuel cell technology development and use in rural communities.
    There are a number of areas where the hydrogen fuel cell 
interagency working group (IWG) has led to interagency collaboration on 
particular topics, such as materials research, hydrogen turbines, and 
solid-state fuel cells.
    Over the past four years, the IWG has collaboratively identified 
R&D gaps that have merited additional focus, including hydrogen 
infrastructure R&D, bio-based H2 production, and directed basic 
research on fuel cells, hydrogen storage, and hydrogen production.
    The task force created extensive hydrogen research taxonomy of 
past, present, and future hydrogen activities of the Federal 
Government. More information may be found at http://www.hydrogen.gov/
taxonomy.html and http://www.hydrogen.gov/federalprograms.html
    The agencies are also working to establish a ``higher level'' task 
force with members at the Assistant Secretary level or functional 
equivalent to advise the Secretary of Energy on issues related to the 
development and use of hydrogen technologies. The task force will not 
replace the IWG--it is fully expected to that the groups will 
complement and support each other.

Q2.  You also mention NSF's Energy for Sustainability Program, which 
will fund basic research and engineering of hydrogen and other 
alternative fuel systems. Please explain this program and what it is 
doing in the field.

A2. NSF's Engineering Directorate established the Energy for 
Sustainability Program to consider a wide variety of topics and 
encourage investigator-initiated projects to capture the best and 
brightest in the engineering of energy for the future. The emphasis 
will be on research and education in energy production, conversion, and 
storage for energy sources that are environmentally friendly and 
renewable.
    The program is aimed at university researchers involved in basic or 
fundamental engineering research to advance renewable energy sources. 
Small business ventures are also eligible to apply to the Small 
Business Innovation Research (SBIR) program at NSF. Larger firms can 
participate in if they team with a researcher from a university through 
Grant Opportunities for Academic Liaison with Industry (GOALI).
    The FY 2007 budget is $3 million. This is a new program and 
therefore no awards have been made, but over 200 unsolicited proposals 
were received in response to the February 2007 program announcement. 
The majority of these proposals involved fuel cells, biofuels, or solar 
energy. Awardees for this round are expected to be selected and 
announced by August 1, 2007. A second program announcement is scheduled 
for August-September 2007. The program intends to fund approximately 20 
projects having budgets of around $100,000 per year for two or three 
years.
    In addition, two researchers are being funded under NSF's Faculty 
Early Career Development (CAREER) Program for work on sustainable 
energy involving direct methanol and microbial fuel cell concepts.

</pre></body></html>
